<html>
<title> - HEARING ON PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-215]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-215
 
                     HEARING ON PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2017

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 29-500 PDF           WASHINGTON : 2019
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman

Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Richard Blumenthal, Connecticut
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia

                  Thomas G. Bowman, Staff Director \1\
                  Robert J. Henke, Staff Director \2\
                Tony McClain, Democratic Staff Director

                      Majority Professional Staff
                            Amanda Meredith
                             Gretchan Blum
                            Leslie Campbell
                            Maureen O'Neill
                               Adam Reece
                             David Shearman
                            Jillian Workman

                      Minority Professional Staff
                            Dahlia Melendrez
                            Cassandra Byerly
                                Jon Coen
                              Steve Colley
                               Simon Coon
                           Michelle Dominguez
                             Eric Gardener
                               Carla Lott
                              Jorge Rueda


\1\ Thomas G. Bowman served as Committee majority Staff Director 
through September 5, 2017, after being confirmed as Deputy Secretary of 
Veterans Affairs on August 3, 2017.
\2\ Robert J. Henke became the Committee majority Staff Director on 
September 6, 2017.

                            C O N T E N T S

                              ----------                              

                             June 15, 2017
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......     1
Boozman, Hon. John, U.S. Senator from Arkansas...................    22
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    24
Rounds, Hon. Mike, U.S. Senator from South Dakota................    25

                               WITNESSES

McCaskill, Hon. Claire, U.S. Senator from Missouri...............     2
    Letters for the Record.......................................     4
Coy, Curtis L., Deputy Under Secretary for Economic Opportunity, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs; accompanied by Bradley Flohr, Senior Advisor for 
  Compensation Service...........................................     8
    Prepared statement...........................................     9
    Response to request arising during the hearing by Hon. Mike 
      Rounds.....................................................    26
Hubbard, Will, Vice President of Government Affairs, Student 
  Veterans of America............................................    28
    Prepared statement...........................................    30
Kamin, John, Assistant Director, Veterans Employment and 
  Education, The American Legion.................................    39
    Prepared statement...........................................    41
Murray, Patrick, Associate Director, National Legislative 
  Service, Veterans of Foreign Wars of the United States.........    55
    Prepared statement...........................................    57
Robinson, Brig. Gen. Roy (Ret.), President, National Guard 
  Association of the United States...............................    62
    Prepared statement...........................................    64

                                APPENDIX

Burr, Hon. Richard, U.S. Senator from North Carolina; prepared 
  statement......................................................    71
Crapo, Hon. Mike, U.S. Senator from Idaho; prepared statement....    73
Heitkamp, Hon. Heidi, U.S. Senator from North Dakota; prepared 
  statement......................................................    74
Inhofe, Hon. James, U.S. Senator from Oklahoma; prepared 
  statement......................................................    74
Lachica, Eric, Executive Director for ACFV leaders, American 
  Coalition for Filipino Veterans, Inc. (ACFV); letter...........    76
U.S. Department of Defense (DOD); prepared statement.............    77
Shellenberger, Sam, Deputy Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor 
  (DOL); prepared statement......................................    80
Enlisted Association of the National Guard of the United States 
  (EANGUS); prepared statement...................................    82
Crawford, Scott, High Ground Veterans Fellow, High Ground 
  Veterans Advocacy (HGVA); letter...............................    84
Porter, Tom, Legislative Director, Iraq and Afghanistan Veterans 
  of America (IAVA); prepared statement..........................    89
Military Officers Association of America (MOAA); prepared 
  statement......................................................    94
Morosky, Aleks, National Legislative Director, Military Order of 
  the Purple Heart (MOPH); prepared statement....................    97
National Association of College and University Business Officers 
  (NACUBO); prepared statement...................................   100
Wescott, Dr. Joseph, Legislative Director, National Association 
  of State Approving Agencies (NASAA); prepared statement........   102
Gore, Phil, Legislative Director, National Association of 
  Veterans' Program Administrators (NAVPA); prepared statement...   107
National Military Family Association; prepared statement.........   112
Paralyzed Veterans of America (PVA); prepared statement..........   113
Reserve Officers Association of the United 
  States (ROA); prepared statement...............................   114
Tragedy Assistance Program for Survivors (TAPS); prepared 
  statement......................................................   116
Veterans Educations Success (VES); prepared statement............   120
Goldsmith, Kristofer, Assistant Director for Policy and 
  Government Affairs, Vietnam Veterans of America (VVA); prepared 
  statement......................................................   127
    Attachment: Veterans Legal Services Clinic, Yale Law School; 
      memorandum.................................................   136


                     HEARING ON PENDING LEGISLATION

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:10 a.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Boozman, Heller, Rounds, Tillis, 
Tester, and Brown.

      OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. I call this meeting of the Senate 
Veterans' Affairs Committee to order.
    We are going to have a lot of things going on this morning. 
We have three critical votes that will start at eleven o'clock, 
which it is 11 right now. We have 14 bills that we are going to 
cover today or 30 different provisions included by members of 
the Senate. We have a lot of work to do. We have a lot of 
people to hear from. So, it is going to be a busy day with 
people coming in and out to go vote in the first hour and then 
finishing up in the second hour.
    The order of business is going to be: I am going to make my 
opening statement, which I am making now, then we will go to 
Senator Tester, who will make his. We will go next to Senator 
McCaskill to make her statement. I want to thank her for being 
here on time and thank her for the work she has done on the 
issue of mustard gas and the Arla Harrell Act, which she has 
worked so hard on and I have committed for a long time to help 
her with. We are glad to have her, and she will talk about 
that.
    When she is finished, John Boozman, Senator Boozman will be 
here from Arkansas to take my place and Senator Tester's place 
to conduct the rest of the meeting. I appreciate his being 
here. I also appreciate you being here, Senator McCaskill.
    Ranking Member Tester?

             OPENING STATEMENT OF HON. JON TESTER, 
           RANKING MEMBER, U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. Today's agenda 
includes a number of really important bills that will affect VA 
benefits and critical to the veterans' ability to transition 
back into civilian life and get a good job and get an 
education.
    I, too, want to thank Claire for being here today. I know 
she has worked very, very hard on this issue, and I will make a 
commitment to you to do our level best to get this thing to the 
floor as soon as we can because it is important.
    These bills also collectively symbolize the bipartisan 
cooperation on this Committee and the deference that we give to 
veterans and the organizations and advocates for their needs. 
Some of the organizations are going to be represented here 
today, and I want to welcome them. I especially want to thank 
the National Guard Association of the U.S. for joining us here 
today, because the fact is whether you are active duty, Guard, 
or Reserve, a deployment is a deployment, which is why I am 
proud to correct the unacceptable benefit inequity that 
currently exists for those deployed under 12304 Bravo orders. 
Those that deploy have our Nation's gratitude, and they should 
certainly be entitled to educational benefits as a result of 
their service.
    In addition to correcting this benefit disparity, the Ed 
for Troops and Veterans Act also allows servicemembers and 
veterans to defer student loans during predeployment training. 
It also keeps tuition assistance for Reservists and Guardsmen 
on pace with the rising cost of higher education, and it 
provides grants for veteran education centers on college 
campuses.
    I am also pleased to see legislation that attempts to fix 
lingering challenges to veterans being granted the benefits 
they deserve, bringing justice to veterans and their families.
    The bills that we will discuss today aim to address some of 
the challenges our veterans face in getting the benefits they 
deserve. I look forward to eliminating those challenges, 
improving those benefits, and streamlining the delivery. I want 
to thank you, Mr. Chairman, for holding this hearing.
    Chairman Isakson. Thank you, Senator Tester, and as is our 
tradition, if a member who is not a Member of the Committee but 
is a member of the Senate is here at our meeting and has a bill 
before the Committee, we will introduce them to present that 
bill, and as a courtesy, we do not bombard them with any 
questions. They can leave as soon as they have made their 
testimony.
    With that said, Ms. McCaskill, you have free rein. The 
Senator from Missouri, Claire McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you. Thank you so much, Mr. 
Chairman and Ranking Member Tester. Thank you for the 
opportunity to address the Committee on an issue that is very, 
very important to, I think, our country.
    I will confess that this is a big deal to me, but it is a 
big deal to me because of who Arla Harrell is.
    This is an injustice that has been perpetrated against a 
small group of World War II veterans. Throughout World War II, 
the U.S. Government conducted a number of classified tests of 
mustard agents on U.S. soldiers. The intent was to better 
understand how chemicals like mustard gas and lewisite affected 
the human body and to help the military defend against these 
threats.
    In total, approximately 60,000 servicemembers are estimated 
to have participated in these tests, with about 4,000 of them 
facing the most extreme forms of full-body exposure. Fewer than 
400 of them are still alive today.
    While the intent of these tests was understandable, the 
impact on the health and well-being of the subjects has lasted 
a lifetime.
    One of these servicemembers is a constituent of mine, Arla 
Harrell, who is very ill. He is 90 years old, whose photo you 
see beside me. Arla was twice subjected to the extreme form of 
full-body exposure of mustard gas while stationed at Camp 
Crowder in Neosho, MI, for basic training in 1945.
    Arla's story is known to this Committee. As I have told you 
before, he and his fellow subjects were told they would be 
helping the military test summer clothing in exchange for 
additional leave. It was not until they arrived at the testing 
site that they were told they would be exposed to mustard gas.
    Those who became sick during these tests, like Arla, were 
threatened with court-martial if they did not continue with the 
testing. Following his exposure, Arla was hospitalized twice, 
first at Camp Crowder while still in basic training and again 
at the 98th General Hospital in Munich, Germany. Despite the 
obvious medical impacts of the testing, Arla and thousands of 
veterans like him kept faith with the oath of secrecy they were 
forced to swear.
    When the oath was finally lifted, 25 years ago, the VA 
attempted to establish a process to compensate these veterans, 
who were finally able to talk about what happened to them with 
their loved ones and their doctors. The VA's written testimony 
states these procedures are adequate and that they have and 
continue to lead to fair and equitable outcomes. That is a 
blatant lie. They have not led to fair and equitable outcomes.
    I am not sure it is possible how they can make this 
statement since the VA has rejected 90 percent of the 
applicants who have applied for benefits concerning exposure to 
mustard gas. Of the thousands of veterans who were exposed, 
only about 40 who have applied for benefits, all but 40 have 
been denied. So, only 40 veterans have ever been given what 
they are entitled to after they did the patriotic thing for 
their country undergoing these tests.
    To give you an example of how broken this system is, the VA 
rejected Arla's claim on the basis that due to a lack of proper 
recordkeeping, it cannot confirm mustard gas testing occurred 
at Camp Crowder, given Arla's personal statements, medical 
records notwithstanding. In other words, they called him a 
liar.
    As you can see in the handouts we have provided, we have 
been able to prove that mustard gas was used at Camp Crowder 
through reports published by the Army Corps of Engineers in the 
nineties, which even detailed the recovery of vials of mustard 
gas at Camp Crowder.
    Despite all this evidence, the VA has repeatedly denied 
Arla's claim. His family has been working for 50 years to get 
him help--25 years actually since he was allowed to talk about 
it. While the current VA disability claims process may 
adequately address the needs of veterans with full access to 
their records, it simply is not capable of giving Arla and his 
fellow mustard gas veterans the fair treatment they deserve. 
The existing framework cannot adequately account for the 
classified nature of the testing, the years of secrecy, the 
poor recordkeeping, and for some veterans, the destruction of 
their case files in the massive '73 fire at the Personnel 
Records Center.
    My bill's scope is so narrowly tailored, you would have 
already had to apply for this benefit to have it impact you. 
This does not open the door to new applicants. It is very 
narrowly tailored.
    He has suffered with the effects of full-body exposure 
since 1945, 70 years after the experiments took place. The 
government still has yet to appropriately assist and compensate 
Arla and his fellow subjects.
    Arla's children have written letters outlining the terrible 
burden. I hope you will look at them. I have asked them to be 
made part of the record today, and I would ask that these 
letters be entered into the record.
    I would like to highlight one passage written by his 
daughter, Trish Ayers, who wrote, ``My dad and other living 
soldiers who endured the tests suffer with lifelong side 
effects and have kept the secrets that were required of them. 
They have all done their duty to their service and to their 
country. It is now time they are recognized and there is a more 
realistic path to securing the approval of their claims. It is 
time our country does their duty to these veterans.''
    Arla, his wife Betty, and their five children have fought 
for compensation, as I said, for 25 years. I think every Member 
of this Committee realizes that this is an extreme injustice.
    It is, they say, maybe there is 400. Last year, they 
acknowledged there were 400 people this might apply to. Every 
day that passes there are fewer. I believe the amount of money 
that is put on this bill, Mr. Chairman, $10 million, is high. I 
do not think it will even reach near that amount. It is $1 
million a year.
    I implore this Committee to find that $1 million a year for 
Arla Harrell and the handful of veterans across this country 
that deserve this.
    I know the Secretary of the VA supports this. He has told 
me that he does. I have fought the staff at the VA repeatedly 
on this. It is hard for me to understand why. But I am very 
hopeful that this Committee will finally give these brave men, 
who kept a terrible secret for so many years because they were 
so patriotic and cared more about their country than their own 
health.
    Thank you, Mr. Chairman.
    [The letters follow:]
  Prepared Statement from Arla Ray Harrell, Son of Arla Wayne Harrell
    Dear Senator McCaskill: My father, Arla Wayne Harrell, was drafted 
into the army in 1944. He had recently turned 18 and never been more 
than a few miles from his birthplace. His trip to Camp Crowder Missouri 
for basic training was not only farther than he had ever traveled, but 
had a larger population than he had ever witnessed. During basic 
training, he was told if he would volunteer for a special duty (timed 
exposure to mustard gas in a locked chamber), he would receive two 
extra weeks of leave. He was also told there would be minimal health 
risk. The potential that he would receive any harmful effects was 
minimized, and he was promised medical treatment if required.
    For an 18 year old, an additional two weeks leave was an enticing 
and manipulative offer. To someone that age, the benefit of leave far 
outweighed the risks.
    He was mandated to sign a vow of secrecy, which stated that he 
could not speak about any of these events for fifty years. Even though 
my Father suffered his entire life with medical conditions associated 
with exposure to mustard gas, he kept his word and did not speak about 
the experiment until the fifty year limit was reached. To maintain this 
vow truly demonstrates his values of loyalty, duty, selfless service, 
honor, integrity and personal courage to the United States Armed 
Forces.
    Fifty years later, my Dad applied for disability for his medical 
issues. Claims demanded that he show proof that he was exposed to 
mustard gas. This was impossible for him as many of the records had 
been burned in a fire. The records that were available regarding the 
mustard gas testing were still classified and not available to him. Any 
efforts to prove that he had been exposed to mustard gas were blocked 
at every path. He has received no compensation from any government 
agency or veterans association.
    I am a retired Army Senior NCO and served my country proudly for 26 
years. I feel betrayed and saddened by the way my father has been 
treated. I am saddened by the fact that the military would use American 
Soldiers as human guinea pigs and also for the fact that they refuse to 
acknowledge that it was done.
    My dad is now 90 years old and his time is short. The Soldier's 
creed states that I will leave no Soldier behind. Please do not leave 
my father and his fellow Soldiers behind. My father will never have the 
same life he could have had without the medical issues he has dealt 
with, but it would be a great benefit to acknowledge it happened to him 
before he leaves us.
            On my honor,
                                           Arla Ray Harrell
                                 ______
                                 
              Prepared Statement from Betty Harrell Agan, 
                     Daughter of Arla Wayne Harrell
    Dear Senator McCaskill: Thank you for the support and hard work you 
and your staff have done for my dad, Arla Wayne Harrell--World War II 
veteran.
    We, our family. is honored to have Senate Bill 75 named after our 
dad. When he was told this bill was named after him--a bill for World 
War II veterans who experienced Mustard Gas experiments, which was not 
part of regular military training, he had tears running down his face. 
My dad can no longer talk as a bad stroke took what was left of his 
voice away. He has had years of chronic hoarseness and laryngitis. My 
dad has over a quarter century of mustard gas claim denials from the 
VA.
    They always say he is not on the DOD exposure database. We have 
found out on a statement of case from the VA, this is not true. In 2011 
before Senator McCaskill knew my dad's story, the VA knew dad was on 
the DASD-HRPO (Deputy Assistant Secretary of Defense--Human Resource 
Protection Office) list. The VA was given this information by the 
Department of Defense. The VA never told my dad of this.
    Also in the denials, he was never at a known site where mustard gas 
was found, according to the VA, Camp Crowder, Neosho, Missouri. There 
are others who have made the same claim as my dad while they were 
stationed at Camp Crowder.
    I've received a disc from the Records Management Center--3, 183 
pages of information on my dad I'm going through.
    After dad's latest denial , 2016, we filed a NOD (Notice of 
Disagreement) with the VA. The VA denied it. Next we asked for an 
appeal in Washington, DC but as of yet we have not been given a date 
nor have we heard from anyone.
    No one at the VA has ever offered to give us any help.
    Senate Bill 75--the Arla Harrell Act--corrects a problem many of 
the remaining World War II veterans have faced with their claims. My 
dad and other veterans who were experimented on have faced an uphill 
battle. My dad would have had a better life starting in 1991 with his 
first mustard gas claim, as would have all of the vets. They would have 
been receiving medical care better suited to their illness caused by 
the experiments.
    My dad and the other veterans whom are mostly dead now, served 
their country twice--once in the military and foremost in the sacrifice 
of their health. They insured those that followed got better and safer 
equipment when war gases were used. They insured mustard gas injuries 
had better medical care.
    Senate Bill 75 removes road blocks for these World War II veterans.
                                 ______
                                 
             Prepared Statement from Trish Harrell Ayers, 
                     Daughter of Arla Wayne Harrell
    Dear Senator McCaskill: I would like to share a bit about my dad, 
Arla Harrell, for whom the Arla Harrell Act is named. He is an honest 
and honorable man. Never in my life have I heard him utter a lie or 
shade the truth. He is loyal to his family and his country.
    When he was eighteen years old, he joined the service and was sent 
to Camp Crowder for basic training. While there, he was part of the 
secret Mustard Gas program and was informed that he could never speak 
of the test or he would be imprisoned. He kept his promise until, in 
his later years, when he learned he was no longer held to that promise. 
He kept the secret from him family and his medical providers.
    I was present the day, at the V.A. Hospital in Columbia, MO, when 
he was first asked about exposure to Mustard Gas. A medical provider, 
while looking at dad's x-ray, questioned him about being exposed to 
Mustard Gas. I will never forget the look of terror on Dad's face. I 
suspect the medical provider also noticed Dad's fear. Once Dad was 
assured he could now speak of the tests, he quietly answered, ``yes.''
    Our family quickly researched and found out that the veil of 
secrecy had been lifted and veterans were able to speak of the tests. 
Then it was like the flood gates opened. Dad told us the horrors that 
he held inside for over fifty years. He told me that he and a group of 
men were locked inside a room and were forced to breathe in Mustard 
Gas. He told me his lungs and skin burned during the tests. He had 
trouble breathing as did the other soldiers. He was hospitalized 
shortly after the exposure and, at least one other time.
    Once Dad learned he could speak of the tests, he made the decision 
to submit a claim for the exposure. He thought it would be a simple 
thing. When he received his first denial, it hit him hard. He felt that 
he had done what was asked of him and now they were implying that it 
didn't happen and, ultimately, that he was not telling the truth. This 
was hard for my father to swallow, being a man of his word. He wanted 
to continue to pursue the claim so he, with my Mom's help, filed the 
appeal. Letters were written to his Members of Congress requesting 
assistance. He was denied again. For years, he and my mom did 
everything in their power to get a claim approved, but to no avail. 
With each denial, Dad became depressed and discouraged. The process was 
time consuming, but he continued on.
    When Dad's health declined, my sisters and brother and I joined 
forces with Mom to continue the process. We searched the internet, read 
books about the subject and tried everything in our power to locate 
records that would prove Dad's claim.
    Locating records became our biggest challenge. Many of his records 
were housed in the facility that burned. He, then, was being asked to 
submit records that no longer existed. Even with this, we still 
searched for records and often felt like we were being given the run-
around.
    In the past several years, while reading the report on a hearing on 
the Mustard Gas experiments, I read that it was noted that the Army did 
not keep good records of these experiments and who was exposed. So, in 
essence, we have been asked to supply records that may never have been 
created.
    He was told that Mustard Gas testing did not happen at Camp 
Crowder. Later we found that the Army Corps of Engineers had located 
Mustard Gas buried at Camp Crowder. Dad was not informed of this 
change. Also, we learned that a number of veterans had filed claims 
that they, too, underwent testing at Camp Crowder. Their stories 
aligned perfectly. Dad did not know any of them but they all had the 
same memories.
    At 90 years old, Dad's health continues to decline, to the point 
where he can only speak a few words. Dad is forced to communicate with 
his eyes. Whenever we spoke about the work we were doing on his Mustard 
Gas claim, he would smile. When he was told of the Arla Harrell Act, he 
teared up, and then smiled broadly.
    Last week, when I told him that The Arla Harrell Act was going to 
be presented in The United States Committee on Veterans Affairs, his 
eyes filled with tears. We told him a number of times to make sure he 
understood it was the U.S. Senate. He continued to tear up. He wants to 
be acknowledged. Later, when I was telling a member of the nursing home 
staff about the upcoming hearing, he smiled the biggest smile, the same 
smile I see when he sees Mom the first time every day.
    I grew up with a man who worked full-time in spite of physical 
challenges with his breathing. He could not be around perfumes, 
chemicals, and nail polish. His stamina was impacted but he still kept 
his secret and never told his doctor. I often wonder if he had been 
allowed to speak of this, at least to his doctor, that maybe there 
could have been something medically they could have done to ease his 
suffering. We will never know. I remember, when I was in college, he 
went with mom and me to a theme park where I worked. In a short time, 
the walking and heat impacted him so much that he sat down and told us 
to go ahead. He would wait on a bench until we were done. I knew he 
wanted to join us through the park and I knew he couldn't physically. 
Mom and I quickly went to a few places in the park and then returned to 
Dad. He told us he was OK, to stay longer, but we didn't want him to 
suffer. This was not a one-time situation. It was only after he was 
allowed to tell us about the Mustard Gas testing which was done on him 
that we finally understood what Dad had been dealing with most of his 
adult life.
    My Dad, Arla Harrell, and other living soldiers who endured the 
tests, suffer with life-long side effects and have kept the secrets 
that were required of them. They have all done their duty to the 
service and their country. It is now time they are recognized and there 
is a more realistic path to securing approval of their claims. It is 
time our country does their duty to these Veterans.
            Respectfully,
                                     Trish (Harrell) Ayers,
                                                         Berea, KY.
                                 ______
                                 
                 Prepared Statement from Beverly Howe, 
                     Daughter of Arla Wayne Harrell
    Dear Senator McCaskill: I see my father as an American hero, that 
America has forgotten. The promises made to him as an 18 year old, have 
not been honored. He kept his promise to keep the mustard gas testing 
secret. Once released from his promise some 50 years later . . . 
America has not honored its promises to him.
    My father has felt that with each denial for benefits from the VA, 
he is being called a liar. His disappointment is visible in his being, 
with each denial. My parents quit applying for benefits because of the 
depression that followed each denial. My Dad and Mom never expected 
that after 50 years that the VA would for another 22+ years, deny his 
claims, even with medical evidence to support his claim.
    I want my father to be recognized for the sacrifice he made so long 
ago. He had no way of knowing at the time, how volunteering for the 
secret mustard gas testing would affect him every day of his life after 
the exposures. He has suffered from lung problems, shortness of breath, 
atypical pneumonias, emphysema, asthma, hoarseness, permanent scaring 
on multiple areas of his body, and squamous cell cancer, to name a few.
    At the beginning of this process we were told there was no evidence 
of any mustard gas at Camp Crowder by many VA representatives, 
including Steve Westerfield. He was the Communications Director for the 
VA in the beginning of 2016. There was evidence from the Army Corp of 
Engineers in July 2012 that proved the existence of mustard gas at Camp 
Crowder, as well as memos from the Department of Defense and the 
Department of the Army from October 29th, 1996 that listed Missouri, 
Camp Crowder as a location for known or possible buried chemical 
warfare material-chemical agents.
    My Dad as well as other, now deceased veterans, claimed exposure to 
mustard gas at Camp Crowder. One veteran described nearly identical 
exposures as my father at Camp Crowder at approximately the same time. 
All of his claims and appeals were denied. Common threads are: no 
documents available, possibly due to the fact that a fire occurred at 
the repository for veteran records in St. Louis; not on DOD list or no 
evidence that they were exposed; no credible evidence that mustard gas 
testing occurred or that secret information about the testing was 
removed from their records to be stored elsewhere.
    My father was hospitalized for 6 days right after his exposure to 
mustard gas in the gas chamber. His symptoms were consistent with 
mustard gas exposure.
    These men have been caught in a catch 22:

    <bullet> Held to 50 year vow of secrecy.
    <bullet> Secret records stored elsewhere.
    <bullet> Records destroyed.
    <bullet> No one knows where or if these records still exist due to 
the time that has passed.
    <bullet> Preponderance of evidence supports veterans statements.
    <bullet> VA puts all of the burden of proof on age 90 and up 
veterans.
    <bullet> No one can say why mustard gas was even at Camp Crowder, 
Even after proof of its existence.
    <bullet> No one can explain notations on my fathers records that 
are not on other veterans records of that era.
    <bullet> VA states they must be on DOD list to approve claims.
    <bullet> DOD says it is up to VA to approve claim.

    I love my father and have watched his suffering for all of my 61 
years. My wish is that he will rightfully receive the recognition and 
honor he deserves while he is alive.
    He is in failing health. His wheelchair recently broke and it took 
several weeks to get the part. My mother paid for it. The VA has 
refused to help with the cost of his wheelchair. He is a tall man and 
requires a special chair. So, his wheelchair had to have the back 
propped up with a chair until it could be repaired.
    The costs of such repairs comes out of my mothers funds. My father 
is on Medicaid. He never wanted to be on Medicaid. He worked and saved 
so that my mother and him could take care of themselves. My mother sold 
their home so there would be money to take care of him and herself. If 
the VA had approved my fathers claim, this would not have had to 
happen.
    So many promises made and broken to my father by the Army have led 
to him living daily with the sadness of so many losses, loss of his 
health, loss of the support of the VA, loss of respect for his word, 
the loss of his home for his wife, the loss of being able to say he 
served this Nation as a proud veteran . . . proud of his country.
    The bureaucracy of the VA has made it easy to deny claims from this 
era, for these men. We received the aid of Senator Claire McCaskill and 
her staff. Even with their assistance we have been met with nothing but 
denials. The VA demands absolute proof to approve a claim. We have 
consistently been told my Dad is not on the DOD list, but as of his 
last NOD denial it noted he was added to a list. I've requested 
detailed explanations of each point in the claims. We received very 
standard forms and no detailed explanations as requested. When I 
question VA staff about things in the case, I often get pat answers or 
silence. When I requested identification of terms, or forms, or 
acronyms, no response is provided except we don't know what it means. 
If the VA cannot assist the veteran when they have access to 
information how is the average person supposed to respond. No one at 
the VA is able to tell me what the full vials of mustard gas was used 
for at Camp Crowder. I was told it could have been used in training. My 
question was you mean they purposely exposed all soldiers in training. 
The response I received was``I hope not''
    I hope that the VA is not waiting for all of these brave men to die 
so their horrific story dies with them.
    Please provide my father with the honor he so deserves, by 
acknowledging the sacrifice he made in 1945.
            Respectfully,
                                               Beverly Howe

    Chairman Isakson. Well, thank you, Senator McCaskill; your 
tenacity will be noted. You have done a great job of pushing on 
this bill for a long period of time. The Committee will have a 
vote on it before--not today, but in the weeks ahead, and I 
appreciate very much your being here today. Thank you.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Isakson. Senator Boozman is on the way to replace 
me, and while we are waiting for him to arrive, I would like 
our first panel to come forward. We have Mr. Curtis Coy, Deputy 
Under Secretary for Economic Opportunity, Veterans Benefits 
Administration, U.S. Department of Veterans Affairs; and 
Bradley Flohr, Senior Advisor for Compensation Service, 
Department of Veterans Affairs. The order I have is Mr. Coy 
first and Mr. Flohr second, if that is OK with our guests in 
doing testimony.
    Mr. Coy, you are recognized for your testimony.

STATEMENT OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC 
OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
   OF VETERANS AFFAIRS; ACCOMPANIED BY BRADLEY FLOHR, SENIOR 
      ADVISOR FOR COMPENSATION SERVICE, VETERANS BENEFITS 
                         ADMINISTRATION

    Mr. Coy. Good morning, Mr. Chairman, Ranking Member, and 
distinguished guests of the Committee. Thank you for the 
opportunity to be here to discuss legislation pertaining to the 
Department of Veterans Affairs programs. Thank you for your 
passionate interest in our Nation's veterans in working 
diligently to put together today's agenda. If I may, we would 
also like to compliment the Committee staff for their 
professionalism, hard work, and complementary passion to assist 
veterans.
    Accompanying me today is Mr. Brad Flohr, Senior Advisor for 
Compensation Service.
    We are encouraged by the number of bills aimed at improving 
education opportunities for veterans and their beneficiaries. 
Post-9/11 GI Bill is truly transformative. The original GI 
Bill, or the Servicemen's Readjustment Act of 1944, was the 
product of what happens when goodwill and the right thing come 
together in Congress. It created a civic renaissance by 
treating all veterans as first-class citizens. Empowering 
veterans proved and continues to prove to be the catalyst for 
revitalizing and driving America forward.
    The original GI Bill was heralded as a success and major 
contributor to America's stock of human capital that sped long-
term economic growth across the country.
    Tom Brokaw wrote 8 million World War II veterans used the 
GI Bill, and Tom Brokaw wrote they were the greatest 
generations. Many believe, including me, that we are on the 
precipice of the next greatest generation, and that is no 
slight to the veterans in between, which includes myself.
    I am hopeful that this hearing will be somewhat uneventful, 
as VA has outlined support with some concerns and a caveat that 
they are subject to offsets for almost all of these bills or 
sections of bills that we provided views on. We are happy to 
work with the Committee to ensure we achieve the best possible 
outcome for veterans, servicemembers, and their families.
    We also note that many of these bills would require changes 
to our IT systems and will require staff and resources in order 
to successfully implement them.
    Finally, several bills require relatively short 
implementation times, and we would ask the Committee to 
consider the workload implications of implementing all of the 
bills, should they be signed into law.
    Rather than try and synopsize our views on each bill or 
section, I would like to return some of my time in my oral 
statement in order to have the opportunity for the Committee to 
ask questions and comment on my testimony.
    Additionally, there are a few bills under discussion today, 
which would affect programs or laws administered by other 
agencies. As outlined in my testimony, we respectfully defer 
S. 111 and S. 410 to the Department of Defense and S. 1218 to 
the Office of Personnel Management.
    Mr. Chairman, this concludes my statement. Thank you again 
for your generous interest in improving the lives of veterans 
and their families. I would be pleased to respond to any 
questions you or other Members of the Committee may have.
    As a matter of record, Mr. Flohr does not have an opening 
statement.
    [The prepared statement of Mr. Coy follows:]
 Prepared Statement of Curtis Coy, Deputy Under Secretary for Economic 
   Opportunity, Veterans Benefits Administration, U.S. Department of 
                            Veterans Affairs
    Good morning, Mr. Chairman and Members of the Committee. Joining me 
today is Brad Flohr, Senior Advisor for Compensation Service, (VBA). We 
are pleased to be here today to provide the views of the Department of 
Veterans Affairs (VA) on the following pending legislation affecting 
VA's compensation, education, and vocational rehabilitation programs: 
S. 75, S. 111, S. 410, S. 473, S. 758, S. 798, S. 844, S. 882, S. 1192, 
S. 1209, S. 1218, S. 1277, and a draft bill that would, among other 
things, consolidate the current amount of qualifying active duty 
service required after September 10, 2001 for payment of educational 
assistance at the 50-percent and 60-percent benefit levels under the 
Post-9/11 Educational Assistance Program, increase the amounts of 
educational assistance payable for pursuit of institutional courses and 
institutional courses with alternate phases of training in a business 
or industrial establishment under the Survivors' and Dependents' 
Educational Assistance Program, and authorize the use of Post-9/11 
educational assistance to pursue independent study programs accredited 
by an accreditor recognized by the Secretary of Education at 
educational institutions that are not institutions of higher learning 
(IHLs), i.e., area career and technical education schools that provide 
postsecondary level education and postsecondary vocational 
institutions.
                                 s. 75
    Section 3(a) of S. 75, the ``Arla Harrell Act,'' would require the 
Secretary of Veterans Affairs, in consultation with the Secretary of 
Defense, to reconsider all claims for compensation based on exposure to 
mustard gas or Lewisite during World War II that were denied before 
enactment of the bill. If the Secretary of Veterans Affairs or Defense 
makes a determination regarding whether a Veteran experienced full-body 
exposure to mustard gas or Lewisite, such Secretary shall presume that 
the Veteran experienced such exposure ``unless proven otherwise,'' and 
may not use information contained in the Department of Defense (DOD) 
and VA Chemical Biological Warfare Data base or any list of known 
testing sites for mustard gas or Lewisite as the sole reason for 
finding that the Veteran did not experience such exposure. Section 
3(a)(4) would require the Secretary of Veterans Affairs to submit a 
report to the appropriate congressional committees every 90 days 
following enactment of the bill specifying the reconsidered claims that 
were denied during the previous 90 days, including the rationale for 
each denial.
    Section 3(b) of the bill would also require the Secretaries of VA 
and Defense to establish a policy for processing future claims in 
connection with exposure to mustard gas or Lewisite within one year 
following enactment. In addition, under section 3(c), the Secretary of 
Defense would be required, within 180 days after enactment, to 
investigate and assess whether a site should be added to the DOD list 
of sites where mustard gas or Lewisite testing occurred based on 
whether the Army Corps of Engineers has uncovered evidence of such 
testing or more than two Veterans have submitted claims for VA 
compensation alleging such exposure and to submit a report to 
appropriate congressional committees on mustard gas and Lewisite 
experiments conducted by DOD during World War II, including a list of 
each location which such an experiment occurred, the dates of such 
experiment and the number of members of the Armed Forces who were 
exposed during such experiment. Section 3(d) would require the 
Secretary of Veterans Affairs, within 180 days after enactment, to 
investigate and assess actions taken to reach out to individuals who 
had mustard gas or Lewisite testing and the claims filed based on such 
testing and the percentage of such claims denied by VA and to submit a 
report on these findings to the appropriate congressional committees, 
along with a list of each location where mustard gas or Lewisite was 
tested.
    VA respects the intent of this legislation and, if it is enacted, 
will do all we can to ensure that Veterans who are determined to have 
been exposed receive every benefit to which they may be entitled. 
Providing Veterans with the care they need when they need it remains 
VA's top priority. We owe it to Veterans to ensure our decisions are 
fair, clear, and consistent across the board. We support the intent of 
the bill but have significant concerns that should be resolved prior to 
moving forward. The suggestion that VA ignore certain evidence, which 
may already be in a Veteran's claims file, would not only be unfair to 
other Veterans, but would conflict with other applicable provisions of 
law. Under 38 U.S.C. Sec. 1154(a), in determining whether a condition 
is related to service, VA must give ``due consideration'' to the 
``places, types, and circumstances of'' a Veteran's service ``as shown 
by such Veteran's service record, [and] the official history of each 
organization in which such Veteran served.'' In addition, 38 U.S.C. 
Sec. 5107(b) requires VA to ``consider all information and lay and 
medical evidence of record in a case before the Secretary with respect 
to benefits under laws administered by the Secretary.'' Finally, under 
38 U.S.C. Sec. 1154(b), in the case of a Veteran who engaged in combat 
with the enemy, VA must accept lay or other evidence of service 
regarding service incurrence of a disease or injury, notwithstanding 
the absence of an official record of such incurrence. However, the 
Veteran must first establish that he or she engaged in combat with the 
enemy, which usually involves consideration of service department 
records, and the lay or other evidence must be ``consistent with the 
circumstances, conditions, or hardships of such service.''
    The proposed presumption of exposure to mustard gas and Lewisite, 
which would not require support by service department records or other 
objective evidence, would be unprecedented, if enacted. It appears that 
the presumption would be invoked solely on the basis of a Veteran's 
statement that such exposure occurred. Existing presumptions of an in-
service exposure or event apply to discrete groups of Veterans whose 
service records reflect unique circumstances of service. Examples 
include Vietnam and Korean Veterans who are presumed exposed to Agent 
Orange during certain time periods, Veterans whose records indicate 
participation in World War II and cold war nuclear weapon detonations 
who are presumed exposed to ionizing radiation, and combat Veterans of 
all eras who are presumed exposed to the sort of traumatic stressor 
that can cause Post Traumatic Stress Disorder. Each of these sets of 
Veterans will have service department evidence of an in-service event 
or circumstance that may have triggered post-service disability.
    Under the standard proposed in the bill, any World War II Veteran 
who has claimed participation in a mustard gas or Lewisite test would 
be entitled to a presumption of full body exposure. This includes 
Veterans who may be confusing exposure to mustard gas or lewisite with 
more routine agents such as tear gas, or even to placebo agents. As a 
result, all prior World War II claimants essentially would be presumed 
exposed to mustard gas--even Veterans who participated in no chemical 
testing.
    With regard to a joint VA/DOD policy for processing future 
disability compensation claims based on exposure to mustard gas or 
Lewisite, VA notes that mustard gas and Lewisite claim policies and 
procedures are already in place and have and continue to lead to fair 
and equitable outcomes. VA promulgated a regulation in 1994 to address 
full-body mustard gas and Lewisite claims (see 38 CFR Sec. 3.316) and 
recently updated procedural guidance directing VA claims processors to 
consider all relevant evidence, including both service department data 
and information from outside sources.
    We share the Committee's concern for these Veterans, and we will 
continue to do everything we can, to provide care for those who have 
been identified by DOD as having had full body exposure to mustard gas 
and have been diagnosed with conditions due to that exposure. 
Additionally, we remain eager to work with the Committee to address the 
concerns we have with S. 75 as currently drafted. We value our Veterans 
and want to ensure that each and every Veteran seeking care is treated 
fairly under the law.
                                 s. 111
    S. 111, the ``Filipino Veterans Promise Act,'' would require the 
Secretary of Defense, in consultation with the Secretary of Veterans 
Affairs and military historians, to establish a process to determine 
whether a person who claims service as a member of the Philippine 
organized military forces under 38 U.S.C. Sec. 107(a) or Philippine 
Scouts under 38 U.S.C. Sec. 107(b) but who is not included in the 
Approved Revised Reconstructed Guerilla Roster of 1948 is in fact 
eligible for benefits under section 107(a) or (b).
    VA defers to DOD on S. 111. To address the concerns that prompted 
this legislation, the previous Administration's White House Initiative 
on Asian Americans and Pacific Islanders, in collaboration with the 
Office of Management and Budget and the Domestic Policy Council, 
created the FVEC Fund Interagency Working Group (IWG) in October 2012. 
The IWG was comprised of VA, the Department of Defense (DOD), and the 
National Archives and Record Administration (NARA), and was tasked with 
analyzing the process faced by Filipino Veterans in demonstrating 
eligibility for compensation in order to ensure that all applications 
receive thorough and fair review. This effort culminated in July 2013 
with a report from each member of the IWG and resulted in increased 
transparency and accelerated the processing of appeals within the 
existing framework.
    As a result of the IWG, VA created a special team to expedite the 
processing of FVEC appeals. In addition, VA created a standard 
notification letter for appellants requesting submission of all 
available service records and information. VA personnel also obtain 
copies of the Affidavit for Philippine Army Personnel (AGO Form 23) for 
appeals that are submitted without a Form 23 from the Adjutant General. 
VA anticipates these steps will further expedite the processing of 
appeals for the appellants with advanced age by minimizing the 
turnaround time for service verification requests and hearing requests.
                                 s. 410
    S. 410, the ``Shawna Hill Post-9/11 Education Benefits 
Transferability Act,'' would amend 38 U.S.C. Sec. 3319 to authorize 
transfer of unused Post-9/11 Education Assistance benefits to 
additional dependents upon the death of the originally designated 
dependent. The bill would apply to deaths occurring on or after 
August 1, 2009.
    VA defers to DOD. Currently, an individual cannot designate a new 
dependent to receive a transfer of entitlement to Post-9/11 Education 
Assistance after separating from the Armed Forces.
    Benefit costs are estimated to be $6.3 million in the first year, 
$20.5 million over 5 years, and $31.7 million over 10 years. There are 
no additional full-time equivalents (FTE) or general operating expenses 
(GOE) costs associated with the proposed legislation. There currently 
are no identified costs required for changes to the Long Term Solution 
(LTS).
                                 s. 473
    Section 2 of S. 473, the ``Educational Development for Troops and 
Veterans Act of 2017,'' would amend 38 U.S.C. Sec. 3301(1)(B) to 
include, in the case of members of the Reserve Components of the Armed 
Forces, service on active duty under a call or order to active duty 
under 10 U.S.C. Sec. Sec. 12304a and 12304b as service constituting 
active duty for purposes of Post-9/11 GI Bill benefits.
    VA supports section 2 of the bill, subject to the Congress 
identifying acceptable offsets for the additional benefit costs. Under 
the current law, two Reserve Component members who are serving side-by-
side on active duty may not receive similar benefits under the Post-9/
11 GI Bill. The active duty time of a Reserve Component member who 
volunteers for active duty under10 U.S.C. Sec. 12301(d) is counted 
toward the aggregate required for Post-9/11 GI Bill eligibility. By 
contrast, the active duty time of a Reserve Component member who was 
involuntarily activated under 10 U.S.C. Sec. Sec. 12304a or 12304b for 
similar duty does not count toward the aggregate for Post-9/11 GI Bill 
eligibility. This proposal would allow Reserve Component members who 
are involuntarily activated under 10 U.S.C. Sec. Sec. 12304a or 12304b 
to receive the same benefits as those Reserve Component members who 
have volunteered to perform duty under 10 U.S.C. Sec. 12301(d).
    Benefit costs are estimated to be $0 in the first year, $53.7 
million over 5 years, and $140.5 million over 10 years. There are no 
additional FTE or GOE costs associated with section 2. We have not, 
however, fully determined if there would be any costs associated with 
any information technology (IT) changes to support the change.
    VA defers to DOD with regard to sections 3 and 7 of the bill, and 
to the Department of Education on sections 5 and 6 of the bill.
    Section 4 of the bill would amend 38 U.S.C. Sec. 3103(f) to extend 
the eligibility period for participation in a vocational rehabilitation 
program for Reserve Component members who are involuntarily activated 
under 10 U.S.C. Sec. Sec. 12304a or 12304b and are unable to 
participate in such program by length of time the Reserve Component 
member serves on active duty plus four months.
    VA supports section 4. Currently 38 U.S.C. Sec. 3103(f) provides an 
extension of the eligibility period for reservists who are ordered to 
active duty under certain provisions of title 10, United States Code. 
Section 4 would provide the same extended eligibility period for 
reservists who are prevented from participating in a vocational 
rehabilitation program during their period of eligibility because they 
are ordered to active duty to provide assistance in response to a major 
disaster or emergency, or to augment the active forces for a preplanned 
mission in support of a combatant command.
    Section 8 would add a new paragraph to 38 U.S.C. Sec. 3313 to 
provide for payment of the monthly housing allowance (MHA) on a pro 
rata basis for any period in which a reservist or individual pursuing a 
program of education is not performing active duty. This amendment 
would be applicable to a quarter, semester or term commencing on or 
after August 1, 2016.
    VA supports section 8 as it would be equitable to prorate MHA 
payments for each day of the month an individual is not serving on 
active duty. We note, however, that section 8 would result in a 
decrease in the MHA for the month in which a reservist is ordered on 
active duty and in an increase in the MHA for the month in which a 
reservist is released from active duty. As a result, the amount of MHA 
that each reservist receives would depend upon the dates on which the 
reservist entered and was released from active duty. We note as well 
that new section 3313(j) would not apply to other persons on ``active 
duty'' as defined in 38 U.S.C. Sec. 3301(1)(A) and (C). We have not, 
however, fully determined if there were to be any costs associated with 
IT changes.
                                 s. 758
    Section 2(a) of S. 758, the ``Janey Ensminger Act of 2017,'' would 
require, within one year of the date of the enactment of the bill and 
at least once every three years thereafter, the Secretary of Health and 
Human Services, through the Administrator of the Agency for Toxic 
Substances and Disease Registry (ATSDR) to review the scientific 
literature relevant to the relationship between the employment or 
residence of individuals at Camp Lejeune, North Carolina, for not fewer 
than 30 days between August 1, 1953, and December 21, 1987, and 
specific illness or conditions incurred by those individuals. ATSDR 
would also be required to determine each illness or condition for which 
there is evidence that exposure to a toxic substance at Camp Lejeune 
during the specified time period may be a cause of such illness or 
condition, and to categorize the evidence of the connection of the 
illness or condition to exposure. ATSDR would be required to publish in 
the Federal Register and online a list of conditions or illnesses for 
which a determination has been made that exposure may be a cause of 
such condition or illness, and to provide bibliographic citations for 
reviewed literature.
    While section 2(a) would impose obligations on to the Department of 
Health and Human Services, we do have several concerns with this 
provision. Specifically, we are concerned that requiring ATSDR to 
evaluate the likely causation between exposures and health effects is 
unnecessary given VA's current reliance on the National Academies of 
Science, Engineering, and Medicine (NASEM). In addition to being 
duplicative, the proposed role of ATSDR would, in our view, be a less 
independent process than what is used by NASEM. Finally, we find the 
evidence bar that would be set for ATSDR's review misleading--the focus 
on causation implies a level of confidence not scientifically possible 
for attributing the low doses likely received in this context with the 
chronic health effects of interest.
    Section 2(b)(1) would amend 38 U.S.C. Sec. 1710(e)(1)(F) to make 
Veterans eligible for care for any condition or illness for which the 
evidence of connection to exposure to toxic substances at Camp Lejeune 
is categorized as sufficient or modest by ATSDR. It would also require 
VA to continue providing hospital care and medical services to Veterans 
who have received such care or services under section 1710(e)(1)(F), 
notwithstanding a determination that the evidence of connection of an 
illness or condition and exposure is not categorized as sufficient or 
modest.
    Section 2(b)(2) would make a similar amendment to 38 U.S.C. 
Sec. 1787 to require VA to continue providing hospital care and medical 
services to eligible individuals notwithstanding that their illness or 
condition is no longer described in section 1710(e)(1)(F). Section 
2(b)(3) would require, for FY 2017 and FY 2018, the Secretary to 
transfer $2 million from funds made available to VA for medical support 
and compliance to the Chief Business Office and Financial Services 
Center of the Department to be used to continue building and enhancing 
the claims processing system, eligibility system, and web portal for 
the Camp Lejeune Family Member Program.
    VA does not support sections 2(b)(1) and (b)(2), as they would 
effectively defer Veteran health care eligibility decisions to ATSDR. 
This is inappropriate for several reasons. First, VA insists that an 
internationally accepted standard of categorization be used to 
characterize the strength of evidence, such as that used by NASEM. A 
consistent standard is necessary to ensure fairness across time, 
population subgroup, chemical, and health endpoint. VA strongly advises 
against the use of the terms ``cause'' or ``causation'' in the context 
of the types of very low exposures received and the prevalence of the 
chronic health effects identified. Additionally, we recommend that 
ATSDR reports be submitted to VA in an advisory capacity only, as has 
been done with previous reports from NASEM. NASEM, in conducting 
independent reviews on behalf of VA, assembles a multidisciplinary 
committee that represents a breadth of knowledge relevant to the 
specific exposure scenario that is significantly more expansive than 
the subject matter expertise within ATSDR. Thus, VA should have the 
opportunity to review these reports and seek external opinions, if 
necessary, to make determinations about policy changes. If VA must rely 
on ATSDR reports in any capacity, we would suggest that the bill 
require that these reports be subjected to a rigorous, external, 
independent peer review process, consistent with OMB's Information 
Quality Bulletin for Peer Review, before being published.
    If enacted, VA would require additional resources to assist the 
Veterans and family members who would become eligible for hospital care 
and medical services, while continuing to care for Veterans who remain 
eligible following a determination that that the evidence of a causal 
connection is not categorized as sufficient or modest. Section 2(b)(3) 
would transfer $2 million to the VA Chief Business Office and Financial 
Services Center to be used to enhance the Camp Lejeune Family Member 
Program's claim processing system, eligibility system, and web portal. 
While these funds could be used to enhance these systems, VA does not 
believe this would be a responsible use of funds. The Camp Lejeune 
Family Member Program is a small program with a volume of claims that 
VA does not believe warrants having separate claims processing and 
eligibility systems. VA prefers to focus on the creation of a single 
standardized claims processing and eligibility system for all programs 
supported by the Office of Community Care. We also note that the 
language does not appropriate additional funds--it merely requires the 
transfer of funds from other sources, which would impede VA's ability 
to furnish services for other Veterans and beneficiaries.
    We have several technical comments on the bill as well. First, we 
note that the time period specified in current 38 U.S.C. 
Sec. 1710(e)(1)(F) ends on December 31, 1987; whereas, the time period 
in proposed 42 U.S.C. Sec. 399V-7(a)(1)(A) of the Public Health Service 
Act would end on December 21, 1987. This should be changed in any 
further revisions of this legislation. Additionally, we note that 
section 2(b)(3) of the bill would apply to Fiscal Year (FY) 2017 and 
2018, but because FY 2017 ends in 3= months, we believe this should be 
updated. Last, we recommend the reference to the Chief Business Office 
be updated to the Office of Community Care.
    VA cannot provide a cost estimate for the bill because we do not 
know for which illnesses and conditions, if any, ASTDR would determine 
there is evidence that exposure to a toxic substance at Camp Lejeune 
during the specified time period may be a cause of such illness or 
condition at the ``sufficient'' or ``modest'' standard. The cost to VA 
of implementing this provision would depend upon which illnesses or 
conditions ATSDR finds satisfy these requirements, how many Veterans 
and family members will qualify for hospital care and medical services 
for those conditions or illnesses, and the average cost for the 
necessary hospital care and medical services of those conditions or 
illnesses.
                                 s. 798
    S. 798, the ``Yellow Ribbon Improvement Act of 2017,'' would amend 
38 U.S.C. Sec. 3317(a) to provide that recipients of the Marine Gunnery 
Sergeant John David Fry scholarship are covered under the Yellow Ribbon 
GI Education Enhancement Program and to expand the Program to include 
instances in which the amount of educational assistance provided to 
covered individuals for pursuit of a program of education leading to a 
degree while on active duty or for pursuit of a program of education on 
a half-time basis or less does not cover the full cost of established 
charges.
    VA supports the intent of S. 798, subject to Congress identifying 
acceptable offsets for the additional benefit costs. Also, VA estimates 
that implementation of the bill would require one year from the date of 
enactment to make the changes to the Benefits Delivery Network, VA 
Online Certification of Enrollment system (VA-ONCE), and Long term 
Solution system (LTS) necessary to implement the bill.
                                 s. 844
    S. 844, the ``GI Bill Fairness Act of 2017,'' would amend 38 U.S.C. 
Sec. 3301(1)(B) to count the time that a reservist is ordered to active 
duty to receive authorized medical care, be medically evaluated for 
disability, or complete a required DOD health care study, as active 
duty for purposes of the Post-9/11 Veterans Educational Assistance Act 
of 2008. The amendment would be retroactive to immediately after 
enactment of the Post-9/11 Veterans Educational Assistance Act of 2008.
    VA supports the intent of the bill, regarding the proposed changes 
to qualifying active duty service under the Post-9/11 GI Bill, subject 
to the Congress identifying acceptable offsets for the additional 
benefit costs. We note, however, that this change to the eligibility 
criteria would require VA to make modifications to the type of data 
exchanged between DOD and VA through the VA/DOD Identity Repository and 
displayed in the Veteran Information System. In addition, new rules 
would need to be programmed into LTS in order to calculate eligibility 
based on service described in new section 3301(1)(B) and to allow for 
retroactive benefit payments. VA estimates that it would need one year 
from enactment to complete these changes.
    Benefit costs for S. 844 would be $39.2 million for the first year, 
$281.5 million over 5 years, and $542.9 million over 10 years. There 
are no additional FTE or GOE costs associated with S. 844.
                                 s. 882
    S. 882 would amend 38 U.S.C. Sec. 3311(b) to provide for payment of 
Post-9/11 GI Bill educational assistance to individuals awarded the 
Purple Heart for service in the Armed Forces occurring on or after 
September 11, 2001, at the same rate (100%) as for individuals entitled 
to Post-9/11 GI Bill educational assistance who served at least 3 years 
on active duty or who served at least 30 days on active duty and were 
discharged for a service-connected disability. The bill would also 
allow such Purple Heart recipients to participate in the Yellow Ribbon 
G.I. Education Enhancement Program.
    VA supports the intent of the proposed bill. However, we note that 
the proposed bill contains no character of discharge requirement for 
payment of Post-9/11 GI Bill educational assistance to individuals 
awarded the Purple Heart. Consequently, an individual who receives the 
Purple Heart for service on or after September 11, 2001, and 
subsequently receives a dishonorable discharge would nonetheless be 
eligible for Post-9/11 GI Bill educational assistance at the 100-
percent rate. This could be problematic to those recipients of other 
noteworthy medals such as the Medal of Honor, Silver Star, Bronze Star, 
etc. who may have a dishonorable discharge. If Congress wishes to 
address this issue, we recommend that the bill be amended to require 
that the individual also be discharged as described in section 3311(c).
    Because VA would need to modify its existing information technology 
(IT) system to implement this bill, there would be associated IT costs. 
Specifically, VA would need to modify the Long-Term Solution, VA's 
Post-9/11 GI Bill processing system, to verify eligibility for Purple 
Heart recipients. VA would also need to make changes to the VA 
application forms (VA Form 22-1990 and Veterans On-Line Application 
(VONAPP)) to identify Purple Heart recipients. Costs related to this 
bill are not available at this time.
                                s. 1192
    S. 1192, the ``Veterans To Enhance Studies Through Accessibility 
Act of 2017,'' or ``Veterans TEST Accessibility Act,'' would amend 38 
U.S.C. Sec. Sec. 3315(c) and 3315A to allow for the proration of 
entitlement charges for licensing and certification examinations and 
national tests under the Post-9/11 GI Bill based on the actual amount 
of the fee charged for the test. The bill would also add educational 
assistance for a chapter-33 beneficiary for a ``national test that 
evaluates prior learning and knowledge and provides an opportunity for 
course credit at an institution of higher learning as so described.'' 
The amendments made by this section would apply to a test taken more 
than 90 days after the date of the enactment of this legislation.
    VA supports S. 1192 because it would benefit Post-9/11 GI Bill 
beneficiaries by reducing the negative impact of test reimbursement on 
their remaining benefit entitlement and increasing the months of 
training available for the beneficiaries, thus expanding educational 
opportunities. Under current sections 3315 and 3315A, an individual is 
charged a portion of his entitlement for the reimbursement of fees 
associated with a licensing or certification exam, or a national test, 
in whole months. Thus, VA charges an individual one month of 
entitlement for each $1,832.96 reimbursed for the academic year 
beginning on August 1, 2016, rounded to the nearest whole month, 
regardless of the cost of the test.
    As noted in VA's FY 2017 legislative proposal, the Department 
believes the law should be amended to charge entitlement for 
reimbursement of VA approved exams at a prorated number of days of 
entitlement based on the ratio of the cost of the test to the statutory 
amount. However, it should be noted that, as S. 1192 is currently 
drafted, sections 3315 and 3315A would no longer specify the amount of 
benefit payment equaling one month of entitlement. VA suggests that the 
draft language be amended in order to include that amount.
    Benefit costs are estimated to be $125,000 in the first year, 
$676,000 over 5 years, and $1.4 million over 10 years. There are no 
additional FTE or GOE costs associated with the proposed legislation. 
We have not, however, fully determined if there would be any costs 
associated with IT changes.
                                s. 1209
    S. 1209 would amend 38 U.S.C. Sec. 1562(a) to increase the amount 
of special pension for Medal of Honor recipients to $3000, effective 
180 days after the date of enactment, but if this date is not the first 
day of a month, the first day of the first month beginning after the 
date that is 180 days after enactment. If the effective day is prior to 
December 1, 2018, the monthly rate of the pension would not be 
increased by the cost of living adjustment (COLA) for FY 2019, and the 
annual COLAs would resume effective December 1, 2018.
    VA supports an increase in the pension for these heroes, subject to 
the Congress identifying acceptable offsets for the additional benefit 
costs. Currently our records show there are 72 living recipients of the 
Medal of Honor.
    Benefit costs are estimated to be $717,000 in the first year, $6.5 
million over 5 years, and $14.6 million over 10 years. There are no 
additional FTE or GOE costs associated with the proposed legislation.
                                s. 1218
    S. 1218, the ``Empowering Federal Employment for Veterans Act of 
2017,'' or the ``Empowering FED Vets Act,'' would establish, at VA and 
other covered agencies, a Veterans Employment Program Office. This 
Office would, among other things, promote employment opportunities for 
Veterans, develop and implement Veterans recruitment programs, and 
training programs for Veterans with disabilities. The Office would also 
provide mandatory annual training on Veterans' employment issues to 
human resources employees and hiring managers, including training on 
Veterans' preference and hiring authorities.
    We defer to the Office of Personnel Management on S. 1218 because 
of the governmentwide impact of the bill.
                                s. 1277
    S. 1277, the ``Veteran Employment Through Technology Education 
Courses Act,'' would require the Secretary of Veterans Affairs to carry 
out a pilot program for five years under which eligible Veterans who 
are entitled to educational assistance would be able to enroll in high 
technology programs of education. The term ``high technology program of 
education'' would be defined as a program offered by an entity other 
than an IHL that does not lead to a degree and provides instruction in 
computer programming, computer software, media application, data 
processing, or information sciences. Within 180 days after the date of 
enactment, VA, in consultation with the State Approving Agencies VA 
considers applicable, would be required to enter into contracts with 
providers of such programs that have been operational for at least two 
years. Under these contracts, VA would agree to pay 25 percent of the 
cost of providing the program of education upon enrollment of an 
eligible Veteran; 25 percent upon the Veteran's completion of the 
program; and 50 percent upon the employment of the Veteran in a field 
related to the course of study following completion of the program. 
Preference would be given to a qualified provider that offers tuition 
reimbursement for students who complete a program of education offered 
by the provider and do not find full-time meaningful employment within 
180 days after completion of the program. The bill would also authorize 
VA to pay a MHA to eligible Veterans enrolled in this program on a 
full-time basis. The bill would authorize appropriations of $15 million 
for each fiscal year during which the pilot program operates.
    VA has significant concerns regarding implementation and 
administration of the pilot program. The bill would require VA to enter 
into contracts with multiple providers of high technology programs of 
education. However, the bill provides little guidance regarding the 
applicable standards for choosing qualified providers other than 
requiring that the provider have been operational for two years, verify 
that the credentials it plans to offer have demonstrated market value 
based on the employment and earnings of its participants in the 
programs, and has the ability to evaluate job placement rates and 
earnings through means other than survey data or self-reported data. 
This is a departure from VA's current approval criteria for other 
programs of education.
    VA estimates that it would require 12 to 18 months from the date of 
enactment to make the IT system changes necessary to implement the 
proposed legislation and the acquisition timeline for $15 million in 
contracts.
    The costs for S. 1277 are estimated to be $15 million in the first 
year, $75 million over 5 years, and $150 million over 10 years.
                        gi bill discussion draft
    Section 2 would amend 38 U.S.C. Sec. 3311(b) by consolidating the 
current amount of qualifying active duty service required after 
September 10, 2001, for payment of educational assistance at the 50-
percent and 60-percent benefit levels under the Post-9/11 Educational 
Assistance Program. As a result, the current benefit level requiring at 
least six months but less than twelve months of active-duty service 
would be eliminated. This means that an individual with aggregate 
service of at least six months but less than eighteen months of active 
duty service (excluding entry and skill training) would qualify at the 
60-percent benefit level.
    VA supports the proposed legislation, subject to the Congress 
identifying acceptable offsets for the substantial benefit costs, 
because it would increase benefits for Veterans and Servicemembers. 
However, VA is concerned with the implementation of this bill. As 
drafted, the bill does not contain an effective date. Assuming that 
this increase in rates would be effective on the date of enactment, LTS 
would be unable to immediately accommodate these increases in benefit 
levels. As a result, claims examiners would have to review and make 
manual adjustments to affected claims, which would negatively impact 
claims processing timeliness and the delivery of education benefits. VA 
estimates that it would require one year from the date of enactment to 
make the IT system changes necessary to implement the proposed 
legislation. We have not, however, fully determined if there would be 
any costs associated with IT changes.
    Finally, additional conforming amendments to title 38, United 
States Code, would be required based upon the changes made by amending 
sections 3311(b) and 3313(c)(1).
    Benefits costs for section 2 would be $124.6 million in the first 
year, $677.8 million over 5 years and $1.5 billion over 10 years. There 
are no additional FTE or GOE costs associated with section 2.
    Section 3 would add section 3320 to title 38, United States Code, 
which would authorize VA to provide up to nine months of additional 
Post-9/11 GI Bill benefits to an individual who has used all of his or 
her Post-9/11 GI Bill educational assistance and is enrolled in a 
program of education leading to a post-secondary degree that requires 
more than the standard 128 semester (or 192 quarter) credit hours for 
completion in biological or biomedical science, physical science, 
science technologies or technicians, computer and information science 
and support services, mathematics or statistics, engineering, 
engineering technologies or an engineering-related field, a health 
profession or related program, or medical residency program, or has 
earned a post-secondary degree in one of these fields and is enrolled 
in a program of education leading to a teaching certification. Priority 
would be given to individuals who are entitled to 100 percent of Post-
9/11 GI Bill benefits and to those who require the most credit hours. 
Each eligible individual would be entitled to a lump sum payment that 
is the lesser of the amount available under 38 U.S.C. Sec. 3313 for 
nine months of the program of education in which the individual is 
enrolled or $30,000. These additional benefits would not be 
transferrable to a dependent. The total amount of benefits paid to all 
eligible individuals could not exceed $100 million for any fiscal year.
    VA supports the intent of the bill subject to the availability of 
funds. However, VA has concerns about the eligibility criteria for the 
additional educational assistance. As currently drafted, individuals 
who have been enrolled in a science, technology, engineering, and 
mathematics (STEM) program of education for only one day, week, or 
month at the point at which they exhaust the 36 months of chapter-33 
entitlement would be eligible for an additional nine months of 
educational assistance. Additionally, individuals who enroll in a STEM 
program for the first time after they have exhausted their chapter-33 
entitlement in a non-STEM program would also be eligible for an 
additional nine months of entitlement. We do not believe that providing 
additional benefits under these circumstances would serve the purpose 
of the legislation. This bill is designed for programs that require 
more than the standard 128 semester (or 192 quarter) credit hours for 
completion. However, the additional nine months of educational 
assistance would not enable individuals who previously enrolled in a 
limited number of STEM classes or have not previously enrolled in a 
STEM program to complete a STEM program.
    To implement this legislation, VA would need to make modifications 
to VA-ONCE and LTS in order to verify eligibility and allow for the 
award of additional months of educational assistance. VA estimates that 
it would require one year from the date of enactment to make the IT 
changes necessary to implement the proposed legislation.
    Benefit costs for section 3 would be $100 million in the first 
year, $500 million over 5 years, and $1 billion over 10 years. There 
are no additional FTE or GOE costs associated with section 3.
    Section 4 would increase the amounts of educational assistance 
payable for pursuit of institutional courses under the Survivors' and 
Dependents' Educational Assistance Program. An eligible person would be 
entitled to a monthly allowance of $1224 for full-time coursework, $967 
for three-quarter time, and $710 for half-time coursework. The 
increases would be effective 540 days after the date of enactment of 
the bill.
    VA supports section 4, subject to the Congress identifying 
acceptable offsets for the additional benefit costs, because it would 
provide additional funding for individuals currently utilizing the 
benefit for pursuit of these types of programs. These rates were last 
increased in 2003 and have only been increased through an annual cost 
of living allowance in subsequent years.
    Benefit costs for section 4 are estimated to be $0 in the first 
year, $586.3 million over 5 years, and $1.7 billion over 10 years. 
There are no FTE or GOE costs associated with section 4.
    Section 5 would amend 38 U.S.C. Sec. 3680A(a)(4) to authorize the 
use of Post-9/11 educational assistance to pursue independent study 
programs accredited by an accreditor recognized by the Secretary of 
Education at the following educational institutions that are not IHLs: 
area career and technical education schools as defined in 20 U.S.C. 
Sec. 2302(3) that provide postsecondary level education and 
postsecondary vocational institutions as defined in 20 U.S.C. 
Sec. 1002(c). Currently, under section 3680A(a)(4), the Secretary may 
only approve enrollment in an ``accredited independent study program 
(including open circuit television) leading (A) to a standard college 
degree, or (B) to a certificate that reflects educational attainment 
offered by an institution of higher learning.'' As such, VA is not 
authorized to pay educational assistance for independent study courses 
at an institution that is not considered to be an IHL.
    VA supports section 5, subject to the Congress identifying 
acceptable offsets for the additional benefit costs. This section would 
expand VA's approval authority to pay Post-9/11 GI Bill benefits for 
enrollment in accredited independent study certificate programs at 
educational institutions that are not IHLs but are accredited by an 
accreditor recognized by the Secretary of Education and at career and 
technical schools that lead to industry-recognized credentials and 
certificates for employment. VA understands and appreciates the 
importance of career and technical education courses and the growth in 
the utilization of online and other 21st century training modalities in 
the delivery of instruction for both degree and non-degree programs. As 
such, expanding the approval authority for certain independent study 
programs would be in the best interests of VA education beneficiaries.
    We note that, because this bill would amend 38 U.S.C. Sec. 3680A, 
the expansion of benefits would not be limited to Post-9/11 GI Bill 
benefits. If the intent of the bill is to limit this expansion to 
chapter-33 beneficiaries, the provision should be codified in chapter 
33 or the bill should be revised to incorporate this limitation. We 
have not, however, fully determined if there would be any costs 
associated with IT changes.
    Benefit costs are estimated to be $49.7 million in the first year, 
$268.4 million over 5 years, and $595.7 million over 10 years. There 
are no additional FTE or GOE costs associated with the proposed 
legislation.
    Section 6 would provide for the calculation of the amount of the 
MHA payable under the Post-9/11 Educational Assistance Program based on 
the location of the campus where the individual physically participates 
in a majority of classes, rather than the location of the IHL at which 
the individual is enrolled. The bill would apply to the initial 
enrollment in a program of education on or after the date of enactment 
of the legislation.
    VA supports section 6 because it would make MHA payments 
commensurate with the cost of housing in the location where students 
actually attend classes. In particular, this bill would address two 
situations in which the current MHA is likely not aligned with the cost 
of living where an individual actually attends classes: (1) courses 
that are held at the branch or satellite location of an IHL rather than 
at the IHL's main campus; and (2) online degree programs that require 
some in-residence courses. We believe that this bill would also remove 
the issue of the amount of the MHA as a factor in choosing a school and 
instead allow students to focus on the educational program when 
choosing an IHL.
    VA is unable to determine if any costs or savings would result from 
this legislation because of a lack of data on trainees who attend 
school at a branch location with a zip code that is different than the 
main campus. There are no additional FTEs or GOE associated with this 
bill.
    Section 7 would amend 38 U.S.C. Sec. 3485(a)(4) by removing the 
expiration date for a qualifying work-study activity for which an 
individual may be paid an additional educational assistance allowance. 
These activities are providing outreach services to Servicemembers and 
Veterans furnished under the supervision of a State approving agency 
(SAA) employee and hospital and domiciliary care and medical treatment 
to Veterans in a State home and any activity relating to administration 
of a national cemetery or state Veterans' cemetery.
    VA supports section 7 because it would permanently authorize work-
study allowances for individuals who are performing work-study 
activities that involve providing services to or on behalf of 
Servicemembers and Veterans.
    The benefits costs for section 7 are estimated to be $0 for the 
first year, $277,000 over 5 years, and $6.6 million over 10 years. 
There are no FTE or GOE costs associated with section 7.
    Section 8 would amend 38 U.S.C. Sec. 3319(f)(2) to allow dependents 
to whom entitlement to Post-9/11 GI Bill benefits is transferred by an 
individual who subsequently dies to transfer some or all of such 
entitlement to another dependent to whom entitlement was previously 
transferred by such individual.
    VA supports section 8. Currently, if an individual who has 
transferred entitlement subsequently dies, no additional changes to the 
transferred entitlement are authorized. We believe that an eligible 
dependent should be given the authority to transfer entitlement to 
another eligible dependent. However, we interpret section 8 to provide 
that if a Servicemember or Veteran does not transfer the maximum 
entitlement to a dependent, the amount that was not transferred would 
be forfeited. We do not have costs at this time.
    Section 9 would amend chapter 36 of title 38, United States Code, 
to add a new section 3697B, titled ``On-campus educational and 
vocational counseling.'' New section 3697B would: (1) require VA to 
provide educational and vocational counseling services for Veterans at 
locations on IHL campuses as selected by VA; (2) provide criteria for 
the selection of IHLs to participate in these services, and (3) require 
that no later than 180 days after enactment, and each year thereafter, 
VA will submit a report to Congress regarding the average ratio of 
counselors providing these services to Veterans at each location, a 
description of the services provided, and recommendations for improving 
the provision of these services.
    VA supports the objectives of providing veteran students with 
quality, readily available counseling services. However, we believe 
that this bill would duplicate the VetSuccess on Campus (VSOC) program, 
which VA already administers under the Secretary's authority in 38 
U.S.C. Sec. Sec. 3115 and 3116. VSOC aims to help Veterans, 
Servicemembers, and their qualified dependents succeed and thrive 
through a coordinated delivery of on-campus benefits assistance and 
counseling, leading to completion of their education and preparing them 
to enter the labor market in viable careers.
    VA, however, is concerned about the language in section 9 regarding 
the population to be served. Currently as outlined in 38 U.S.C. 
Sec. Sec. 3697 and 3697A, educational and vocational counseling 
services are available to Servicemembers, Veterans, and, in some 
instances, their eligible dependents. If the Congress were to enact 
this bill, VA recommends that Servicemembers and their eligible 
dependents be added to section 9(a), in order to preserve the benefit 
for the full population served by the existing VSOC program. In 
addition, VA does not believe that reporting on the ratio of 
individuals served to counselors would accurately reflect the amount of 
services provided because counselors often have multiple contacts with 
an individual and handle multiple issues for the individual. We believe 
that it would be more accurate to report on the number of contacts in 
which services were provided by a counselor.
    Section 10(a) would amend 38 U.S.C. Sec. 3312 to provide that, if 
VA finds that an individual was forced to discontinue pursuit of a 
course or courses under the Post-9/11 GI Bill as a result of permanent 
closure of an institution or did not receive credit or lost training 
time toward completion of the program for that course or courses, any 
payment of educational assistance to the individual for pursuit of the 
course or courses would not be charged against the individual's 
entitlement to benefits under the Post-9/11 GI Bill or counted against 
the aggregate period for which 38 U.S.C. Sec. 3695 limits the 
individual's receipt of educational assistance. The period for which 
educational assistance will not be charged against entitlement or 
counted toward the aggregate period would not exceed the aggregate 
period permitted under section 3695. This new subsection would apply 
with respect to courses and programs of education discontinued in FY 
2015 or thereafter.
    Section 10(b) would amend 38 U.S.C. Sec. 3680(a) to authorize the 
Secretary of Veterans Affairs to continue to pay a MHA to eligible 
persons during periods when schools are temporarily closed based on an 
Executive order of the President or due to an emergency situation for 
up to four weeks in a 12-month period. The MHA would also be payable 
during periods following a permanent school closure until the earlier 
of the date of the term, quarter, or semester during which the school 
closure occurred and the date that is four months after the date of the 
school closure.
    VA supports section 10. The closure of educational institutions 
while GI Bill beneficiaries are actively pursuing an approved program 
of education or training negatively impacts Veterans and eligible 
dependents. While VA can pay benefits for the term, quarter, or 
semester up to the time of the school's closure, the student is charged 
entitlement for the period prior to the closure for which benefits are 
received, even if the student does not earn any credit toward 
completion of a program. In some instances, this could result in a 
beneficiary exhausting chapter-33 entitlement prior to being able to 
complete a program at another institution. Allowing VA to restore 
entitlement and to continue to pay MHAs in the event of a school 
closure would be in the best interests of Veterans and eligible 
dependents because it would help ensure that they are able to 
successfully complete their educational goals.
    We note that there appears to be a discrepancy between the new 
subsection (d)(2), which applies to an individual who meets the 
criteria of both (A) and (B) of that subsection, and the applicability 
provision in section 2(a)(2) of the bill, which describes new 
subsection (d) as applying if the criteria of either paragraph (A) or 
paragraph (B) of subsection (d)(2) are met.
    We have not, however, fully determined if there were to be any 
costs associated with IT changes.
    Section 11 would amend 38 U.S.C. Sec. 3684(a) to require 
educational institutions to treat courses that begin seven or fewer 
days before or after the first day of an academic term as beginning on 
the first day of the academic term for purposes of reporting enrollment 
under section 3684.
    VA understands that section 11 would eliminate the separate 
reporting requirement for reporting for courses that begin seven or 
fewer days before the first day of an academic term. We note however 
that VA policy guidance currently does not require schools to 
separately certify classes that begin within 7 calendar days after the 
start of the term, quarter, or semester. Nonetheless, it should be 
noted that amended section 3684(a) would not change the period(s) for 
which VA educational assistance can be paid, which are codified in 38 
U.S.C. Sec. 3680(a) and in the various education benefit chapters. As a 
result, the reporting period under amended section 3684(a) would be 
inconsistent with the enrollment period for which VA pays educational 
assistance.
    Section 12(a) would require VA, to the maximum extent possible, to 
make changes and improvements to the VBA IT program to ensure that, to 
the maximum extent possible, original and supplemental claims for 
educational assistance under chapter 33 are adjudicated electronically 
and that rules-based processing is used to make decisions on such 
claims ``with little human intervention.'' Section 12(d) would 
authorize $30 million for FY 2018 through FY 2019 to implement the 
changes.
    VA concurs that there is room to improve the automation of the 
processing of education benefits claims. VBA is currently working with 
the Office of Information and Technology to assess IT capabilities. 
While VA is currently prioritizing replacement of legacy systems due to 
the risk of maintaining these systems, VA is also considering 
additional LTS functionality needed to provide faster and more accurate 
claims processing for those who apply for Post-9/11 GI Bill benefits 
and submit supplemental claims. The current average processing time for 
eligibility claims, which are not automated and are very labor-
intensive, is 22 days. During calendar year 2017, an average of over 
5,200 supplemental (reenrollment) claims were processed automatically 
each day using LTS, without human intervention. The remainder of 
supplemental claims are processed using partial automation. Section 
12(b) would require VA to submit to Congress an implementation plan 
within 180 days after enactment of the bill and a report on 
implementation within one year of enactment. VA, however, would need at 
least 24 months from the date of enactment to report on changes due to 
the time needed for the procurement process, systems development, 
testing, and deployment.
    Section 13 would add 38 U.S.C. Sec. 3699 to authorize the Secretary 
to make available to educational institutions offering courses of 
education that have been approved for educational assistance to which a 
Veteran or individual is entitled information about the amount of 
assistance to which the Veteran or individual is entitled. The 
information would be provided via a secure IT system accessible by the 
educational institution and would be updated regularly.
    VA supports the intent of section 13. However, section 13 would 
present implementation challenges for VA. Currently, VA provides the 
amount of a Veteran's entitlement (original and remaining) and other 
information such as the delimiting date for educational assistance to 
the educational institution in which the individual is enrolled through 
VA-ONCE. This information is available for individuals training under 
chapter 30 of title 38, United States Code, and chapters 1606 and 1607 
of title 10, United States Code, after VA processes an award for 
education benefits. This functionality is not currently available for 
Veterans or other individuals training under chapters 32, 33, or 35 of 
title 38, United States Code; therefore, VA would need to make 
programming changes to VA-ONCE in order to make this information 
available to these beneficiaries as well. We note in this regard that 
there are very few individuals who remain eligible for chapter 32 
benefits. We have not, however, fully determined if there were to be 
any costs associated with IT changes.
    There are no benefit costs or additional FTE or GOE costs 
associated with section 13.
    Section 14 would amend 38 U.S.C. Sec. 3692(c) to re-authorize the 
Veterans' Advisory Committee on Education (VACOE) through December 31, 
2022. VACOE provides advice to the Secretary on the administration of 
education and training programs for Veterans and Servicemembers, 
members of the National Guard and Reserve Components, and dependents of 
Veterans under chapters 30, 32, 33, and 35 of title 38, United States 
Code, and chapter 1606 of title 10, United States Code.
    VA supports section 14. If reauthorized, the Secretary would be 
able to continue to receive recommendations and seek advice from VACOE 
in order to enhance VA's educational assistance programs.
    GOE costs are $51,000 for the first year and $255,000 for 5 years.
    Section 15 would amend section 3684(c) of title 38, United States 
Code, to revise requirements governing reporting fees payable to 
educational institutions and joint apprenticeship training committees. 
Section 15 would increase the annual fee to $16 for each eligible 
individual enrolled in VA's education and vocational rehabilitation and 
employment programs. Section 15 would prohibit an educational 
institution or joint apprenticeship training committee from using 
reporting fees from VA for or merging such fees with the amounts 
available for the general fund of the educational institution or joint 
apprenticeship training committee.
    As a technical matter, VA notes that both current 38 U.S.C. 3684(c) 
and the proposed revisions to section 3684(c) use the term ``joint 
apprenticeship training committee.'' VA notes (and the Department of 
Labor agrees) that the term ``joint apprenticeship training 
committees'' is specific to the construction industry and refers to a 
subset of the possible universe of entities that could be 
apprenticeship program sponsors. Given that the bill does not focus 
strictly on the construction industry, the use of this term is 
problematic because the bill would exclude other industries which have 
registered apprenticeship programs. VA recommends revising section 15 
of the bill to change the term ``joint apprenticeship training 
committee'' to ``apprenticeship sponsor'' whenever it is used in 
section 15 of the draft bill (amending 38 U.S.C. 3684(c)). With this 
technical change, VA can support section 15 because it would prohibit 
schools from using reporting fees for, or merging such fees with, their 
general funds. Educational institutions are required to use reporting 
fees solely for making certifications or otherwise supporting programs 
for Veterans, and this would ensure that the reporting fees are used 
solely for those purposes.
    Benefit costs for section 15 would be $6.9 million in the first 
year, $34.7 million over 5 years, and $67.3 million over 10 years. 
There would be no FTE or GOE costs associated with enactment of this 
section.
    Section 16 would authorize VA, in consultation with the SAAs, to 
provide training requirements for school certifying officials employed 
by covered educational institutions that offer courses of education 
approved under chapter 36 of title 38, United States Code. If an 
educational institution does not ensure that a school certifying 
official meets the training requirements, VA may disapprove any course 
of education offered by the educational institution. A ``covered 
educational institution'' would refer to an educational institution 
that has enrolled 20 or more individuals using VA educational 
assistance and a ``school certifying official'' would be defined as an 
employee of an educational institution with primary responsibility for 
certifying Veteran enrollment at the educational institution.
    VA supports section 16. VA currently provides guidance and training 
opportunities for school certifying officials via webinars, the School 
Certifying Official Handbook, and on the GI Bill website but does not 
have the authority to require school certifying officials to complete 
this training or to disapprove educational programs if the training is 
not completed. The proposed legislation would provide VA with the 
authority to require school certifying officials to meet certain 
training requirements as determined by VA.
    VA suggests that the proposed requirements be codified in chapter 
36 of title 38, United States Code.
    There are no benefit costs or additional FTE or GOE costs 
associated with section 16.
    Section 17 would amend 38 U.S.C. Sec. 3674(a) to provide that 
reasonable and necessary salary and travel expenses of SAA employees 
and local agencies that VA has agreed to pay would be payable out of 
appropriated amounts as well as from amounts available for payment of 
readjustment expenses. Section 17 would authorize $3 million in 
appropriated funds per fiscal year and the maximum total amount 
available under section 3674 for any fiscal year would be increased 
from $19 million to $21 million. The maximum total amount available for 
these expenses would increase by the same percentage as the annual 
increase in the benefit amounts payable under title II of the Social 
Security Act.
    VA supports section 17. VA suggests a technical change to clarify 
the funding ceiling in this section. As drafted, new section 3674(a)(4) 
would conflict with new section 3674(a)(5)(A) because each appears to 
be setting a new funding ceiling. Also, if enacted as drafted, VA would 
be limited to $21 million per fiscal year for SAA payments.
    Benefit costs for section 17 are estimated to be $2 million in the 
first year, $10 million over 5 years, and $20 million over 10 years. 
There are no additional FTE or GOE costs associated with the proposed 
legislation.
    Section 18 would amend 38 U.S.C. Sec. 3313(c) to provide that 
scholarships or other Federal, State, institutional, or employer-based 
aid or assistance provided directly to the institution, to defray the 
amount of tuition and fees of persons entitled to less than 100 percent 
of the amounts payable under the Post-9/11 GI Bill for pursuing a 
program of education on more than a half-time basis, would not be 
deducted from the amount of tuition and fees assessed by the 
institution for the program of education for purposes of calculating 
the amount of educational assistance payable under the Post-9/11 GI 
Bill.
    VA supports section 18 of this bill because it would reduce the 
out-of-pocket expenses of Veterans and dependents who do not qualify 
for 100-percent educational assistance under the Post-9/11 GI Bill. 
Additionally, section 18 could reduce the amount of educational loans 
that Veterans or dependents need and therefore reduce their financial 
burdens. However, some eligible individuals could receive more Post-9/
11 educational assistance than the cost of the program in which they 
are enrolled. For example, if a scholarship paid to an institution on 
behalf of an individual who is entitled to VA educational assistance at 
the 90 percent rate exceeds 10 percent of the tuition and fees assessed 
by the institution, and VA is precluded from subtracting the amount of 
the scholarship from the educational assistance, the educational 
institution would refund the surplus to the student, who would receive 
a windfall. In addition, as a result of section 18, some eligible 
individuals who are entitled to educational assistance at less than the 
100-percent rate could receive more funding for their education than an 
individual who is eligible at the 100 percent benefit level.

    This concludes our statement, Mr. Chairman. I would be happy now to 
entertain any questions you or the other Members of the Committee may 
have.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman [presiding]. Thank you. I apologize. As you 
know, we have votes going on, and we are trying to continue 
forward. So, let me find my questions real quick.
    Let me just say, first of all, that I am proud to sponsor 
two of the bills that were under consideration during today's 
hearing: the GI Fairness Act, cosponsored with my friend and 
colleague, Senator Wyden; and the VET TEC bill that I am proud 
to lead with Senators Heller, Capito, Risch, and Nelson.
    Both bills aim to strengthen and advance education benefits 
provided to our Nation's veterans, the first by correcting 
existing inequalities and disparities in current law and the 
second by expanding the way we think about post-military 
employment skills and educational training.
    The first bill, S. 844, the GI Bill Fairness Act, would 
allow servicemembers to receive GI Bill eligibility credit for 
service periods when Reserve component members are on active 
duty to receive medical care. I think this legislation is the 
fair and right thing to do. Servicemembers should receive 
credit for their time on active duty, particularly when they 
are receiving medical care.
    The second, S. 1277, the Veteran Employment Through 
Technology Education Courses Act, or VET TEC, directs the VA to 
conduct a pilot program focused on nontraditional technology-
based education. This pilot seeks to provide veterans with 
high-demand, sought-after, and employable IT skills and 
certifications that would not be provided under the traditional 
GI Bill.
    Let us now go to the questions. Your testimony in Section 
13 of the Discussion Draft states that VA currently provides 
information on a veteran's entitlement to certain educational 
benefits through the VA-ONCE processing system, and VA would 
need to make changes to VA-ONCE to provide that capability for 
the Post-9/11 GI Bill. Assuming there would be a significant 
cost to make IT changes to VA-ONCE, is that a system that 
education service plans to invest in or would development of an 
alternative system be preferable?
    Mr. Coy. Thank you for the question, sir. You are right. We 
have long wanted to have a system where schools could go into 
our system, find out how much eligibility a veteran has 
remaining. We have long wanted to have a system where veterans 
could go in and see what their eligibility was, too. This is 
not a desire problem; this is a resource issue. We are working 
with the Office of Technology to be able to put a system like 
that online. We have made some strides, but we are not there 
yet.
    Senator Boozman. Very good. You know, processing times for 
original Post-9/11 GI Bill benefit claims averages 22 days and 
is very labor-intensive. Can you give the Committee an 
approximate idea of how much actual working time VA and DOD 
employees might spend on one of these claims?
    Mr. Coy. That is difficult to measure. We do not measure it 
because we have claims examiners, and they go back and forth. 
Some do supplemental claims, and some do original claims.
    Currently, our system for supplemental claims, about 85 
percent of them go through the system with some information on 
it, and about 50 percent go through the system and are never 
touched by human hands. With respect to original claims, our 
target is 21 days. We are at 22 days. But, original claims done 
manually have to go through every veteran's record to see what 
their eligibilities are.
    So, an opportunity to automate original claims would save a 
lot of time. Our end vision would be, as in our VA Home Loan 
Program, for example, if you wanted to get your certificate of 
eligibility for a VA home loan, you literally go into eBenefits 
and click a few buttons, and it will be printed out right there 
at your own printer or at your realtor's printer.
    Senator Boozman. So, in summary, automation would truly 
save a tremendous amount of time.
    Mr. Coy. Yes, sir. I mean, we have done a lot. When we 
automated supplemental claims back in 2012, we had processing 
times for original claims in the 50 to 60 days and for 
supplemental claims sometimes in the 20 to 30 days. We have got 
our supplemental claims down to about 7 or 8 days, which is 
pretty impressive, and that has relieved a lot of things, such 
that we can get our original claims down to about 22 days. We 
still think that is a little too high, and we are working hard 
to bring that down even further.
    Senator Boozman. Right.
    Senator Rounds?
    Senator Rounds. Mr. Chairman----
    Senator Boozman. Yes, sir.
    Senator Rounds [continuing]. Would you like me to work on 
bills or would----
    Senator Boozman. Are they on the first vote now or the 
second?
    Senator Rounds. Yeah. They are still in the middle of the 
first vote.
    Senator Boozman. OK. Go ahead. If you have your questions 
or Senator Tillis, whichever.
    Senator Rounds. I do not have any questions right now, so I 
will defer at this time.
    Senator Boozman. That is fine.
    Senator Rounds. I will hold my time for discussion on the 
three bills that we have introduced.
    Senator Boozman. Sounds good.
    Senator Tillis, do you have any questions?

                STATEMENT OF HON. THOM TILLIS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. I will be very brief so that we--I know we 
have got to get back over to vote.
    The one thing--I want to just get with the VA on the Janey 
Ensminger Act. I appreciate a lot of the work that the VA is 
doing, but I do have a concern with the difference in opinion 
as to ATSDR, which is where I think we should be focusing our 
attention versus the VA's current position. We will talk about 
that offline and not necessarily talk about it today.
    The main thing I wanted to talk about briefly has to do 
with the GI Bill provisions. I am not going to be able to be 
here, I think, for the next panel, so I just want to make the 
statement that I look forward to working with my colleagues on 
the Committee to close the 12304 Bravo and 12304 Hotel 
loopholes. They have been denying our Guardsmen and Reservists 
the benefits that I believe they rightfully earned.
    I appreciate The American Legion in particular for bringing 
the case of a specific North Carolina National Guardsman, 
Captain Lowman, to light. I look forward to supporting and 
cosponsoring Senate 844 of the GI Bill Fairness Act of 2017 
that Senator Boozman and others have sponsored.
    I also want to get the constructive feedback on the 
provisions for the Discussion Draft. I look forward to working 
with the VSOs on this to a successful conclusion.
    Thank you all for being here, and again, I apologize. With 
multiple committees going on at the same time I cannot be here, 
and I think what I may start doing is back-end loading some of 
my VSO panel hearings and move some of the meetings forward, 
with all due respect to the Department. I have got to balance 
it out from time to time, but I thank all the VSOs for the hard 
work you are doing.
    To the extent I never miss an opportunity to do this--I 
said this in the Aging Committee yesterday that had to do with 
caregiver support--we have got a lot of red tape to cut 
through, and until we can get that red tape out of the system 
as it relates to any veteran in North Carolina, let us be the 
scissors. Make sure they contact our office, tillis.senate.gov. 
We have already processed 6,000 claims for veterans in the 
State since I came in, January 2015. I would like for that to 
be another 6,000 more before the end of next year because I 
think the need is out there.
    Thank you, Mr. Chair.
    Senator Boozman. Thank you, Senator.
    Senator Rounds.

                STATEMENT OF HON. MIKE ROUNDS, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    I would take the opportunity right now to make just a few 
comments on several bills, and then I would like to ask a 
couple questions after that, as long as we have time to do it 
in that order, sir. Thank you.
    I am pleased to have three pieces of legislation that are 
up for consideration at today's legislative hearing. I do 
appreciate the VA's support and technical assistance on Senate 
Bill 882, the Purple Heart GI Bill Act; Senate Bill 1192, the 
Veterans TEST Accessibility Act; and Senate Bill 1330, the 
Increasing Transferability of Entitlement to Post-9/11 
Educational Assistance Act.
    The provisions in S. 1330 was addressed in the VA's 
testimony under Section 8 of the GI Bill Discussion Draft. I 
look forward to working through any necessary technical changes 
in advancing these particular provisions to become law.
    I also appreciate the support of the veterans service 
organizations for working with me to advance these legislative 
proposals, especially the Military Order of the Purple Heart, 
the National Association of Veterans Program Administrators, 
and the Tragedy Assistance Program for Survivors.
    Finally, I would like to thank Congresswoman Susan Brooks 
for leading the Veterans TEST Accessibility Act and Congressman 
Scott Peters for leading the Purple Heart GI Bill Act in the 
House of Representatives.
    My question for Mr. Coy, regarding Senate Bill 1330 on the 
transferability of Post-9/11 GI Bill benefits for surviving 
dependents, could you expand on the VA's interpretation that--
and I guess I will put this on quotations--``If a servicemember 
or veteran does not transfer the maximum entitlement to a 
dependent, the amount that was not transferred would be 
forfeited?'' Would you care to comment on that, sir?
    Mr. Coy. Yes, sir. The way the bill is written is laid out 
as such. You get 36 months of Post-9/11 GI Bill. The individual 
is still in the service, and he designates 12 months to his 
spouse, he designates 12 months to his daughter, and he keeps 
the rest. He gets out of the service. He is now a veteran, and 
he tragically passes away. Those benefits that are left over 
are not eligible, according to the way the law is and the way 
this bill is written, to be able to use those unused benefits 
to parcel them out to the spouse and daughter.
    Senator Rounds. So then, would you agree that a potential 
fix for this provision could be to add a paragraph that would 
require the VA to perhaps equally distribute any remaining 
Post-9/11 GI benefits from the deceased servicemember or 
veteran to surviving dependents who had benefits previously 
transferred to them?
    Mr. Coy. We would most certainly like to work with you and 
the Committee to come up with that resolution. There are 
nuances that would be interesting to have conversations about; 
in other words, who makes that decision if maybe there is a 
next-of-kin, perhaps both parents perish, who makes those 
decisions? So, those kinds of nuances, we would be happy to sit 
down and talk to you about, but I would suggest that we would 
be in favor of wanting to be able to leverage those unused 
benefits.
    Senator Rounds. That would be reasonable because the way it 
looks to me, anyone associated with that estate, whether it be 
an executor or an administrator, most certainly would be 
willing to work with us, because otherwise they lose them 
entirely. So, it seems to me that a reasonable identification 
as to an administrator or an executive or an executor would be 
the appropriate individual unless otherwise specified within a 
will.
    Mr. Coy. Yes, sir.
    Senator Rounds. Fair? OK.
    Second question would be--and let me just give you a little 
bit of a background. The VA provided the following feedback on 
S. 1192, which is the VA supports S. 1192 because it would 
benefit Post-9/11 GI Bill beneficiaries by reducing the 
negative impact of test reimbursement on the remaining benefit 
entitlement and increasing the months of training available for 
the beneficiaries, thus expanding educational opportunities.
    Under current Sections 3315 and 3315A, an individual is 
charged a portion of his entitlement for the reimbursement of 
fees associated with a licensing or certification exam or a 
national test in whole months; thus, VA charges an individual 1 
month of entitlement for each $1,832.96 reimbursed for the 
academic year beginning on August 1, 2016, rounded to the 
nearest whole month, regardless of the cost of the test. So, 
you could have a $250 test, but you get charged $1,832.
    Mr. Coy, on S. 1192, the Veteran TEST Accessibility Act, in 
your testimony, the VA supports this effort with a few 
suggested technical changes. I do appreciate your feedback.
    My question, I guess, would be when assessing the VA 
support for this legislation, did you look into any statistics 
on how often this test and certification reimbursement 
opportunity is used by veterans? And, do you foresee more 
veterans using their Post-9/11 GI benefits to be reimbursed for 
increasing their qualifications to succeed when transitioning 
to civilian life?
    Mr. Coy. Great question, sir. I do not have the answer in 
terms of how many of our veterans have used their benefits for 
tests. We would be happy to try to get that information back to 
you.
    [The information requested during the hearing follows:]

    For Fiscal Year (FY) 2016, VA paid benefits to 303 beneficiaries 
for the purpose of national tests. The table below provides detailed 
information by education program for FY 2016.

 
----------------------------------------------------------------------------------------------------------------
                                                                                                       Number of
                            Education Program                                    Training Type          Students
----------------------------------------------------------------------------------------------------------------
Post-9/11 GI Bill (Chapter 33)..........................................  National Exam                   252
Montgomery GI Bill Active Duty (Chapter 30).............................  National Exam                    18
Montgomery GI Bill Selective Reserve(Chapter 1606)......................  National Exam                    31
Reserve Educational Assistance Program(Chapter 1607)....................  National Exam                     2
----------------------------------------------------------------------------------------------------------------
    Total...............................................................  --                              303
----------------------------------------------------------------------------------------------------------------


    Mr. Coy. With respect to some of the tests, we could not 
agree more. I went back and looked at some of these tests. A 
GRE test, for example, is $195, which would use a whole month--
--
    Senator Rounds. Right.
    Mr. Coy [continuing]. For something like that.
    The flip side of that is you have a Cisco licensing or 
certification, and that costs about $1,600, so you are getting 
your money's worth.
    So, I would suggest, and I would agree, sir, that I think 
the way it is set up now, it would be prohibitive for a veteran 
to sign up for a $195 test to use a whole month of benefits. 
So, what this bill does is prorates that, and we support that. 
We think it is a great idea.
    Senator Rounds. Very good. Thank you.
    Mr. Chairman, my time has expired.
    Senator Boozman. Thank you, Senator.
    I just have one more question, and then we will move to the 
next panel, unless Senator Rounds has some others.
    In your testimony, you noted concerns with implementing 
S. 1277, the VET TEC Act, due to limited guidance in the bill 
about how VA should select qualified providers for these high-
technology education programs.
    Given that this would be a pilot program limited to 5 
years, would it help VA to have authority to develop and 
implement its own guidance for each contract in addition to 
what would be required by in the bill language?
    Mr. Coy. I think that would be great. Yes, sir.
    Part of what this bill does is it develops a series of 
contracts, not the way we do business now. The way we do 
business now is a school is approved by a State approving 
agency to be able to use their GI Bill benefits. What this does 
is set up a series of contracts with respect to that.
    Our concerns or thoughts when we said we have significant 
concerns are some of the provisions in the bill. I went through 
it last night and went through a few of them. One is that a 
veteran has to be entitled to educational assistance. That is 
one of the things that you have to get in the gate to do, and 
my response to that would be maybe we should expand it to 
everyone. What I mean by that is, if you already have 
educational assistance, then what is preventing you from using 
it to go take this course of something like that?
    There is no reference in the bill to the character of 
discharge. Currently, to use the GI Bill, you have to have an 
honorable discharge. There is no reference there, and I would 
suggest that we look at that.
    The $15 million that is a year, it is not identified as to 
whether it is mandatory money or GOE money. In other words, 
what color money is it? That makes a big difference on how we 
budget things.
    There is also no reference to whether or not we look at 
this to see if the $15 million could be part of that used for 
project management and program management. The implementation 
date is seriously a challenge. We are in the government, and 
the acquisition process is long and arduous, so the 
implementation date is a bit challenging.
    Then, when we look at the housing allowance, how we pay out 
housing allowance and where that money comes from; in other 
words, it is not clear that the students in this program are 
supposed to get housing allowance. Does that come out of the 
$15 million, or does that come out of mandatory money?
    So, there are three or four of them, a number of issues 
that we would be happy to work with the Committee to try to 
make this a very successful program and a successful bill.
    Senator Boozman. Thank you. I think those are valid. I 
think those are things we can work through. I do appreciate 
your input.
    Let me ask you one other thing, which if it would be 
possible might be helpful. Could the VA limit the contracts to 
discrete length in order to incorporate lessons learned from 
the pilot program during each of the 5 years?
    Mr. Coy. I apologize. Limit them to discrete?
    Senator Boozman. To discrete lengths, so that you could 
learn as we go forward over the course of the 5 years.
    Mr. Coy. I am still not clear on the question. I apologize.
    Senator Boozman. Well, instead of it being 5 years in 
length, lessen the time.
    Mr. Coy. Oh, discrete length.
    Senator Boozman. Yes, sir. Yes, sir. I am from Arkansas. 
That is my Southern drawl, unless I mumble. [Laughter.]
    Mr. Coy. I spent too much time in the Navy engineering 
spaces, so my ears are not so good.
    Senator Boozman. I am mumbling.
    Mr. Coy. I think that would be useful. I mean, the program 
right now is 5 years. Being able to split it into perhaps 1-
year increments and be able in most contracting environments--
and I am an old contracting officer. You have a base year and 
sometimes 3 or 4 or 5 years, which is done because you may not 
want that contractor after a year. So, having a 5-year contract 
sort of limits you, while having the ability or freedom to be 
able to manage through that would be very, very helpful.
    Senator Boozman. OK. Well, thank you very much. Thank you 
for your testimony.
    Mr. Coy. Yes, sir.
    Senator Boozman. It is very helpful.
    Let us go to our next panel. [Pause.]
    We appreciate you all coming over to testify on these 
bills. We appreciate your service to your country and to your 
fellow veterans, which is very, very important.
    Let us start with you, Mr. Hubbard, Will Hubbard, Vice 
President of Government Affairs, Student Veterans of America.

    STATEMENT OF WILL HUBBARD, VICE PRESIDENT OF GOVERNMENT 
              AFFAIRS, STUDENT VETERANS OF AMERICA

    Mr. Hubbard. Thank you, Mr. Chairman and Members of this 
Committee. It is a pleasure, as always, to speak before you. 
Thank you for inviting Student Veterans of America to submit 
our testimony on the modernization of the GI Bill and pending 
legislation. With over 1,400 chapters representing nearly 1.1 
million student veterans across the country, we are pleased to 
share the perspective of those directly impacted by the 
subjects before this Committee today.
    Before sharing our positions, I want to take a moment to 
recognize and wish for the expeditious recovery of Congressman 
Scalise and all those injured in yesterday's vicious attack. I 
would also like to commend the Capitol Police for their 
response and the immediacy of it, which truly saved lives. Our 
thoughts and prayers are with all those affected.
    As we honor the service of these brave Americans, I am 
reminded of the selfless sacrifice of our men and women in 
uniform as well as those who have served our country and uphold 
our Nation's cloth.
    Today, we will discuss our unwavering interest in achieving 
a lifetime GI Bill for veterans along with policy proposals to 
expand education access for Purple Heart recipients, Guard and 
Reserve members, school closure students, and survivors.
    In the groundbreaking research that we published this 
spring, the National Veterans Education Success Tracker, or 
NVEST for short, we demonstrated the high return on investment 
for the GI Bill for veterans and the country, a program worth 
ensuring for all generations to come.
    As the most recently transitioned veterans, the student 
veterans are Ambassadors to the all-volunteer force and 
recognize the value of this investment.
    Last month, we convened nearly 40 military, veteran, and 
higher education organizations for a roundtable discussion at 
the headquarters of our friends at The American Legion. We 
determined that the interest and need to address a wide variety 
of education-related issues could not be ignored.
    Over the course of a 3-hour discussion, the broad coalition 
of organizations identified four priorities, each receiving 
unanimous support. As referenced earlier, these include, first, 
school closures. All students affected in Corinthian and ITT 
Tech closures have a chance for restitution, except for 
veterans, whose benefits come through the VA through the GI 
Bill. We support multiple efforts to address this disparity and 
the interest in making these efforts--these student veterans 
whole.
    Second, Purple Heart recipients. Currently, there are about 
600 Purple Heart recipients who were discharged for nonmedical 
reasons and who got out before earning full GI Bill 
eligibility, mainly Reservists injured in combat. Anyone who 
has bled for this country should minimally have the opportunity 
to go to school.
    Third, Reservists. Reservists on a 12304(b) orders, those 
serving in pre-planned missions of the combatant commands, or 
12301(h) orders, those on medical hold, receive no GI Bill, as 
those mobilization codes were not added to the VA's definition 
of active duty service when those codes were established. 
Approximately 6,000 National Guard and Reserve members are 
ineligible for the GI Bill benefits they earned alongside their 
regular active-duty counterparts.
    And fourth, survivors. All GI Bill users with full 
eligibility can access the Yellow Ribbon Program except for 
survivors. Even though they rate the GI Bill of their 
servicemember who died in the line of duty, this technical 
oversight excludes them from support of the Yellow Ribbon 
Program. This push to secure the GI Bill for future 
generations, why now? Simply put, if not now, then when? When 
it is too late to reverse the threat of losing the program, 
just like all GI Bill benefits that have been cut before?
    Based on our research, conversations with thousands of 
student veterans across the United States and thoughtful 
discussions with many of the policy experts here in this room 
today, we developed the idea that the GI Bill should not be 
considered as a cost of war but instead a component of service. 
That all those who have done service in the defense of our 
Nation should have the opportunity to access education.
    I think we can all anticipate a certain level of 
manufactured outrage from those who just do not get it. 
Nonetheless, please recognize that the veterans and their 
families from groups like the VFW, American Legion, enlisted 
and National Guard associations, TAPS, Vietnam Veterans of 
America, Student Veterans of America, and dozens of others 
stand willing to do the right thing for our men and women who 
earn the right to go to school.
    In addition to the legislation under review today, 
including those four priorities that we have just identified, 
we are urging the consideration of three additional topics, 
including the termination of the arbitrary 15-year time limit 
on using the GI Bill; also allowing veterans with any type of 
discharge to access their earned education, excluding 
dishonorable discharges; and last, the removal of era-specific 
naming conventions for the GI Bill programs.
    We thank the Chairman and the Ranking Member as well as 
Members of this Committee for your time today, and we look 
forward to any feedback or questions that you may have.
    [The prepared statement of Mr. Hubbard follows:]
   Prepared Statement of William Hubbard, Student Veterans of America
    Chairman Isakson, Ranking Member Tester and Members of the 
Committee: Thank you for inviting Student Veterans of America (SVA) to 
submit our testimony on the modernization of the GI Bill and other 
pending legislation. With over 1,400 chapters representing the nearly 
1.1 million student veterans in schools across the country, we are 
pleased to share the perspective of those directly impacted by the 
subjects before this Committee.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research development 
seeking ways to improve the landscape, and advocacy throughout the 
Nation, we place the student veteran at the top of our organizational 
pyramid. As the future leaders of this country, fostering the success 
of veterans in school is paramount in their preparation for productive 
and impactful lives.
    We will discuss our unwavering interest in achieving a lifetime GI 
Bill for veterans, along with other policy proposals to expand 
education access for Purple Heart recipients, Guard and Reserve 
members, school closure students, and survivors. Since the passage of 
the Post-9/11 GI Bill in 2008, SVA has been working with a coalition of 
higher education and veteran organizations to improve the GI Bill for 
generations to come, including discussions that began in 2016 with the 
veteran community about making the GI Bill permanent.
    Our National Education Success Tracker (NVEST) research 
demonstrates that the GI Bill has a high return on investment for 
veterans and the country--a program worth ensuring for all generations 
to come.\1\ As the most recently transitioned generation of veterans, 
student veterans are ambassadors to the all-volunteer force, and 
recognize the value of this investment.
---------------------------------------------------------------------------
    \1\ Cate, C. A., Lyon, J. S., Schmeling, J., & Bogue, B. Y. (2017). 
National Veteran Education Success Tracker: A report on the academic 
success of student-veterans using the Post-9/11 GI Bill. Washington, 
D.C.
---------------------------------------------------------------------------
    SVA and the over 1.1 million student veterans in school today look 
forward to working with Congress and the veteran community in making 
this proposed expansion a reality.
      s. 410, shauna hill post-9/11 education transferability act
SVA supports as law.
    This bill would authorize the transfer of unused benefits to 
dependents upon death of originally designated dependent. At present, 
in the tragic scenario when a veteran's dependent with transferred GI 
Bill benefits passes away without using the full extent of those 
benefits, the unused benefits become unusable. We believe this is an 
unintended consequence of the way the law is written, and vigorously 
support this correction, which honors the sacrifice of our military 
families.
  s. 473, educational development for troops and veterans act of 2017
SVA supports as law.

SECTION 2: ELIGIBILITY OF RESERVE COMPONENT MEMBERS FOR POST-9/11 
                    EDUCATIONAL ASSISTANCE

SECTION 3: ELIGIBILITY OF RESERVE COMPONENT MEMBERS FOR NONREDUCTION IN 
                    PAY WHILE SERVING IN THE UNIFORMED SERVICES OR 
                    NATIONAL GUARD

SECTION 4: MODIFICATION OF TIME LIMITATION FOR TRAINING AND 
                    REHABILITATION FOR VETERANS WITH SERVICE-CONNECTED 
                    DISABILITIES

    These sections recognize the service of National Guard and Reserve 
Members and ensures that an order to serve on active duty under 
sections 12304a and 12304b of title 10, United States Code, is treated 
the same as other orders to serve on active duty for the purposes of 
determining benefits eligibility of servicemembers and veterans. Many 
of these servicemembers perform the exact same duties as their active 
duty counterparts, yet they realize none of the benefits. Fixing this 
discrepancy is a top priority for SVA, as well as nearly 40 other 
military, veteran, and higher education organizations that identified 
this issue with unanimous consent as being an imperative change.\2\
---------------------------------------------------------------------------
    \2\ GI Bill Roundtable meeting, The American Legion Headquarters, 
May 18, 2017.
---------------------------------------------------------------------------
    SVA encourages the Committee to consider applying these provisions 
to all members of the National Guard and Reserve who have served on 
active duty under all similar authorization codes including: 12301(h), 
12304a, or 12304b of title 10, United States Code, including 
retroactive and future cases.

SECTION 5: DEFERRAL OF STUDENTS LOANS FOR CERTAIN PERIOD IN CONNECTION 
                    WITH RECEIPT OF ORDERS FOR MOBILIZATION FOR WAR OR 
                    NATIONAL EMERGENCY

    This section proposes that student veterans could defer certain 
types of loans during a mobilization and up to 180 days after 
returning. Additionally, it would allow loans deferment to begin upon 
receipt of mobilization notice, enabling them the ability to adequately 
execute proper financial planning during the period for which they are 
mobilized. Given the significant strain of a deployment on the 
financial health of a servicemember, especially those with families, 
this basic deference can prevent financial hardship which might 
otherwise be the result of service to a grateful Nation. SVA views this 
as a simple but impactful provision and fully supports it as law.

SECTION 6: GRANT PROGRAM TO ESTABLISH, MAINTAIN, AND IMPROVE VETERAN 
                    STUDENT CENTERS

    This section establishes a grant program within the Department of 
Education (ED) to help institutions of higher education establish, 
maintain, and improve veteran education centers as a dedicated space on 
a campus, providing students veterans, servicemembers, or eligible 
family members a centralized location for services.
    We regularly hear from our student veterans that the support of 
their peers is a crucial factor in the reintegration process and the 
pursuit of a college education. Multiple studies show that student 
veterans are more successful when they connect with their peers while 
facing the day-to-day obstacles on-campus. With access to a veteran's 
center, student veterans have significantly increased opportunities to 
obtain resources and peer support that directly contributes to their 
success.
    SVA has been a long-time supporter of building Vet Centers on 
campuses, and partners with the Home Depot Foundation to create our own 
VetCenter Initiative which over $950,000 in grants to build Vet Centers 
across the country. The proposal outlined by this act is a public 
display that initiatives like these are truly important, and contribute 
to the success of veterans at institutes of higher learning (IHL) 
across the country.

SECTION 7: MODIFICATION OF BASIS FOR ANNUAL ADJUSTMENTS IN AMOUNTS OF 
                    EDUCATIONAL ASSISTANCE FOR MEMBERS OF THE SELECTED 
                    RESERVE

    This section seeks to ensure parity in benefits that National Guard 
and Reserve members have earned, entitling them to Montgomery GI Bill 
education benefits. Many Guard and Reservists utilize Chapter 1606, or 
``Montgomery GI Bill Selected Reserve'' (MGIB-SR) benefits, though 
these benefits have not kept pace with the rising costs of college. 
Currently, then MGIB-SR only affords a monthly stipend of $362, which 
continues to lose value as college costs rise rapidly.\3\\4\ This 
change would be small, but have a significant impact for those veterans 
using this benefit in their educational pursuits.
---------------------------------------------------------------------------
    \3\ Department of Veterans Affairs, (2017), Montgomery GI Selected 
Reserve (MGIB-SR), http://www.benefits.va.gov/gibill/mgib_sr.asp
    \4\ CollegeBoard, (2017), https://trends.collegeboard.org/college-
pricing/figures-tables/tuition-and-fees-and-room-and-board-over-time-
1976-77_2016-17-selected-years
---------------------------------------------------------------------------

SECTION 8: MONTHLY STIPEND FOR CERTAIN MEMBERS OF THE RESERVE 
                    COMPONENTS OF THE ARMED FORCES

    This section would pro-rate the housing allowance to reflect 
periods when the servicemember is not on active duty and allow them to 
fully partake in their earned housing allowance under their GI Bill 
benefits. While many National Guard and Reserve members continue to 
serve while in IHL, many lose eligibility for GI Bill housing 
allowances when ordered to duty under title 10, United States Code. 
Caught between active duty, though receiving an insufficient housing 
allowance from the active duty service, and coupled with the inability 
to receive GI Bill housing payments, the veteran is punished for their 
continued service. This technical change would address this oversight.
                 s. 798, yellow ribbon improvement act
SVA supports as law.
    This bill would amend title 38, United States Code, to include the 
Fry Scholarship in the Yellow Ribbon G.I. Education Enhancement 
Program. SVA stands with many other organizations in strong support of 
this legislation that would allow the dependents of a servicemember 
killed in action to access Yellow Ribbon Program benefits.
    The Marine Gunnery Sergeant John David Fry Scholarship goes to 
families that have made the ultimate sacrifice for their country; we 
believe they've more than earned the right to attend a IHL of their 
choice without comparatively minor tuition costs hampering their 
success. This is a common-sense proposal; frankly it is ridiculous that 
that this error has not yet been amended, and we look forward to this 
being expeditiously put into effect. SVA stand in vigorous support for 
this legislation.
                      s. 844, gi bill fairness act
SVA supports as law.
    This bill proposes amending title 38, United States Code, to 
consider certain time spent by members of reserve components of the 
Armed Forces while receiving medical care from the Secretary of Defense 
as active duty for purposes of eligibility for Post-9/11 Educational 
Assistance. This issue was a known problem as early as October 2014, 
documented in an October 1, 2014 Reserve Forces Policy Board 
memorandum. Consistent with our position on S. 473, sections 2-4, SVA 
maintains a hard stance on addressing this issue immediately, and looks 
forward to seeing a solution passed this year.
                    s. 882, purple heart gi bill act
SVA supports as law.
    This bill would recognize the sacrifice of men and women who have 
served our country with dignity, sustaining battlefield injuries. 
Currently, only veterans who either served at least 36 months on active 
duty or are medically retired receive Post-9/11 GI Bill benefits at the 
100 percent rate, excluding nearly 3,000 Purple Heart recipients over 
the next ten years who may not meet these administrative requirements. 
In practice, this error penalizes men and women who were wounded before 
they could reach the full term of their contract to receive GI Bill 
eligibility. SVA believes that those who shed blood in our country's 
defense should have the opportunity to go to IHL.
                    s. 1192, test entitlement charge
SVA supports as law.
    This bill would allow veterans to apply their GI Bill benefits to 
afford the cost of certain licensure and certification tests and 
national tests. Under the current system, veterans who seek to apply 
their GI Bill benefits to the cost of taking certification or licensing 
tests are charged an entire month of their entitlement, regardless of 
how comparatively low the cost of such test is.
    It is common sense that veterans would be able to pro-rate the cost 
of that charge and retain the remaining value of that month's benefit. 
This measure will prevent veterans from being dissuaded by the current 
overcharging inconsistency, and instead encourage taking critical tests 
necessary for career development without paying costs out of pocket. 
SVA is fully in support of this common-sense solution.
    s. 1218, empowering federal employment for disabled veterans act
SVA supports as law.
    This bill would seek to complement current Federal veteran hiring 
initiatives, and promote career development and training for veteran 
employees. Though current Federal hiring initiatives exist, they are 
often ineffective, or at least unevenly applied, across various 
departments and agencies. The Federal Government should focus on 
matching the skills and career aspirations of veterans to specific 
agency needs while also expanding career development training 
opportunities.
    This expansion would create an environment that improves the long-
term wellbeing of veterans as well as the overall efficiency of the 
Federal Government. This bill also proposes an expansion of the 
Department of Defense's SkillBridge program to Federal agencies, which 
would provide opportunities to gain relevant work experience within the 
government, while also affording the opportunity to attend IHL. A 
skilled workforce with a demonstrated commitment to service would be 
highly beneficial for the country.
  s. 1277, veteran employment through technology education courses act
SVA supports as law.
    This bill proposes to direct the Secretary of Veterans Affairs to 
carry out a high technology education pilot program. The proposal would 
operate as a five-year pilot program, funded for up to $15 million 
annually. SVA views this as complimentary to existing education 
programs, and addresses the need to develop innovative programs 
targeted at non-traditional students. The split payment requirement 
incentivizes providers to deliver high quality programs with high-
impact and successful student outcomes.
    With an increase in innovation in higher education with companies 
like Dog Tag Bakery at Georgetown University, the education industry is 
beginning to recognize the need to adapt to more flexible or hybrid 
models for new generations of students. It is unclear if the contracts 
under this proposal reset annually, or how those funds are to be 
dispersed, however SVA is confident that such logistical details would 
be minor hurdles when compared to the overall benefit of this concept.
    The industry desire for such a program is clear, including support 
from the Information Technology Industry Council (ITI), the global 
voice of the tech sector.\5\ Over 60 members of ITI include technology 
giants such as Google, Twitter, Amazon, Facebook, Adobe, Microsoft, 
IBM, Intel and many others.\6\ Like VA's Accelerated Learning Program 
(ALP), SVA is eager to learn about the outcomes of this proposal.
---------------------------------------------------------------------------
    \5\ ITI letter to the Honorable Kevin McCarthy, ``Re: H.R. 1989, 
the Veteran Employment Through Technology Education Courses Act,'' 
April 25, 2017; See appendix for original letter.
    \6\ Information Technology Industry Council, Member Companies, 
http://www.itic.org/about/member-companies, Accessed June 10, 2017.
---------------------------------------------------------------------------
      s. 1330, post-9/11 transferability for surviving dependents
SVA supports as law.
    SVA supports this technical correction for transferred GI Bill 
benefits. Currently, if a servicemember transfers their GI Bill while 
alive and subsequently passes, the allocation of benefits and amount 
allotted to surviving family members is locked in place indefinitely. 
If the servicemember or veteran were still living, they could simply 
adjust the number of months allotted to each family member at will. SVA 
recommends allowing those entitled to the transferred benefits to 
determine the decision and amount of reallocation of benefits as an 
additional component of this proposal.
                discussion draft, gi bill modernization
SVA supports as law.

SECTION 2: CONSOLIDATION OF CERTAIN ELIGIBILITY TIERS UNDER POST-9/11 
                    EDUCATIONAL ASSISTANCE PROGRAM OF THE DEPARTMENT OF 
                    VETERANS AFFAIRS (VA)

    This section proposes to amend title 38, United States Code, to 
consolidate certain eligibility tiers under the Post-9/11 Educational 
Assistance Program. For reservists, the opportunity to serve on active 
duty and earn GI Bill benefits may be limited for some, while the wider 
reserve components continue to be an integral component of the overall 
global Department of Defense posture. This proposal recognizes the 
importance that National Guard and Reserve Members play in the 
protection of our Nation in service overseas.
    The modified tiers of eligibility would provide 10% increases, 
specifically for those who serve on active duty up to 12 months. The 
minimum threshold of benefits would be increased up to 50% eligibility 
for those who serve between three to six months (see table below for 
reference). Our research indicates that student veterans are 
quintessentially non-traditional students, which often includes 
significant financial obligations and costs associated with raising 
families.\7\ The increase in education benefits at the lower levels 
makes achieving educational success a significantly more attainable 
goal.
---------------------------------------------------------------------------
    \7\ Cate, C.A., Davis, T, (2016), Spotlight Brief, https://
studentveterans.org/images/SVA SpotlightBrief-1.pdf

 
----------------------------------------------------------------------------------------------------------------
                                                                            Percentage of Maximum
                                                                                   Benefit
                             Member Service                             ----------------------------
                                                                            Current      Proposed
----------------------------------------------------------------------------------------------------------------
Service-Connected Disability...........................................         100%          100%
36+ months.............................................................         100%          100%
30-36 months...........................................................          90%           90%
24-30 months...........................................................          80%           80%
18-24 months...........................................................          70%           70%
12-18 months...........................................................          60%           60%
6-12 months............................................................          50%           60%       (+10%)
3-6 months.............................................................          40%           50%       (+10%)
----------------------------------------------------------------------------------------------------------------

SECTION 3: ADDITIONAL POST-9/11 EDUCATIONAL ASSISTANCE FOR CERTAIN 
                    INDIVIDUALS PURSUING PROGRAMS OF EDUCATION IN 
                    SCIENCE, TECHNOLOGY, ENGINEERING, MATH, OR 
                    HEALTHCARE

    This section would amend title 38, United States Code, to authorize 
the Secretary of Veterans Affairs to provide additional educational 
assistance benefits under the Post-9/11 Educational Assistance Program 
of VA to certain eligible individuals, specifically those seeking STEM 
(science, technology, engineering, and math) degrees. With the current 
resources provided by the GI Bill, the marginal cost of an additional 
academic year for student veterans pursuing STEM will yield the 
essential mass of leaders our country needs. Investing in an additional 
year for STEM-focused student veterans will ultimately result in 
economic gains and tighter national security, and supporting H.R. 748 
is the first step.
    Presently, 16-20% of all undergraduate students are in pursuit of a 
STEM degree. While less than one fifth of current students seek STEM 
degrees, even fewer achieve them since more than one third of the 
general population change their major before they graduate. Compare 
those numbers to what we learned from the research we published this 
year, the National Veteran Education Success Tracker (NVEST), we found 
that 14% sought STEM degrees.
    The aptitude and interest is clear--the resources to deliver more 
STEM graduates in the single major barrier to even greater numbers of 
STEM graduates.\8\ According to a report from Georgetown University's 
Center of Education and the Workforce, ``The Economic Value of College 
Majors,'' top-paying college majors earn a total $3.4 million more than 
the lowest-paying majors over a lifetime; the top ten highest paying 
majors are all in STEM fields, eight of which are in engineering.\9\
---------------------------------------------------------------------------
    \8\ Cate, CA, 2017, National Veteran Education Success Tracker, 
http://nvest.studentveterans.org/
    \9\ Carnevale, Anthony, ``The Economic Value of College Majors,'' 
Georgetown University Center for Education and the Workforce, 2015, 
https://cew.georgetown.edu/cew-reports/valueofcollegemajors/
---------------------------------------------------------------------------
    In today's economic environment, the highest paying majors will 
earn graduates an average mid-career salary of $136,000. The lowest 
earning potential includes majors such as studio arts or human 
services. Such majors earn a mid-career salary of nearly $100,000 less 
per year. The tax revenue from STEM professionals alone suggests this 
is a beneficial proposal. The need for STEM-focused professionals with 
a commitment to service, and the leadership skills to make a difference 
has never been greater.
    Our country faces a key decision point. We are currently affording 
veterans the opportunity to go to IHL, but we must determine what 
shapes this new and dynamic workforce. After these veterans graduate, 
wouldn't we prefer that our country gains scientists, engineers, 
cybersecurity professionals, physicists, and other high-demand 
professionals? The marginal cost of an additional academic year is 
well-worth the added short-term cost, noting the long-term benefit to 
the economy.
    Veterans should not be forced to decide between continued service 
through a STEM career, and the financial burden that mitigates the 
value of their earned GI Bill benefits. It has long been our goal to 
see every veteran maximize the potential of their GI Bill, and this is 
the answer. It would otherwise take years to find other graduates with 
level of experience and knowledge that veterans already possess--time 
we simply do not have. The ability and expertise of these veterans, 
when coupled with a STEM education, will be an unparalleled force. Our 
servicemembers are routinely exposed to highly technical equipment, 
processes, and environments, often with lives depending on their 
ability to succeed in high-pressure situations. We know they can, and 
do, succeed when given the opportunity.
    When determining our support for this proposal, we consider the 
long-term economic impact of increased tax revenue from higher-paid 
STEM professionals; we consider the national security need for leaders 
in these fields; and we consider how the previous GI Bill prepared our 
country for the most modern workforce of its time. We know veterans 
have a demonstrated commitment to service, and the leadership skills 
necessary to make the country's STEM fields an unmatched force. SVA 
vigorously supports this section.

SECTION 4: INCREASE IN AMOUNTS OF EDUCATIONAL ASSISTANCE PAYABLE UNDER 
                    SURVIVORS' AND DEPENDENTS' EDUCATIONAL ASSISTANCE 
                    PROGRAM OF DEPARTMENT OF VETERANS AFFAIRS

    This section would increase the amounts of educational assistance 
payable under survivors' and dependents' educational assistance program 
of VA. We strongly support an increase in Chapter 35 Education Benefits 
of amounting to approximately $400 per month. Presently, families 
receive a monthly stipend of between $394 to $788, an amount 
significantly below benefits of the Post-9/11 and Montgomery GI Bills, 
as well as VA Education programs.
    Unfortunately, many survivors are ineligible for the Fry 
Scholarship because the servicemember died prior to September 11, 2001, 
or were separated with a medical discharge and passed away as a 
retiree. It is our unwavering position that family members of the 
fallen utilizing these benefits earned with the ultimate sacrifice 
should be viewed as equal to veterans themselves for the purposes of 
education benefits. SVA vigorously supports this increase.

SECTION 5: AUTHORIZATION FOR USE OF POST-9/11 EDUCATIONAL ASSISTANCE TO 
                    PURSUE INDEPENDENT STUDY PROGRAMS AT CERTAIN 
                    EDUCATIONAL INSTITUTIONS THAT ARE NOT INSTITUTIONS 
                    OF HIGHER LEARNING

    This section permits veterans to use Post-9/11 Educational 
Assistance for an accredited independent study program (including open 
circuit television) at an educational institution that is an area 
career and technical education IHL or a postsecondary vocational IHL 
providing postsecondary level education.
    We support the intent of this legislation in expanding the 
educational options of veterans, but maintain reservations and 
encourage a stronger definition for the term, ``accredited independent 
study program.'' The loss of recognition of the Accrediting Council for 
Independent Colleges and IHLs (ACICS) under the Department of Education 
(ED) demonstrates that accreditation is a subject that deserves 
additional scrutiny.\10\ We look forward to seeing this legislation 
refined, and seek its eventual passage on the contingency of a stronger 
definition for the definition of ``accredited'' in this instance.
---------------------------------------------------------------------------
    \10\ Department of Education Official Blog, 2016, https://
blog.ed.gov/2016/06/college-accreditation-changes-mean-students/
---------------------------------------------------------------------------

SECTION 6: CALCULATION OF MONTHLY HOUSING STIPEND UNDER POST-9/11 
                    EDUCATIONAL ASSISTANCE PROGRAM BASED ON LOCATION OF 
                    CAMPUS WHERE CLASSES ARE ATTENDED

    This section would adjust the calculation of the monthly housing 
stipend under Post-9/11 Educational Assistance Program based on 
location of campus where classes are attended. Currently this disparity 
exists between where a veteran physically attends classes and resides, 
and the monthly stipend provided under the Post-9/11 GI Bill. For 
example, a veteran could be enrolled at an online IHL based in San 
Francisco, while living in a rural district of North Dakota; in such a 
case, the individual would receive substantially higher Basic Allowance 
for Housing (BAH) than necessary, inflating the programs costs 
unnecessarily.
    We have seen instances of this disparity in BAH calculation 
encourage abusive behavior on the part of several institutions of 
higher learning (IHL) who locate the IHL address in a high-BAH 
district, while offering the physical course delivery in a low-BAH 
location while using the lucrative BAH stiped as a recruiting 
incentive. The converse of this situation is also a major point of 
contention, and results in harm to the veteran while enrolled in IHL. 
We support this legislation which would adjust the calculation to 
account for the reality of the living situation.

SECTION 7: REPEAL OF SUNSET ON WORK-STUDY ALLOWANCE FROM DEPARTMENT OF 
                    VETERANS AFFAIRS FOR CERTAIN QUALIFYING WORK-STUDY 
                    ACTIVITIES

    This section would amend title 38, United States Code, to extend 
the authority to provide work-study allowance for certain activities by 
individuals receiving educational assistance by the Secretary of 
Veterans Affairs. The VA Work-Study Program is widely accepted as a 
highly beneficial system that provides student veterans the opportunity 
to earn additional income while in IHL, and simultaneously support the 
broader mission of VA.
    The Post-9/11 GI Bill is the most comprehensive and generous 
education benefit ever offered, though it often does not cover the 
total costs student veterans experience. As the quintessential non-
traditional students, student veterans are often more mature by age and 
experience, 52% have families, and 18% are single parents. Roughly half 
of student veterans work full-time while in IHL, and another 25% work 
part-time. With nearly 780,000 student veterans working while in IHL, 
it is clear that the demand for this opportunity is high.

SECTION 8: AUTHORIZATION OF TRANSFER OF ENTITLEMENT TO POST-9/11 
                    EDUCATIONAL ASSISTANCE BY DEPENDENTS WHO RECEIVE 
                    TRANSFERS FROM INDIVIDUALS WHO SUBSEQUENTLY DIE

    In the same spirit as our position on S. 1330, we support this 
common sense technical adjustment.

SECTION 9: DEPARTMENT OF VETERANS AFFAIRS PROVISION OF ON-CAMPUS 
                    EDUCATIONAL AND VOCATIONAL COUNSELING FOR VETERANS

    This section would direct the Secretary of Veterans Affairs to 
provide educational and vocational counseling for veterans on campuses 
of institutions of higher learning, and codify the program. SVA has 
been a long-time supporter of the VetSuccess on Campus (VSOC) program, 
which entails the campus having a VSOC Counselor, an expert full-time 
VA detailee, right on campus. We frequently hear student veterans 
identify the VSOC program as a top benefit that they find to be most 
valuable for their higher education experience.
    In providing feedback to SVA regarding the VSOC program, one 
student veteran shared, ``We have a VSOC Counselor from VA come to the 
IHL twice a month so Vets can start a new claim or ask questions 
concerning a claim. This helps immensely as the VA hospital is a 35-
minute drive from IHL and keeps our Vets on campus. Vets can ask our 
counselor any type of question concerning their benefits. They are also 
a Vocational Rehabilitation (VocRehab) counselor for a few of the Vets 
on campus. We are incredibly lucky to have this program on campus.''
    In addition to appreciating the on-site access to a qualified VA 
counselor, many alluded to a direct personal impact on their academic 
performance. Another student veteran shared, ``The VSOC has been there 
to help me through the transition from soldier to student. Counseling, 
advising, financial help, even tutoring has been afforded to me through 
the VSOC. The VA representative has gone above and beyond to help me 
succeed, especially when IHL and life became overwhelming for me.''
    These comments are indicative of the general feedback we received 
from members over the past several months in our field research on the 
program. In addition to the general support provided by VSOC 
counselors, student veterans noted the ability of counselors to quickly 
correct and process certifications as a major benefit to their campus. 
They often appreciated the connection counselors make with IHL 
administration as well. We believe the VSOC program is highly 
beneficial to student veterans and would like to see it expanded as 
resources allow. SVA is in strong support of this legislation, and 
strongly recommends a 25% annual budget increase for VSOC to expand the 
number of IHLs that offer VSOC Program opportunities to student 
veterans.

SECTION 10: RESTORATION OF ENTITLEMENT TO POST-9/11 EDUCATIONAL 
                    ASSISTANCE AND OTHER RELIEF FOR VETERANS AFFECTED 
                    BY IHL CLOSURE

    This section would allow for the restoration of entitlement to GI 
Bill benefits for veterans affected by closures of educational 
institutions. SVA strongly supports the intent of this measure, with 
the condition that the legislation be amended to cover the closure of 
the Corinthian Colleges, Inc. (Corinthian) in 2015.\11\ When 28 IHLs 
administered by Corinthian closed, there were 422 individuals that were 
using Post-9/11 GI Bill benefits to attend one of those IHLs. Many of 
these affected student veterans now find themselves stranded. The VA 
Secretary currently does not have the authority to provide meaningful 
relief to student veterans who find themselves in such a situation.
---------------------------------------------------------------------------
    \11\ Corinthian closure letter, http://www.cci.edu/multimedia/
closure/CCI-student-letter_ 4.25.15.pdf
---------------------------------------------------------------------------
    The proposal will apply to veterans receiving GI Bill benefits 
while pursuing a program of education at an IHL that closed, or who 
withdrew from a closed IHL within 120 days of the closure. Veterans who 
complete their program of education at another IHL pursuant to a teach-
out plan would not be eligible for relief. VA would also have the 
authority to identify other students who were harmed by their IHL and 
may be eligible for such relief.
    SVA humbly recommends the inclusion of a provision granting VA the 
authority to bring appropriate action against an IHL in an attempt to 
recover the expenses of providing relief. In order to ensure that 
student veterans who have already been harmed can receive relief, the 
bill would retroactively apply to anyone who received Post-9/11 GI Bill 
benefits. Congress must act to ensure that hard-earned GI Bill benefits 
are not squandered because of an IHL's failure to serve its students. 
SVA supports this measure with the conditions of expanding the 
timeframe to restore entitlement to those affected in the Corinthian 
closures.

SECTION 11: TREATMENT, FOR PURPOSES OF EDUCATIONAL ASSISTANCE 
                    ADMINISTERED BY THE SECRETARY OF VETERANS AFFAIRS, 
                    OF EDUCATIONAL COURSES THAT BEGIN SEVEN OR FEWER 
                    DAYS BEFORE OR AFTER THE FIRST DAY OF AN ACADEMIC 
                    TERM

    This section would allow IHL certifying officials (SCO) and 
regional processing officers (RPO) the ability to define a ``calendar 
week'' for the purpose of education benefits as ``the seven-day period 
beginning on the first day of the institution's published academic 
calendar.'' At present, VA defines a calendar week as being from Sunday 
to Sunday, while policy guidance for SCOs necessitates that those 
officials process terms depending on the first date the class meets for 
that period of the week. This minor technical discrepancy has led to 
some confusion in processing benefits, as well as duplicative efforts. 
SVA supports this change to reflect the reality of processing these 
benefits consistent with our interpretation of the congressional intent 
of the benefit.

SECTION 12: IMPROVEMENT OF INFORMATION TECHNOLOGY OF THE VETERANS 
                    BENEFITS ADMINISTRATION

    This bill would direct the VA Secretary to make improvements to the 
information technology system of the Veterans Benefits Administration 
(VBA) of VA. The directs that to the maximum extent possible, VBA 
should access information technology (IT) funding to address critical 
IT infrastructure updates. Presently VA's Office of IT (OIT) functions 
as a collective funding source for the total VA; simply put, individual 
departments have no dedicated resources for IT needs.
    The result of VA's current IT resourcing model structure is that 
OIT must constantly determine the highest priority needs of the VA as a 
whole, leaving some departments with a low level of resources for 
sustained periods of time. The dedication of these resources will allow 
the Veterans Benefits Administration (VBA) with the opportunity to 
receive necessary support in IT upgrade which directly the ability of 
VA to effectively process payments of benefits to student veterans.

SECTION 13: PROVISION OF INFORMATION REGARDING ENTITLEMENT OF VETERANS 
                    TO EDUCATIONAL ASSISTANCE

    This section proposes allowing IHLs to view the total and remaining 
amount of educational benefits of a veteran thereby allowing the IHL to 
properly counsel those veterans on their financial obligation and IHL 
requirements. This is a simple change with a significant impact, 
enabling greater communication between the IHL and the veteran.

SECTION 14: EXTENSION OF AUTHORITY FOR ADVISORY COMMITTEE ON EDUCATION

    This section extends the authority of the VA Advisory Committee on 
Education (VACOE), an advisory body of subject matter experts that 
provide the Secretary of VA input on veteran issues in higher 
education. Previously, SVA provided input at through this forum to 
highlight necessary reform changes and statute which legally required 
VA to establish an agreement with the Federal Trade Commission (FTC). 
Upon recommendation to the Secretary of VA at the 2015 VACOE meeting, 
the agreement with FTC was reached. This is an example of the 
significant value and detailed level of policy analysis that the VACOE 
can provide to the Secretary.

SECTION 15: LIMITATION ON USE OF REPORTING FEES PAYABLE TO EDUCATIONAL 
                    INSTITUTIONS AND JOINT APPRENTICESHIP TRAINING 
                    COMMITTEES

    This section proposes increasing reporting fees as high as $16 per 
number of eligible veterans to execute or offset services required to 
process benefits. It also requires them to use the money for veterans. 
SVA believes the reporting fees to be critical components of offsetting 
the cost of administering GI Bill education benefits at the institution 
level; we also support requiring this reporting fee be accounted for 
appropriately as well as being expended on activities related to the 
execution of veteran benefit processing. Some concern has been 
expressed that IHLs with very few veterans would be cause undue strain 
in establishing a separate account for such a low number of students. 
As such, SVA supports setting a threshold to require IHLs with 
significant populations to adhere to this requirement, to avoid IHLs 
with only several student veterans from experiencing undue accounting 
strain as result of this provision.

SECTION 16: TRAINING FOR IHL CERTIFYING OFFICIALS AS CONDITION OF 
                    APPROVAL OF COURSES FOR VETERANS EDUCATIONAL 
                    ASSISTANCE

    This section codifies the requirements for SCO training. SVA 
supports this provision, as the training provided through VA is 
critical for SCO's to maintain a high level of professional aptitude. 
In some cases, IHLs have not allowed SCOs to attend training, alleging 
that it was not required. This requirement removes any doubt about the 
importance of that training.

SECTION 17: MODIFICATIONS RELATING TO REIMBURSEMENT OF EXPENSES OF 
                    STATE APPROVING AGENCIES FOR MATTERS RELATING TO 
                    ADMINISTRATION OF VETERANS EDUCATIONAL ASSISTANCE

    This section proposes an increase in resources provided to SAAs. 
SVA believe SAAs are a critical component to ensuring quality 
education, preventing fraud and abuse, and looking out for student 
veterans who may be subject to bad practices at various IHLs. SAAs are 
effectively the gatekeepers of the GI Bill. Yet, the amount of 
resources provided to them has not kept pace with inflation and rising 
costs. We continue to urge Congress to increase support for SAAs, and 
are pleased to see the inclusion of this legislation. The amount of 
resources spent on oversight should reflect the importance of resources 
spent in educational benefits; as such SVA supports the recommendations 
of the National Association of State Approving Agencies to increase 
funding from $19 million to $26 million.

SECTION 18: MODIFICATION OF CALCULATION OF AMOUNT OF EDUCATIONAL 
                    ASSISTANCE FOR INDIVIDUALS PARTIALLY ELIGIBLE FOR 
                    POST-9/11 EDUCATIONAL ASSISTANCE

    This section proposes a technical modification of affecting student 
veterans with less than 100% of GI Bill eligibility, primarily National 
Guard and Reserve members. At present, IHLs often do not consider VA to 
be the ``first payer'' in the case of the total financial aid package 
for student veterans. As such, VA only pays up to half of the remaining 
financial cost after the other financial components are factored out. 
This means that student veterans are essentially punished for seeking 
out scholarship or other financial support beyond their earned 
benefits. SVA believes that payments from VA should be calculated based 
on the total tuition cost before other financial aid components are 
taken into account, not merely based on the remaining tuition costs 
that exist after other factors are accounted for in the remaining 
balance.
Additional Considerations
    Beyond this list of legislation currently under consideration, 
there are three additional proposals which we believe are critical 
components for the modernization of the GI Bill, including: the 
termination of the 15-year benefit usage time limit, allowing veterans 
with discharges other than dishonorable to access their earned 
education benefits, and a removal of era-specific naming conventions 
for GI Bill programs.
    We believe that veteran education benefits are not a cost of war, 
but instead a component of service. We believe that education 
opportunities should be a lifetime benefit, and thus require the 
removal of the current 15-year delimiting date within Chapter 33 
benefits. Such an arbitrary cap on the opportunity to use this earned 
benefit serves only as a hindrance to the success of veterans. 
Additionally, it is imperative that the GI Bill no longer be considered 
through the strict lens of wartime eras. Indeed, tying education 
benefits to wartime eras has historically led to previous iterations of 
the benefit being cut.
    Presently, only veterans with an ``Honorable Discharge'' are 
eligible for Post-9/11 GI Bill education benefits, neglecting more than 
170,000 veterans who have the most to gain from an education. Research 
indicates that nearly 7% of veterans in Post-9/11 conflicts have earned 
``bad paper'' discharges, with roughly three out of four of those 
individuals facing the challenge of post-traumatic stress (PTS).\12\ 
Having fought our Nation's battles, and now often fighting for their 
own healing and personal growth, these men and women should have the 
opportunity to improve their own lives through education. Additional 
considerations such as wrongful discharge and separation for minor 
infractions should not warrant a lifetime denial of education benefits. 
SVA strongly encourages the Committee to review this issue with 
thoughtfulness and foresight.
---------------------------------------------------------------------------
    \12\ Adams, Bradford, (2016), Underserved, https://www.swords-to-
plowshares.org/sites/default/files/Underserved.pdf
---------------------------------------------------------------------------
    As a component of service, there should be one bill that serves all 
current and future veterans, and therefore should be updated in name to 
reflect this timeless concept, as ``The Veterans Education Assistance 
Act'' or referred to simply as the GI Bill. This simplified naming 
convention may seem insignificant, but it's importance is far-reaching 
as the re-naming of the benefit indicates its importance to all 
generations of veterans. Veterans don't decide when their country asks 
them to go to war; student veterans don't believe wartime should 
dictate the opportunity for future generations of veterans to attend 
college.

    We thank the Chairman, Ranking Member, and the Committee members 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with this Committee, the 
Senate Veterans' Affairs Committee, and the entire Congress to ensure 
the success of all generations of veterans through education.

    Senator Boozman. Thank you so much. I think you make some 
excellent points.
    I need to adjourn the meeting for just a few minutes. We 
have another vote going on right now, so I am going to run 
over. Senator Rounds and some others are on their way back. 
But, there are not very many things that I have to do here, but 
I do have to vote, so I am going to run over there. This is a 
very important bill, so I will be back in just a little bit; 
and again, we will have somebody here in just a bit. OK?
    With that, we are going to recess. We are not going to 
adjourn. We are going to recess for a few minutes. [Recess.]

    Senator Rounds [presiding]. OK. We will call this meeting 
back out of recess and into order again.
    I understand that we have already completed the testimony 
of Mr. Will Hubbard. Next in line would be Mr. John Kamin, the 
Assistant Director of Veterans Employment and Education, The 
American Legion. Welcome, sir.

     STATEMENT OF JOHN KAMIN, ASSISTANT DIRECTOR, VETERANS 
         EMPLOYMENT AND EDUCATION, THE AMERICAN LEGION

    Mr. Kamin. Thank you, Mr. Chairman. On behalf of National 
Commander Charles E. Schmidt of The American Legion, we thank 
you for the work you do in support of veterans as well as their 
families.
    I would also like to extend our thoughts and prayers with 
Whip Scalise and his family during this tragic time.
    As the largest organization of wartime leaders, the 
Legion's voice is representative of more than 2.2 million 
members. Our positions are guided by nearly 100 years of 
experience and resolutions that originate at the grassroots 
level. We appreciate the opportunity to present The American 
Legion's views regarding these pieces of legislation. These 
issues cannot be put off any longer.
    Due to the allotted time available, I will only speak to 
these three pieces of legislation as well as portions of the 
Discussion Draft.
    S. 844, the GI Bill Fairness Act. This bill would amend 
Title 38 to consider time spent by members of Reserve 
components receiving military medical care as active duty for 
the purpose of eligibility for the GI Bill.
    To understand the need for this bill, I would refer you to 
the story of Captain Bryan Lowman of the North Carolina 
National Guard. On the third month of his deployment to 
Afghanistan in 2010, he became severely ill with typhoid fever, 
lapsed into a coma, and underwent multiple emergency surgeries 
over the course of a year in Afghanistan, Germany, and at 
Walter Reed under 12301(h) orders. After his long recovery, 
Captain Lowman aimed to further his education. However, since 
his activation status was changed to 12301(h), his eligibility 
was cut down to the time he served before he got sick.
    To put a finer point on this, Captain Lowman began to earn 
his GI Bill fighting for our country, but when he was fighting 
for his life, our country pulled the benefit.
    I wish I could report to you that this was an isolated 
issue, but over 20,000 servicemembers have been issued these 
medical orders since 2008.
    S. 844 corrects this oversight and rewards retroactive 
benefits to all servicemembers affected. The American Legion 
supports this bill and stands ready to assist you when 
correcting it.
    Shifting focus to S. 473, the Educational Development for 
Troops and Veterans Act of 2017, we applaud Senator Tester for 
honing in on a critical issue that is escalating in scope: 
unequal education benefits for Reserve and National Guard 
servicemembers.
    The Post-9/11 GI Bill is as close to a perfect benefit that 
has ever existed for active duty personnel. For Reservists, on 
the other hand, eligibility is only gained if you are called to 
active duty service. This is a roll of the dice, and the odds 
just got worse for these servicemembers with the advent of 
12304(b) orders. S. 844 not only corrects this oversight by 
granting 12304(b) orders GI Bill eligibility, but also corrects 
even more technical issues affecting Reservists, such as 
prorating the monthly housing allowance for student Reservists 
and affording loan deferments to servicemembers predeployment.
    We respectfully request, however, that the bill be amended 
to apply to those who served before the date of enactment. The 
American Legion does not believe that servicemembers who have 
already been activated under 12304(b) orders are any less 
deserving of GI Bill benefits. Again, The American Legion 
stands ready to assist in correcting this.
    Furthermore, I would like to discuss the draft bill Section 
10, restoration of entitlement of Post-9/11 educational 
assistance, and Section 17, modifications related to 
reimbursement of expenses of State Approving Agencies.
    When a school closes, non-veterans students have Federal 
protections to support them. Federal loans can be discharged, 
and Pell Grants can have their eligibility periods reset. The 
American Legion strongly believes that a veteran's GI Bill 
benefits should be afforded the same protection. This section 
provides that, but Congress should not forget about the student 
veterans affected by the Corinthian College closures of 2015. 
We believe these student veterans also deserve that protection 
and call for the eligibility date to be amended to the fiscal 
year 2015.
    Additionally, we believe that more effective oversight is 
needed to proactively abate school closures. While student 
veteran protection addresses the symptoms, the root cause is 
financially unstable schools that were not properly identified 
until it was too late. While compliance and oversight is never 
simple, the VA has partners that are uniquely suited to address 
this. They are the State Approving Agencies.
    State Approving Agencies are responsible for approving and 
supervising programs of education for the training of veterans. 
Positioned at every State, they are our first line of defense 
for identifying bad actors. However, their funding has not 
increased since 2005, even as the educational ecosystem has 
compounded in size and complexity. The American Legion, thus, 
believes the $3 million increase is not adequate to cover the 
SAAs' overall scope and encourages Congress to allocate $5 
million annually, additionally, for the SAAs.
    In closing, I briefly draw your attention to S. 1209, a 
bill to increase special pension for Medal of Honor recipients. 
Just this week, it was announced that Mr. James C. McCloughan 
will be receiving the Medal of Honor. These brave 
servicemembers have been awarded the highest military honor for 
valor and deserve this increase. After all, it is the least we 
can do.
    Mr. Chairman, I appreciate the time to present on these 
issues. I would be happy to answer any questions you may have. 
Thank you.
    [The prepared statement of Mr. Kamin follows:]
    Prepared Statement of John Kamin, Assistant Director, Veterans 
             Employment and Education, The American Legion

 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
S.75, Arla Harrell Act (McCaskill, Blunt)  Support
------------------------------------------------------------------------
S.111, Filipino Veterans Promise Act       No Position
 (Heller, Hirono)
------------------------------------------------------------------------
S.410, Shauna Hill Post-9/11 Education     Support
 Transferability Act (Crapo, Risch)
------------------------------------------------------------------------
S.473, Educational Development for Troops  Support with amendments
 and Veterans Act of 2017 (Tester,
 Blumenthal, Brown, Murray)
------------------------------------------------------------------------
S.758, Janey Ensminger Act of 2017 (Burr,  Support
 Tillis)
------------------------------------------------------------------------
S.798, Yellow Ribbon Improvement Act       Support
 (Cassidy, Brown, Tillis)
------------------------------------------------------------------------
S.844, GI Bill Fairness Act (Wyden,        Support
 Boozman)
------------------------------------------------------------------------
S.882, Purple Heart GI Bill Act (Rounds,   Support
 Boozman)
------------------------------------------------------------------------
S.1192, Veterans TEST Accessibility Act    Support
 (Rounds, Hirono)
------------------------------------------------------------------------
S.1209, A bill to increase special         Support
 pension for Medal of Honor recipients
 (Graham, Blumenthal)
------------------------------------------------------------------------
S.1218, Empowering Federal Employment for  Support
 Disabled Veterans Act (Heitkamp,
 Sullivan)
------------------------------------------------------------------------
S.1277, Veteran Employment Through         No Position
 Technology Education Courses Act
 (Boozman, Heller)
------------------------------------------------------------------------
Discussion Draft on changes to GI Bill     Please reference section
------------------------------------------------------------------------


    Chairman Isakson, Ranking Member Tester, and distinguished Members 
of the Committee; On behalf of Charles E. Schmidt, the National 
Commander of the largest Veteran Service Organization in the United 
States of America, representing more than 2 million members; we thank 
you for this opportunity to present The American Legion's positions on 
pending legislation before this Committee.
                        s. 75: arla harrell act
To provide for the reconsideration of claims for disability 
        compensation for veterans who were the subjects of experiments 
        by the Department of Defense during World War II that were 
        conducted to assess the effects of mustard gas or lewisite on 
        people, and for other purposes.
    S. 75 addresses denied disability compensation claims for 
individuals who were subjects of mustard gas and lewisite tests during 
World War II. Many of the files needed to submit claims to the 
Department of Veterans Affairs (VA) were either classified by the 
military or destroyed in the National Personnel Records Center fire of 
1973.
    For over a decade, Arla Harrell has sought VA disability 
compensation for conditions he attributes to his service in the 
military. While stationed at Camp Crowder, Missouri, during the latter 
days of World War II, he reports being subjected to mustard gas 
exposure as part of a secret experimental program. This exposure led to 
a lifetime of respiratory ailments and adverse medical conditions.
    38 CFR Sec. 3.316 identifies a host of medical conditions, to 
include respiratory conditions that are presumptively related to 
mustard gas exposure; however, without proper Department of Defense 
records, it is difficult for VA to assume that the exposure of mustard 
gas or lewisite was considered ``full-body exposure.'' \1\ S. 75 would 
allow VA to presume that any exposure to mustard gas or lewisite, in 
these cases, were ``full-body exposure'' incidences.
---------------------------------------------------------------------------
    \1\ https://www.law.cornell.edu/cfr/text/38/3.316
---------------------------------------------------------------------------
    The American Legion has long supported service connecting veterans 
presumptively due to environmental exposures. Through the passage of 
Resolution No. 118, Environmental Exposures, at The American Legion's 
98th National Convention, The American Legion supports ``the 
liberalization of the rules relating to the evaluation of studies 
involving exposure to any environmental hazard and that all necessary 
action be taken by the Federal Government, both administratively and 
legislatively as appropriate, to ensure that veterans are properly 
compensated for diseases and other disabilities scientifically 
associated with a particular exposure.'' \2\
---------------------------------------------------------------------------
    \2\ The American Legion Resolution No. 118 (2016): Environmental 
Exposures
---------------------------------------------------------------------------

The American Legion supports S. 75.

                 s. 111: filipino veterans promise act
To require the Secretary of Defense to establish a process to determine 
        whether individuals claiming certain service in the Philippines 
        during World War II are eligible for certain benefits despite 
        not being on the Missouri List, and for other purposes.
    The provisions in this bill fall outside the scope of established 
resolutions of The American Legion. As a large, grassroots 
organization, The American Legion takes positions on legislation based 
on resolutions passed by our membership. With no resolution addressing 
the provisions of S. 111, The American Legion is researching the 
material and working with our membership to determine the course of 
action that best serves veterans.

The American Legion has no current position on S. 111.

      s. 410: shauna hill post-9/11 education transferability act
A bill to amend title 38, United States Code, to authorize the transfer 
        of unused Post-9/11 Educational Assistance benefits to 
        additional dependents upon the death of the originally 
        designated dependent.
    S. 410 would permit reassignment of veterans' education benefits in 
cases where the designated beneficiary passes away. Unfortunately, it 
took a tragic event to realize the necessity for this change.
    In 2012, 16-year old Shauna Hill died in a two-car crash. Her 
father, retired Navy Capt. Edward Hill had granted Shauna his education 
benefits to his daughter to go to college. After her death, Mr. Hill 
had hoped to transfer this education benefit to his younger daughter, 
however, was informed that Federal law prohibits transferring GI Bill 
benefits from one child to another post-retirement. S. 410 is a common 
sense bill aimed at making the lives easier for veterans who have 
chosen to gift their hard-earned education benefit.
    Resolution No. 308: Amending the Eligibility for the Transfer for 
the Post-9/11 GI Bill supports legislation that would authorize all 
servicemembers with ten years or more of active-duty service, who are 
eligible for the Post-9/11 GI Bill educational benefits, be able to use 
the transferability entitlement to give to their immediate family 
members.\3\
---------------------------------------------------------------------------
    \3\ The American Legion Resolution No. 308 (2016): Amending the 
Eligibility for the Transfer for the Post-9/11 GI Bill Educational 
Benefits
---------------------------------------------------------------------------

The American Legion supports S. 410.

  s. 473: educational development for troops and veterans act of 2017
To amend title 38, United States Code, to make qualification 
        requirements for entitlement to Post-9/11 Education Assistance 
        more equitable, to improve support of veterans receiving such 
        educational assistance, and for other purposes.

SEC. 2. ELIGIBILITY OF RESERVE COMPONENT MEMBERS FOR POST-9/11 
                    EDUCATIONAL ASSISTANCE

SEC. 3. ELIGIBILITY OF RESERVE COMPONENT MEMBERS FOR NONREDUCTION IN 
                    PAY WHILE SERVING IN THE UNIFORMED SERVICES OR 
                    NATIONAL GUARD

SEC. 4. MODIFICATION OF TIME LIMITATION FOR TRAINING AND REHABILITATION 
                    FOR VETERANS WITH SERVICE-CONNECTED DISABILITIES

    In the 2012 National Defense Authorization Act, authorization 
12304b was created under Title 10, which allowed reserve-component 
troops to meet the challenges around the globe by mobilizing without 
counting against caps on active forces. While this is critical to 
maintaining our national security, existing statutes do not recognize 
the service of Reservists and National Guardsmen called to mobilize on 
these orders.
    According to Title 38 of the U.S. Code, these individuals did not 
serve on ``active duty.'' Even though these troops served side-by-side 
with Active Duty servicemembers, reservists deployed under these orders 
are therefore denied benefits earned for deployments including 
healthcare (pre- and post-mobilization), retirement age reduction, pay 
differentials, and eligibility for the Post-9/11 GI Bill.
    Section 2-4 corrects these oversights via amending U.S.C. Titles 5, 
10, and 38 to include Sec. 12304b mobilization authority in determining 
eligibility for all servicemembers who have mobilized under these 
orders.
    The American Legion applauds the Committee's effort in addressing 
this issue, but Congress must not forget about the servicemembers who 
have already deployed under 12304b orders and the servicemembers who 
have and will be placed on 12301(h) healthcare orders. In present form, 
these section excludes 12301(h) and only applies to servicemembers 
activated after the date of enactment.
    The American Legion does not believe that servicemembers who had 
their orders changed to medical recovery should be penalized by losing 
eligibility to the Post-9/11 GI Bill and concurs with the Office of the 
Secretary of Defense Reserve Forces Policy Board recommendation that 
12301(h) be amended for GI Bill eligibility.
    Further, The American Legion does not believe that servicemembers 
who have already been activated under 12304b orders are any less 
deserving of GI Bill benefits, and requests that they be included in 
any legislative solution.
    Resolution No. 20: GI Bill Fairness for Wounded Servicemembers and 
Activated National Guard and Reservists supports any legislative 
proposal that provides amendments to U.S. Code Titles 5, 10, 37 and 38 
commensurate with U.S. Code Title 10 authorized service, such as 12304b 
and 12301(h), that grant Post-9/11 GI Bill benefits.\4\
---------------------------------------------------------------------------
    \4\ The American Legion Resolution No. 20 (2017): GI Bill Fairness 
for Wounded Servicemembers and Activated National Guard and Reservists
---------------------------------------------------------------------------
    The American Legion requests that this section be amended to apply 
with respect to any member of a reserve component of the Armed Forces 
who serves or has served on active duty under section 12301(h), 12304a, 
or 12304b of title 10, United States Code, before, on, or after the 
date of the enactment of this section.

SEC. 5. DEFERRAL OF STUDENT LOANS FOR CERTAIN PERIOD IN CONNECTION WITH 
                    RECEIPT OF ORDERS FOR MOBILIZATION FOR WAR OR 
                    NATIONAL EMERGENCY

    Under current law, servicemembers can apply for deferment of their 
Federal student loan repayments while they are deployed, and for up to 
180 days post-deployment. This legislation would allow servicemembers 
to defer their loan repayments for up to 180 days pre-deployment. If 
they receive their first notice of deployment less than 180 days pre-
deployment, their deferment eligibility would start on the day they 
received such notice. This legislation seeks to provide some economic 
relief to servicemembers whose lives are disrupted by being relocated 
and commencing the training they need for their upcoming deployment. 
The American Legion applauds Senator Tester's spotlighting of this 
issue.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its usage.\5\
---------------------------------------------------------------------------
    \5\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 5.

SEC. 6. GRANT PROGRAM TO ESTABLISH, MAINTAIN, AND IMPROVE VETERAN 
                    STUDENT CENTERS

    This section establishes a grant program within the Department of 
Education (ED) to help institutions of higher education establish, 
maintain, and improve veteran education centers--a dedicated space on a 
college or university campus that provides students who are veterans, 
members of the Armed Forces, or eligible family members a centralized 
location for services. According to ED, federally funded veteran 
student centers and staff have generated improved recruitment, 
retention, and graduation rates, have helped veteran students feel 
better connected across campus, and have directly contributed to 
student veterans' successful academic outcomes.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its usage.\6\
---------------------------------------------------------------------------
    \6\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 6.

SEC. 7. MODIFICATION OF BASIS FOR ANNUAL ADJUSTMENTS IN AMOUNTS OF 
                    EDUCATIONAL ASSISTANCE FOR MEMBERS OF THE SELECTED 
                    RESERVE

    Section 7 amends Section 16131 of title 10 to ensure that 
Montgomery GI Bill benefit rates for Guardsmen and Reservists maintain 
their current value by being equal to or greater than the yearly 
increase in the national average cost of tuition.
    The Montgomery GI Bill for the Selected Reserve (MGIB-SR) is an 
important tool for recruiting high quality young men and women into the 
National Guard and Reserves. Those who initially join for six years are 
automatically entitled to MGIB-SR and its current monthly rate for 
full-time study/training of $362. Unfortunately, MGIB-SR benefit rates 
have not kept pace with the rising costs of higher education and are 
effectively losing value each and every year. This trend sends a very 
poor signal that the service of our Guardsmen and Reservists is being 
de-valued, and it fails to make an appropriate investment in their 
education and professional development.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its usage.\7\
---------------------------------------------------------------------------
    \7\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 7.

SEC. 8. MONTHLY STIPEND FOR CERTAIN MEMBERS OF THE RESERVE COMPONENTS 
                    OF THE ARMED FORCES

    Section 8 prorates the monthly housing allowance for the portion of 
the month the servicemember is not on active duty by amending Title 38, 
U.S.C. to clarify the eligibility for monthly stipends paid under the 
Post-9/11 Educational Assistance Program for certain members of the 
reserve components of the Armed Forces.
    Many reservists are required to routinely perform their jobs in a 
Title 10 status due to their specific job requirements and functions. 
These commonly include aircrew, intelligence personnel, and Unmanned 
Aerial Vehicle and Remote Piloted Aircraft operators. While not in a 
drill status, or if in a drill status under Title 38, an individual is 
entitled to their monthly housing allowance (MHA) and book allowance. 
When the drill status is under Title 10, the individual is entitled to 
the MHA and book allowance, but only for the first portion of the month 
up to when they entered active duty under Title 10. Therefore, if an 
individual goes on active duty on the first day of the month for three 
days, the individual does not receive any MHA or book allowance for the 
rest of that month. Just one day of Title 10 service can result in 
forfeiture of MHA and book allowance for all or most of the month. In 
order to maintain combat readiness, many reservists have to commit to a 
minimum of four training days per month in a Title 10 status. Many 
reservists are also full-time students and rely on their MHA to pay 
rent, but as a result of the current rules, they are denied their full 
MHA and book allowance, causing many members to incur thousands of 
dollars of debt. This is compounded by the fact that members of the 
reserve are used more frequently due to the increased tempo of 
operations around the world.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its usage.\8\
---------------------------------------------------------------------------
    \8\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 8.

                  s. 758: janey ensminger act of 2017
A bill to amend the Public Health Service Act with respect to the 
        Agency for Toxic Substances and Disease Registry's review and 
        publication of illness and conditions relating to veterans 
        stationed at Camp Lejeune, North Carolina, and their family 
        members, and for other purposes.
    S. 758 would allow the Agency for Toxic Substances and Disease to 
collect information regarding servicemembers, veterans, and family 
members who suffer from a variety of illnesses due to contaminated 
drinking water at Camp Lejeune , NC. Additionally, this bill would 
require the Secretary of Veterans Affairs to allocate two million 
dollars a year to assist servicemembers, veterans, and their families 
affected by contaminated water at Camp Lejeune, in applying for health 
benefits through the VA.
    During the early parts of the 1980s, contaminants were found in two 
wells that provided water at Camp Lejeune. These contaminants included 
the volatile organic compounds trichloroethylene (TCE), a metal 
degreaser, perchloroethylene (PCE), dry cleaning agents, and vinyl 
chloride, as well as benzene, and other compounds. It is estimated that 
the contaminants were in the water supply from the mid-1950's until 
February 1985 when the wells were shut down. Additionally, there is 
evidence of an association between certain diseases and the 
contaminants found in the water supply at Camp Lejeune during the 
period of contamination.
    United States Marine Corps (USMC) servicemembers and their families 
living at the base, between the 1950's to 1985, bathed in and ingested 
tap water contaminated with harmful chemicals at concentrations ranging 
from 240 to 3400 times higher than appropriate safety levels. An 
undetermined number of former base residents later developed cancer or 
other ailments, which may be associated with the contaminated drinking 
water. Victims claim that USMC leaders concealed knowledge of the 
problem and did not act appropriately in resolving it or notifying 
former base residents that their health might be at risk.
    The American Legion is appalled that military members serving our 
Nation, and their families, were exposed to harmful chemical 
contaminants at Camp Lejeune. We are equally shocked that the USMC was 
potentially aware of the issue and did nothing to mitigate the risk 
associated with the water contamination at this military instilation. 
This bill would allow individuals affected by water contamination at 
Camp Lejeune to recivie healthcare provided by the VA and claim any 
benefits due to them.
    Resolution No. 377: Support for Veteran Quality of Life supports 
legislation that would allow access to quality VA health care and 
timely decisions on claims and receipt of earned benefits.\9\ The 
American Legion strongly supports this piece of legislation.
---------------------------------------------------------------------------
    \9\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life
---------------------------------------------------------------------------

The American Legion supports S. 758.

                 s. 798: yellow ribbon improvement act
To amend title 38, United States Code, to expand the Yellow Ribbon G.I. 
        Education Enhancement Program to apply to individuals pursuing 
        programs of education while on active duty, to recipients of 
        the Marine Gunnery Sergeant John David Fry scholarship, and to 
        programs of education pursued on half-time basis or less, and 
        for other purposes.
    This bill would address a current statutory regulation that 
excludes eligible dependents of a servicemember killed in action from 
enhanced tuition reimbursement available through the Yellow Ribbon 
Program. This simple legislative fix will provide Fry Scholarship 
recipients with the same benefits as other Chapter 33 eligible 
beneficiaries and allow scholarship awardees access to education at 
Yellow Ribbon Schools.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\10\
---------------------------------------------------------------------------
    \10\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports S. 798.

                      s. 844: gi bill fairness act
A bill to amend title 38, United States Code, to consider certain time 
        spent by members of reserve components of the Armed Forces 
        while receiving medical care from the Secretary of Defense as 
        active duty for purposes of eligibility for Post-9/11 
        Educational Assistance, and for other purposes.
    Members of the National Guard or Reserve who are wounded in combat 
are often given orders under 10 U.S.C. 12301(h) for their recovery, 
treatment, and rehabilitation. Unfortunately, Federal law does not 
recognize such orders as eligible for Post-9/11 GI Bill education 
assistance, meaning that unlike other members of the military, these 
members of the National Guard and Reserve lose benefits for being 
injured in the line of duty. An example is Captain Bryan Lowman of the 
North Carolina National Guard.
    In 2010, Captain Lowman was deployed to Afghanistan in a detachment 
with the North Carolina National Guard. During the deployment, he 
became severely ill with typhoid fever, lapsed into a coma and 
underwent multiple emergency surgeries over the course of a year in 
Afghanistan, Germany and at Walter Reed Medical Center in Bethesda, MD. 
After his long recovery, Captain Lowman aimed to pursue a college 
degree. Based upon his active-duty time on his DD214, Captain Lowman 
was to be entitled to 90 percent of his Post-9/11 GI Bill benefits. 
However, since his activation status was changed to 12301(h) medical 
orders his eligibility was reduced to only the time he served before 
his illness.
    The GI Bill Fairness Act would end that unequal treatment and 
ensure these servicemembers are eligible for the same GI Bill benefits 
as Active Duty members of the military.
    The American Legion considers it truly unjust to deny wounded and 
injured servicemembers the ability to accrue educational benefits for 
the time they spend receiving medical care. No veteran should lose 
their benefits simply because they were injured while serving this 
Nation.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\11\
---------------------------------------------------------------------------
    \11\ Ibid.
---------------------------------------------------------------------------

The American Legion supports S. 844.

                    s. 882: purple heart gi bill act
A bill to amend title 38, United States Code, to provide for the 
        entitlement to educational assistance under the Post-9/11 
        Educational Assistance Program of the Department of Veterans 
        Affairs for members of the Armed Forces awarded the Purple 
        Heart, and for other purposes.
    S. 882 would grant full Post-9/11 GI Bill eligibility to all Purple 
Heart veterans who qualify for a portion of the benefit. Currently, 
only veterans who either serve at least 36 months on active-duty or are 
medically retired receive Post-9/11 GI Bill benefits at the 100 percent 
rate. Unfortunately, this leaves out many Purple Heart recipients, 
particularly from the Reserve Components, who fought our country's 
battles, but were activated for less than three years in total. These 
servicemembers should not be penalized for being wounded before they 
could reach the full term of their contract to receive GI Bill 
eligibility.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\12\
---------------------------------------------------------------------------
    \12\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports S. 882.

                s. 1192: veterans test accessibility act
A bill to amend title 38, United States Code, to provide for prorated 
        charges to entitlement to educational assistance under 
        Department of Veterans Affairs Post-
        9/11 Educational Assistance Program for certain licensure and 
        certification tests and national tests, and for other purposes.
    After completing their military service, veterans are eligible for 
a limited number of months of GI Bill benefits, which reimburses them 
for educational expenses incurred. Current law requires veterans to use 
a full month of their GI Bill eligibility to be reimbursed for 
licensing, certification, and national tests. Such tests open new doors 
to employment and allow veterans to advance and enhance their education 
and career. Given the relatively low cost of many tests, it often 
simply is not worth losing reimbursement for an entire month of 
touition paymenst for other less exspensive educational expenses.
    S. 1192 allows veterans to be reimbursed for approved licensing, 
certification, and national tests, while still allowing the veteran to 
use their remaining GI Bill benefits for additional educational 
expenses in the same month.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\13\
---------------------------------------------------------------------------
    \13\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports S. 1192.

    s. 1209: a bill to increase special pension for medal of honor 
                               recipients
To amend title 38, United States Code, to increase the amount of 
        special pension for Medal of Honor recipients, and for other 
        purposes.
    The American Legion enthusiastically supports an increase in the 
special pension assigned to Medal of Honor recipients. For the 72 
living recipients of this Nation's highest military honor, an increase 
in the monthly pension based upon heroic acts in the face of nearly 
insurmountable challenges is a small token of appreciation and 
gratitude for their sacrifices.\14\ \15\
---------------------------------------------------------------------------
    \14\ http://www.cmohs.org/medal-statistics.php
    \15\ http://www.cmohs.org/living-recipients.php?p=3..
---------------------------------------------------------------------------
    The last stipend increase to affect Medal of Honor recipients was 
in the Veterans Benefits Act of 2002, which increased the stipend from 
$600 monthly to $1000 monthly. The current rate is $1,303.51 a month.
    As the Nation's largest wartime veterans service organization, The 
American Legion fully appreciates the service of those awarded the 
Congressional Medal of Honor and supports increasing their monthly 
pension to $3,000. Recognizing the need to improve the pension for 
those Americans that received the highest award for valor in action 
against an enemy force, The American Legion passed Resolution No. 366, 
Honoring those who have earned the Medal of Honor, during our 98th 
National Convention in August 2016, thus we support this 
legislation.\16\
---------------------------------------------------------------------------
    \16\ The American Legion Resolution No. 366 (2016): Honoring Those 
Who Have Earned the Medal of Honor
---------------------------------------------------------------------------

The American Legion supports S. 1209.

    s. 1218: empowering federal employment for disabled veterans act
To promote Federal employment for veterans, and for other purposes.
    S. 1218 would require Federal agencies to have full-time advocates 
for veterans' employment, and would promote career development for 
veterans within agencies. While many Federal agencies have made 
significant strides to improve veteran employment, disparities in 
veteran hiring by agency suggests there is room for improvement. 
Although veterans made up 31 percent of the Federal workforce in 2015, 
only 12 percent of workers at the Department of Agriculture and 7 
percent of workers at the Department of Health and Human Services were 
veterans, according to the Office of Personnel Management.
    S. 1218 addresses these challenges with three unique solutions: the 
codification of veterans employment programs in 24 Federal agencies; 
the establishment of an interagency council on veterans employment; and 
the expansion of the SkillBridge Initiative, one of the Department of 
Defense's most innovative approaches to transition assistance, to 
include participation by Federal agencies. If enacted, The American 
Legion firmly believes this would benefit veterans by establishing a 
point of contact within these agency, support for development, and 
opportunities for mobility if awarded employment. These resources would 
provide a tremendous step forward for the Federal agency and veteran.
    The American Legion reiterates its position that protection of 
veterans' employment rights should be proactive and continuous 
oversight must be emplace to protect them from unfair hiring practices. 
The Federal Government has scores of employment opportunities that 
educated, well-trained, and motivated veterans can fill given a fair 
and equitable chance to compete. Working together, all Federal agencies 
should identify those vocational fields, especially those with high 
turnover rates, for transitioning veterans who are trying to continue 
their service within the Federal Government.\17\
---------------------------------------------------------------------------
    \17\ The American Legion Resolution No. 317: Enforcing Veterans' 
Preference Hiring Practices in Federal Civil Service
---------------------------------------------------------------------------

The American Legion Supports S. 1218.

  s. 1277: veteran employment through technology education courses act
To direct the Secretary of Veterans Affairs to carry out a high 
        technology education pilot program under which the Secretary 
        shall provide eligible veterans with the opportunity to enroll 
        in high technology programs of education.
    S. 1277 would direct the Secretary of Veterans Affairs to carry out 
a pilot program allowing student veterans to attend approved non-
traditional educational programs with a focus on obtaining technology 
micro-degrees. While the VA has the authority to cover costs of non-
traditional educational programs, we have seen in the past that this 
approval process has been burdensome. It is important for the VA to 
address new forms of non-traditional learning as the realm of higher 
education evolves.
    Technological micro-degrees are non-traditional degree programs 
that focus on specialized technology disciplines and typically 
comprises an accelerated education model. Veterans are prime candidates 
for the technological degree programs and can see their entire 
education covered using their earned GI Bill benefits. Currently, there 
are only a handful of non-traditional organizations offering classes 
through the current VA GI Bill process; even fewer offer non-
traditional technology programs forcing veterans to cover these costs 
on their own.
    The American Legion supports efforts in expanding educational 
assistance to non-traditional students attempting to find employment by 
earning a micro-degree in a specific field of study and applauds the 
Committee on its efforts to expand education to non-traditional student 
veterans. Although The American Legion supports the intent of this 
bill, we have concerns with S. 1277.
    Oversight is needed before the VA can approve a non-traditional 
program and the State Approving Agencies (SAAs) are best equipped to 
certify these educational courses. Additionally, the provisions of this 
bill fall outside the scope of established resolutions of The American 
Legion. As a large, grassroots organization, The American Legion takes 
positions on legislation based on resolutions passed by the membership. 
With no resolutions addressing the provisions of the legislation, The 
American Legion is researching the material and working with our 
membership to determine the course of action which best serves 
veterans.

The American Legion has no current position S. 1277.

                 discussion draft on changes to gi bill
To amend title 38, United States Code, to improve Post-9/11 Educational 
        Assistance, and for other purposes.

SEC. 2. CONSOLIDATION OF CERTAIN ELIGIBILITY TIERS UNDER POST-9/11 
                    EDUCATIONAL ASSISTANCE PROGRAM OF THE DEPARTMENT OF 
                    VETERANS AFFAIRS

    Too often, we see that Reservists and National Guard troops incur 
large sums of educational debt due to partial eligibility of GI Bill 
benefits. The American Legion feels that any effort to expand benefits 
to National Guard and Reservists for educational advancement will lead 
to more productive, work ready, and educated veterans. In 2009, the 
U.S. Bureau of Labor Statistics showed that there was a direct 
correlation between education and unemployment. 9% of Americans with 
only a high school diploma were unemployed, whereas only 4.3% of 
Americans with a Bachelor's degree or higher were unemployed.\18\
---------------------------------------------------------------------------
    \18\ U.S. Bureau of Labor Statistics: https://www.bls.gov/
spotlight/2010/college/
---------------------------------------------------------------------------
    When applied to veterans, we can see an economic argument for 
increasing veteran educational benefits. Additionally, many veterans 
are non-traditional students with families. 52% of student veterans are 
married, and 23% are single parents.\19\ Given these added 
responsibilities, incurring educational debt can be burdensome for a 
family. This draft bill aims at alleviating some of the education 
liability of attending college by adjusting the eligibility tiers under 
the Post-9/11 Educational Assistance program for Reserves and National 
Guard.
---------------------------------------------------------------------------
    \19\ https://studentveterans.org/images/SVASpotlightBrief-1.pdf
---------------------------------------------------------------------------
    From 1995 to 2015, the average cost of tuition and fees at a 
private national university increased 179%. The average in-state cost 
for tuition and fees at a public university grew by 296%.\20\ The 
American Legion feels that it is time to adjust the percentage of 
maximum benefit payable to individuals serving our Nation to better 
cover the costs associated with attending higher education. We support 
the following pay structure alignment:
---------------------------------------------------------------------------
    \20\ U.S. News & World Report: https://www.usnews.com/education/
best-colleges/paying-for-college/articles/2015/07/29/chart-see-20-
years-of-tuition-growth-at-national-universities


 Old Tier Structure:
  New Tier Structure:

 
----------------------------------------------------------------------------------------------------------------
                                        Percentage of                                              Percentage of
                                           Maximum                                                    Maximum
            Member Serves                  Benefit                      Member Serves                 Benefit
                                           Payable                                                    Payable
----------------------------------------------------------------------------------------------------------------
At least 36 months                              100%        At least 36 months                             100%
------------------------------------------------------     -----------------------------------------------------
At least 30 continuous days on active                       At least 30 continuous days on
 duty and must be discharged due to                          active duty and must be discharged
 service-connected disability                   100%         due to service-connected disability           100%
------------------------------------------------------     -----------------------------------------------------
At least 30 months, but less than 36                        At least 30 months, but less than 36
 months                                          90%         months                                         90%
------------------------------------------------------     -----------------------------------------------------
At least 24 months, but less than 30                        At least 24 months, but less than 30
 months                                          80%         months                                         80%
------------------------------------------------------     -----------------------------------------------------
At least 18 months, but less than 24                        At least 18 months, but less than 24
 months                                          70%         months                                         70%
------------------------------------------------------     -----------------------------------------------------
At least 12 months, but less than 18                        At least 06 months, but less than 18
 months                                          60%         months                                         60%
------------------------------------------------------     -----------------------------------------------------
At least 06 months, but less than 12                        At least 90 days, but less than 06
 months                                          50%         months                                         50%
------------------------------------------------------     -----------------------------------------------------
At least 90 days, but less than 06
 months                                          40%
----------------------------------------------------------------------------------------------------------------

    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\21\
---------------------------------------------------------------------------
    \21\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 2.

SEC. 3. ADDITIONAL POST-9/11 EDUCATIONAL ASSISTANCE FOR CERTAIN 
                    INDIVIDUALS PURSUING PROGRAMS OF EDUCATION IN 
                    SCIENCE, TECHNOLOGY, ENGINEERING, MATH, OR HEALTH 
                    CARE

    The American Legion wants all veterans to succeed and would like to 
see more veterans enter Science, Technology, Engineering and Math 
(STEM) fields. This draft bill would incentivize veterans to enter 
fields where there are critical shortages and high yearly job growth. 
The American Legion supports this section of the draft bill that would 
allow extension of Title 38 education benefits up to nine months.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\22\
---------------------------------------------------------------------------
    \22\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 3.

SEC. 4. INCREASE IN AMOUNTS OF EDUCATIONAL ASSISTANCE PAYABLE UNDER 
                    SURVIVORS' AND DEPENDENTS' EDUCATIONAL ASSISTANCE 
                    PROGRAM OF DEPARTMENT OF VETERANS AFFAIRS

    Section 4 of this draft bill would increase education benefits for 
survivors and dependents (Chapter 35), which currently provides the 
least payable educational assistance of any VA program. Currently, 
Chapter 35 recipients are paid at the monthly rate of $788 for full-
time, $592 for three-quarter-time, or $394 for half-time pursuit of 
education. This is in stark contrast to Montgomery GI Bill payments, 
which receive $1,857 for full-time, $1,392.75 for three-quarter time, 
and $928.50 for half-time enrollment. While survivors and dependents of 
servicemembers who died in the line of duty are eligible for the Post-
9/11 GI Bill through the Gunnery Sergeant John Fry Scholarship, 
survivors and family members of veterans who are permanently and 
totally disabled due to a service-related condition or of veterans who 
died outside the line of duty have a right to demand more equitable 
benefits.
    However, the provision in this section of the draft bill falls 
outside the scope of established resolutions of The American Legion. As 
a large, grassroots organization, The American Legion takes positions 
on legislation based on resolutions passed by our membership. With no 
resolutions addressing the provisions of the legislation, The American 
Legion is researching the material and working with our membership to 
determine the course of action that best serves veterans.

The American Legion has no current position on Section 4.

SEC. 5. AUTHORIZATION FOR USE OF POST-9/11 EDUCATIONAL ASSISTANCE TO 
                    PURSUE INDEPENDENT STUDY PROGRAMS AT CERTAIN 
                    EDUCATIONAL INSTITUTIONS THAT ARE NOT INSTITUTIONS 
                    OF HIGHER LEARNING

    Section 5 authorizes veterans to use their GI Bill education 
benefits to continue their education for independent study programs at 
career technical education (CTE) centers.\23\ In Oklahoma alone, 
veterans have lost access to over 200 accredited educational programs, 
simply because there is a distance learning or online component. This 
section would allow veterans to take independent study programs at CTE 
centers, while using their GI Bill benefits.
---------------------------------------------------------------------------
    \23\ CongressmanMullinPressRelease:http://mullin.house.gov/news/
documentsingle.aspx? DocumentID=447
---------------------------------------------------------------------------
    This draft bill would provide student veterans with an expanded 
scope and usage of the Post-9/11 GI Bill education benefits to other 
forms of postsecondary institutions. This potential legislation adds 
needed options to student-veterans in the pursuit of their educational 
goals.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\24\
---------------------------------------------------------------------------
    \24\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 5.

SEC. 6. CALCULATION OF MONTHLY HOUSING STIPEND UNDER POST-9/11 
                    EDUCATIONAL ASSISTANCE PROGRAM BASED ON LOCATION OF 
                    CAMPUS WHERE CLASSES ARE ATTENDED

    This provision of the draft bill corrects a discrepancy in the 
determination of Post-9/11 GI Bill housing payments by calculating the 
payment based on where students attend their classes, rather than where 
the institution of higher learning is certified.
    Currently, the VA determines the Basic Allowance for Housing (BAH) 
amount based on the zip code where the school is certified, not 
necessarily the location of the school. This policy can result in 
monthly BAH payments that fall below or far exceed the cost of living 
in certain zip codes. As a consequence, some schools receive an unfair 
recruiting advantage by paying student veterans more than what was 
intended for BAH in that area.
    The American Legion believes that veterans should not make their 
educational choices based on housing benefit inconsistencies. Section 6 
ensures veterans receive an adequate and fair housing allowance while 
eliminating fraud and abuse of the program.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\25\
---------------------------------------------------------------------------
    \25\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 6.

SEC. 7. REPEAL OF SUNSET ON WORK-STUDY ALLOWANCE FROM DEPARTMENT OF 
                    VETERANS AFFAIRS FOR CERTAIN QUALIFYING WORK-STUDY 
                    ACTIVITIES

    This section would extend the authority to provide work-study 
allowance for certain activities by individuals receiving educational 
assistance by the Secretary of Veterans Affairs.
    The VA Work-Study program provides part-time employment to students 
receiving VA education benefits who attend school three-quarter time or 
more. The student may work at the school veterans' office, the VA 
Regional Office, or at approved State employment offices. Work-study 
students are paid either the State or Federal minimum wage, whichever 
is greater. Many student veterans use the work-study program as a 
supplement to pay their bills and other costs not covered by VA 
educational programs. In addition to supporting veterans education 
benefits processing, these student veterans are also establishing 
connections with their peers on campus, thereby fostering greater 
awareness of other veterans.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\26\
---------------------------------------------------------------------------
    \26\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 7.

SEC. 8. AUTHORIZATION OF TRANSFER OF ENTITLEMENT TO POST-9/11 
                    EDUCATIONAL ASSISTANCE BY DEPENDENTS WHO RECEIVE 
                    TRANSFERS FROM INDIVIDUALS WHO SUBSEQUENTLY DIE

    Section 8 would permit reassignment of veterans' education benefits 
in cases where the designated beneficiary passes away. This section 
closely mirrors S. 410, Shawna Hill Post-9/11 Education Benefits 
Transferability Act. We support that piece of legislation and support 
this section as well.
    Resolution No. 308: Amending the Eligibility for the Transfer for 
the Post-9/11 GI Bill supports legislation that would authorize all 
servicemembers with ten years or more of active-duty service, who are 
eligible for the Post-9/11 GI Bill educational benefits, be able to use 
the transferability entitlement to give to their immediate family 
members.\27\
---------------------------------------------------------------------------
    \27\ The American Legion Resolution No. 308 (2016): Amending the 
Eligibility for the Transfer for the Post-9/11 GI Bill Educational 
Benefits
---------------------------------------------------------------------------

The American Legion supports Section 8.

SEC. 9. DEPARTMENT OF VETERANS AFFAIRS PROVISION OF ON-CAMPUS 
                    EDUCATIONAL AND VOCATIONAL COUNSELING FOR VETERANS

    VA created the Veterans Success on Campus (VSOC) program as a pilot 
in 2009 to bring Vocational Rehabilitation Counselors and VA Vet Center 
Outreach Coordinators to college campuses with large veteran 
populations. The program began as a pilot on the University of South 
Florida campus and has since expanded to over 94 schools across the 
country.\28\
---------------------------------------------------------------------------
    \28\ U.S. Department of Veterans Affairs: http://
www.benefits.va.gov/vocrehab/vsoc.asp
---------------------------------------------------------------------------
    The VSOC program is a positive resource for student veterans and 
their dependents as they attend school through either the GI Bill or 
VA's Vocational Rehabilitation and Employment (VR&E) program, and gives 
individuals on-campus access to all-encompassing counseling programs.
    Authorizing on-campus educational and vocational counseling is a 
tried and true method of increasing veterans' educational success. 
However, The American Legion has concerns about its sustainability. 
Since VSOC is currently implemented by VA policy and not a statutorily 
required program, it's future is dependent on VA funding. This section 
would require the Secretary to provide these services at institutions 
of higher learning selected by the Secretary and would codify the VSOC 
program.
    The American Legion would also like to see the same education and 
vocational counseling before a veteran enters into the education realm. 
The best time to instruct a transitioning servicemember about their 
future in education and the workforce is before they transition out of 
the military. We strongly recommend applying this same language to the 
Transition Assistance Program.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\29\
---------------------------------------------------------------------------
    \29\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 9.

SEC. 10. RESTORATION OF ENTITLEMENT TO POST-9/11 EDUCATIONAL ASSISTANCE 
                    AND OTHER RELIEF FOR VETERANS AFFECTED BY SCHOOL 
                    CLOSURE

    When a school closes, non-veteran students have Federal protections 
to support them. Affected students with Federal student loans have the 
ability to discharge their student loans. Students who received Pell 
Grants can have their eligibility periods reset for the time spent at a 
closed institution. The American Legion believes strongly that veterans 
are entitled to the same protection as their civilian counterparts. 
Over 6,000 student veterans were attending ITT Tech when they abruptly 
shut down their campuses,\30\ and more school closures will inevitably 
occur.
---------------------------------------------------------------------------
    \30\ http://www.indystar.com/story/money/2016/09/06/why-veterans-
have-most-lose-if-itt-tech-closes/89710280/ ``Why ITT closing hits 
veterans hardest''
---------------------------------------------------------------------------
    The American Legion applauds the Committee's effort in addressing 
this issue, but Congress must not forget about the student veterans 
affected by the Corinthian College closures of 2015. Our best estimate 
is that roughly 400 student veterans were affected by the Corinthian 
College closure. In present form, this bill only applies to courses and 
programs of education discontinued after August 1, 2016. The American 
Legion believes in equal protection for veterans and calls for the 
eligibility date be amended to the fiscal year of 2015.
    Resolution No. 21: Education Benefit Forgiveness and Relief for 
Displaced Student-Veterans supports legislation that restores lost 
benefits to student-veterans attending schools that abruptly shut 
down.\31\
---------------------------------------------------------------------------
    \31\ The American Legion Resolution No 21: Education Benefit 
Forgiveness and Relief for Displaced Student-Veterans
---------------------------------------------------------------------------

The American Legion supports Section 10.

SEC. 11. TREATMENT, FOR PURPOSES OF EDUCATIONAL ASSISTANCE ADMINISTERED 
                    BY THE SECRETARY OF VETERANS AFFAIRS, OF 
                    EDUCATIONAL COURSES THAT BEGIN SEVEN OR FEWER DAYS 
                    BEFORE OR AFTER THE FIRST DAY OF AN ACADEMIC TERM

    The VA defines a calendar week as Sunday to Saturday. According to 
the School Certifying Official Handbook, classes that begin ``after the 
first calendar week'' should be reported separately using the actual 
date each class starts. As an example: if a term starts on a Thursday, 
any course that meets for the first time on Thursday or Friday can be 
reported together, but if a course meets for the first time the 
following Monday, Tuesday or Wednesday it must be reported as a 
separate and unique term.
    This creates excess work for educational institutions and regional 
processing officers (RPOs). Separate book and tuition fee payments must 
be issued, which may lead to improper payments. Defining ``Calendar 
Week'' for education benefits as ``the seven-day period beginning on 
the first day of the institution's published academic calendar'' will 
reduce excess work and eliminate opportunities for errors in tuition 
and fee calculations.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill.

The American Legion supports Section 11.

SEC. 12. IMPROVEMENT OF INFORMATION TECHNOLOGY OF THE VETERANS BENEFITS 
                    ADMINISTRATION

    This section would compel the Secretary of Veterans Affairs to make 
changes and improvements to the information technology system of the 
Veterans Benefits Administration to ensure that all original and 
supplemental claims for education assistance are handled 
electronically. This draft bill authorizes $30 million to the Secretary 
of Veterans Affairs to carry this out during fiscal years 2017 and 
2018.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI 
Bill.\32\
---------------------------------------------------------------------------
    \32\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 12.

SEC. 13. PROVISION OF INFORMATION REGARDING ENTITLEMENT OF VETERANS TO 
                    EDUCATIONAL ASSISTANCE

    The provisions in this section of the draft bill fall outside the 
scope of established resolutions of The American Legion. As a large, 
grassroots organization, The American Legion takes positions on 
legislation based on resolutions passed by our membership. With no 
resolutions addressing the provisions of the legislation, The American 
Legion is researching the material and working with our membership to 
determine the course of action that best serves veterans.

The American Legion has no current position on Section 13.

SEC. 14. EXTENSION OF AUTHORITY FOR ADVISORY COMMITTEE ON EDUCATION

    The provisions in this section of the draft bill extends the 
authority for the VA Advisory Committee on Education from December 31, 
2017 to December 31, 2022. This Committee provides the VA independent 
analysis and advice on VA programs, and has proven to be an important 
part of streamlining the implementation of changes to the GI Bill by 
taking into account effects on the ground.\33\
---------------------------------------------------------------------------
    \33\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the Post-9/11 GI Bill.

The American Legion supports Section 14.

SEC. 15. LIMITATION ON USE OF REPORTING FEES PAYABLE TO EDUCATIONAL 
                    INSTITUTIONS AND JOINT APPRENTICESHIP TRAINING 
                    COMMITTEES

    This section increases the school reporting fee to $16 for each 
veteran, or dependent enrolled under Chapter 31, 33, 34, or 35. The 
importance of this in a historical context is important to remember. 
Reporting fees were designed to streamline efficiency, with the VA 
paying schools to certify benefits themselves instead of hiring 
additional employees to process the benefits. Since 2012, this fee has 
fluctuated between $10 and $16. Without speculating on the reasons for 
these changes, it is fair to say that they are not commensurate with 
the actual labor of schools administering these programs.
    While the reporting, reconciliation and overall cost of 
administering all programs has increased, and the burden on the 
educational institution is not business as usual, the added work effort 
has not been calculated. Also, the use of these fees should be 
designated to support the Office of Veterans' Affairs/Services and for 
professional development of the school VA Certification Officials and 
other Veterans' Program Administrators. The American Legion further 
propose that recipients of this reporting fee must match these funds to 
support veterans' services.
    However, it has been difficult to track how schools are using these 
funds. This section addresses this by mandating what shall be utilized 
solely for the making of certifications required under title 38. It 
also mandates that institutions certifying over 75 enrollees may not 
use school reporting fees for general operating funds.
    Resolution No. 333: Support Increase in Reporting Fees for 
Educational Institutions supports any legislation that increases the 
amount of the reporting fees payable to educational institutions for 
certifying officials who assist/enroll veterans receiving educational 
benefits from the Department of Veterans Affairs.\34\
---------------------------------------------------------------------------
    \34\ The American Legion Resolution No. 333: Support Increase in 
Reporting Fees for Educational Institutions
---------------------------------------------------------------------------

The American Legion supports Section 15.

SEC. 16. TRAINING FOR SCHOOL CERTIFYING OFFICIALS AS CONDITION OF 
                    APPROVAL OF COURSES FOR VETERANS EDUCATIONAL 
                    ASSISTANCE

    The Department of Veterans Affairs identified $416 million in Post-
9/11 GI Bill overpayments in fiscal year 2014, affecting approximately 
one in four veteran beneficiaries and about 6,000 schools. To identify 
the reasons behind this, the Government Accountability Office (GAO) was 
asked to review these overpayments and published an extensive report 
released in October 2015. Chief among GAO's recommendations was 
granting VA explicit authority to require training for school 
officials.
    Schools cause overpayments when they make processing errors, such 
as reporting the wrong enrollment dates or billing VA for non-allowable 
fees. VA estimated that these errors account for 8% of high-dollar 
overpayment cases in fiscal years 2013 and 2014, while GAO estimated 
that they account for around $28 million of the $280 million in high-
dollar overpayments VA made in fiscal year 2014. According to 
interviews with staff from VA's Regional Processing Office and Debt 
Management Center, school officials without adequate training were 
cited as the primary source of the errors.
    This section will require the Secretary of Veterans Affairs, in 
consultation with the State Approving Agencies, to set forth 
requirements to train school certifying officials on proper standards 
for certifying veterans benefits.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its 
usage.\35\
---------------------------------------------------------------------------
    \35\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion supports Section 16.

SEC. 17. MODIFICATIONS RELATING TO REIMBURSEMENT OF EXPENSES OF STATE 
                    APPROVING AGENCIES FOR MATTERS RELATING TO 
                    ADMINISTRATION OF VETERANS EDUCATIONAL ASSISTANCE

    State Approving Agencies are responsible for approving and 
supervising programs of education for the training of veterans, 
eligible dependents, and eligible members of the National Guard and 
Reserves. SAAs grew out of the original GI Bill of Rights from 1944. 
Though SAAs have their foundation in Federal law, SAAs operate as part 
of state governments. SAAs approve programs leading to vocational, 
educational or professional objectives. These include vocational 
certificates, high school diplomas, GEDs, degrees, apprenticeships, on-
the-job training, flight training, correspondence training and programs 
leading to required certification to practice in a profession.
    In accordance with the Jeff Miller and Richard Blumenthal Veterans 
Health Care and Benefits Improvement Act of 2016, SAAs are now 
recognized as a valuable addition to the approval process of GI Bill 
schools. The SAAs ensure that programs meet certain eligibility 
criteria, in order to see that GI Bill funds are not wasted. Their 
unique focus on how GI Bill funds are spent makes their mission 
distinct from all other oversight and approving bodies.
    In order to fulfill their additional requirements for compliance 
reviews, additional funding is required. The SAAs have far more complex 
responsibilities than the across the board certifications that existed 
pre Post-9/11 GI Bill, yet the SAAs funding has not increased since 
2005. In order to rectify this with their greater responsibilities, 
this draft bill authorizes $3 million to be appropriated for each 
fiscal year.
    The American Legion believes the $3 million increase is not 
adequate to cover the SAAs overall scope and encourages Congress to 
allocate $5 million annually for the SAAs.
    Resolution No. 304: Support Accountability for Institutions of 
Higher Education supports any legislative proposal that provides 
additional resources and increased funding for state approving 
agencies.\36\
---------------------------------------------------------------------------
    \36\ The American Legion Resolution No. 304 (2016): Support 
Accountability for Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion requests that this section be amended to authorize 
$5 million to be appropriated for each fiscal year.

SEC. 18. MODIFICATION OF CALCULATION OF AMOUNT OF EDUCATIONAL 
                    ASSISTANCE FOR INDIVIDUALS PARTIALLY ELIGIBLE FOR 
                    POST-9/11 EDUCATIONAL ASSISTANCE

    For Post-9/11 GI Bill recipients at an eligibility of less than 
100%, tuition and fees are recalculated based on other forms of 
restricted aid, ensuring that the veteran will not be able to fully 
cover their tuition and fee charges. This is because the VA is not the 
first payer.
    As an illustration: suppose a veteran at the 50% tier attends a 
school charging $2,000 for tuition. The veteran is awarded $1,000 in 
scholarships, leaving $1,000 remaining to be paid. Since the VA is not 
the first payer, they receive $1,000 as the reportable charge, and pay 
the school $500, 50% of the charges. If the VA was the first payer, 
however, VA would pay the school $1,000, and the veterans scholarship 
would cover the rest of the charges. This would be clearly advantageous 
to the veteran and would allow the GI Bill benefit to cover more of the 
cost of an education.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves the GI Bill, Department 
of Defense Tuition Assistance (TA), Higher Education Title IV funding 
(i.e., Pell Grants, student loans, etc.) and education benefits so 
servicemembers, veterans, and their families can maximize its 
usage.\37\
---------------------------------------------------------------------------
    \37\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------

The American Legion Supports Section 18.

                               conclusion
    The American Legion thanks this Committee for the opportunity to 
elucidate the position of the over 2.2 million veteran members of this 
organization. For additional information regarding this testimony, 
please contact Mr. Derek Fronabarger, Deputy Director of the 
Legislative Division at The American Legion, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f2b293d20212e2d2e3d282a3d0f232a2826202161203d2861">[email&#160;protected]</a>

    Senator Rounds. Thank you, sir, for your testimony.
    We will now hear from Mr. Patrick Murray, Associate 
Director, National Legislative Service, Veterans of Foreign 
Wars. Welcome, sir.

   STATEMENT OF PATRICK MURRAY, ASSOCIATE DIRECTOR, NATIONAL 
  LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
                             STATES

    Mr. Murray. Thank you.
    Mr. Chairman, on behalf of the men and women of the 
Veterans of Foreign Wars of the United States and its 
Auxiliary, we thank you for the opportunity to provide our 
remarks on today's pending legislation.
    The VFW strongly supports the Educational Development for 
Troops and Veterans Act that would correct the mistake of the 
Department of Defense by trying to save money by cutting 
servicemember benefits while on orders. National Guardsmen and 
Reservists were placed on involuntary activation orders that 
did not allow them to accrue benefits through time in service 
like their active duty counterparts. While stationed abroad and 
away from their homes and families, these troops were denied 
the ability to gain educational credit for use after 
demobilization.
    12304(b) and additionally the 12301(h) orders need to be 
amended to keep the activation authority but reinstitute the 
benefits that were removed. Thousands of National Guardsmen and 
reservists have been involuntarily activated under these orders 
and have not received equal benefits as their active duty 
counterparts. More and more, DOD is using our Nation's Reserve 
component to fight our decade-and-a-half war on terror, and 
these men and women to come home without equal benefits is 
something that needs to be changed.
    The VFW supports the Yellow Ribbon Improvement Act that 
would provide additional financial assistance for the children 
of our fallen heroes. The Fry Scholarship gives 100 percent GI 
Bill benefits to the children and spouses of fallen 
servicemembers who gave their lives for our country. While this 
is a great benefit for the families of the fallen, there are 
some cases where it is financially not enough.
    This legislation would bridge the gap so the children or 
spouses who are eligible for the Fry Scholarship would not have 
to pay any out-of-pocket cost to achieve their educational 
goals. Allowing recipients of the Fry Scholarship eligibility 
to the Yellow Ribbon Program is just a very small measure that 
does not even begin to replay the sacrifice their 
servicemembers made for this country.
    The VFW supports the Purple Heart GI Bill Act, which would 
increase the rate of educational benefits for recipients of the 
Purple Heart. For the past decade and a half, our country has 
been sending National Guardsmen and Reservists into harm's way 
at an unprecedented level, and some of them have been wounded 
in line of duty. These citizen soldiers have bled for our 
country but have not accrued enough active duty time to attain 
full GI Bill benefits.
    The VFW thinks servicemen and -women who have bled for this 
country should be compensated for their injuries by granting 
them full education benefits. This is the least as a country we 
can do for those who put their bodies on the line for our 
freedom.
    Finally, I would like to discuss a specific section of the 
draft bill: the restoration of entitlement after school 
closing. The VFW strongly supports this legislation to protect 
student veterans who were negatively affected by school 
closures.
    Recently, ITT Tech and Westech College suddenly shuttered 
their doors after losing accreditation. This left thousands of 
student veterans out of school mid-semester, with no plan for 
what to do for the rest of the term. They had lost weeks or 
months of GI Bill benefits that were wasted at failed 
institutions. Even worse, they lost the monthly housing stipend 
that many relied upon for their living situation.
    After the failure of ITT Tech, the VFW reached out to those 
student veterans affected by the closure and offered them 
assistance through our Unmet Needs Program. The VFW provided 
students with emergency grants in order to keep them afloat for 
a month or so. The impact the school closing had on these 
students was devastating. We received multiple responses to the 
students we reached out to, and the reports of their situations 
was disheartening, to say the least. We have reports of 
veterans being a mere weeks away from living in their cars. 
Some of them had to choose which meals to eat that day, which 
meals to skip, and there was no help from the VA or their 
schools to rectify the situation.
    Thankfully, we were able to reach out and help some of 
these students during their struggle, but the VFW and 
organizations like ours cannot be the only entity stepping up 
to remedy the situation. We provided the student veterans with 
some financial stability to make it through the next month or 
so while they got settled after this major life upheaval. This 
is, however, only a Band-Aid for the real problem. These 
student veterans need protection for the future so issues like 
this do not affect them as badly as it has in these recent 
months.
    This legislation allows our affected student veterans to 
recoup their lost months of GI Bill eligibility. While we 
support this initiative, we do not feel it goes far enough. We 
think student veterans should be able to recoup the months of 
eligibility wasted at the closed institutions just like 
traditional students can with Pell Grants.
    Student veterans who attended schools like ITT now have 
lost those months of eligibility, and they have no credits to 
show for it. The VFW has heard from student veterans at the 
closed schools, and they are now struggling to complete their 
degrees without their previous credits.
    GI Bill eligibility should be allowed to be recouped like 
Chapter 4 Pell Grants can be by traditional students. Student 
veterans deserve the same equity as every other student 
affected by school closures.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions you or any other members might have.
    [The prepared statement of Mr. Murray follows:]
  Prepared Statement of Patrick Murray, Associate Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Chairman Isakson, Ranking Member Tester and Members of the 
Committee, On behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to provide our remarks on today's pending legislation.
                        s. 75, arla harrell act
    During WWII, 60,000 servicemembers were human subjects of the 
military's chemical defense research program and some 4,000 of those 
servicemembers were exposed to high levels of mustard agents. Until the 
early 1990s, these veterans were forbidden to speak of the experiments, 
even though the program was declassified in 1975.
    Because of the classified nature of these exposures and the 
reliance on incomplete and conflicting data, the ability to accurately 
determine the level of exposure to mustard gas and Lewisite each 
veteran endured is difficult at best. Because of these facts, the VFW 
believes those veterans who have previously applied for benefits 
related to exposure to mustard gas and Lewisite and were denied because 
the evidence of ``full body'' exposure could not be proven, should be 
given the benefit of the doubt and have their claims adjudicated with 
the presumption of full body exposure.
    The VFW supports requiring the Department of Veterans Affairs (VA) 
to reconsider previously denied claims for mustard gas and Lewisite 
exposure with the presumption that the exposure was full body, unless 
available evidence proves otherwise.
                 s. 111, filipino veterans promise act
    The VFW has no official position on this legislation.
  s. 410, shauna hill post-9/11 education benefits transferability act
    The VFW agrees with the intent of this bill which would allow for 
the transfer of benefits to a surviving child after the loss of another 
child. The loss of a child is such an unimaginable tragedy that 
allowing the transference of benefits to a surviving child is only a 
small measure of relief that we feel is completely reasonable. If a 
veteran has already transferred their benefits to one child, it should 
be in their right to move the benefit to another child in cases of 
death.
  s. 473, educational development for troops and veterans act of 2017
    The VFW strongly supports this legislation that would correct the 
mistake of the Department of Defense (DOD) trying to save money by 
cutting servicemembers' benefits while on orders. National Guardsmen 
and Reservists were placed on involuntary activation orders that did 
not allow them to accrue benefits through time and service like their 
active duty counterparts. While stationed abroad and away from their 
homes and families, these troops were denied the ability to gain 
educational credit for use after demobilization.
    12304(a) and (b) orders need to be amended to keep the activation 
authority, but reinstitute the benefits that were removed. Thousands of 
National Guardsmen and Reservists have been involuntarily activated 
under these orders and have not received equal benefits as their active 
duty counterparts. More and more, DOD is using our Nation's reserve 
component to fight our decade and a half war against terror, and for 
these men and women to come home without equal benefits is something 
that must change.
Section 5
    The VFW agrees with the efforts to take care of servicemembers' 
student loans in exchange for time in service. Debt in this country is 
an incredible burden on individual Americans. Making sure that 
servicemembers are financially sound is an important part of force 
readiness, and to not have crippling loans hanging over their heads is 
an important step in that direction.
Section 6
    The VFW supports adding this grant to further grow the presence of 
student veterans on campuses around the country. Establishing a program 
that would grant funding to individual veteran centers for students is 
a great idea that would continue to promote studious camaraderie among 
our veterans as they lean forward in accomplishing their educational 
goals.
Section 7
    The VFW supports increasing the amount of money allocated for 
educational assistance for members of the Selected Reserve. The rising 
costs of education need to be adjusted to keep pace with the rest of 
our country.
Section 8
    The VFW supports prorating the monthly eligibility for those 
servicemembers called up on involuntary orders. National Guardsmen and 
Reservists should not lose an entire month of eligibility if they are 
not using the entire month due to activation orders. These 
servicemembers should have that month prorated so they can still retain 
some of the eligibility.
                  s. 758, janey ensminger act of 2017
    This legislation would require the Agency for Toxic Substances and 
Disease Registry (ATSDR) to conduct periodic literature reviews of the 
existing research regarding the relationship between exposure to toxic 
water at Camp Lejeune and adverse health conditions. The VFW supports 
the intent of this legislation, but has a serious concern with the 
threshold it sets for medical research, which we hope the Committee 
will address before advancing this legislation.
    The approximately 650,000 veterans and family members who served on 
Camp Lejeune between 1953 and 1987 deserve to know if their health care 
conditions are related to water they drank that was contaminated with 
trichloroethylene, tetrachloroethylene, vinyl chloride, and other 
toxins. That is why the VFW fully supports periodic literature reviews 
of the existing body of research on the relationship between 
contaminated water at Camp Lejeune and the health conditions prevalent 
among veterans and family members exposed to such toxic substances.
    However, this legislation would require the ATSDR to evaluate 
whether a health condition is caused by exposure to contaminated Camp 
Lejeune water, which is an unreasonably high bar for determining a 
relationship between adverse health conditions and toxic exposure. This 
legislation would require the ATSDR to categorize related health care 
conditions into three categories: sufficient with reasonable confidence 
that the exposure is a cause of the illness or condition; modest 
supporting causation; or no more than limited supporting causation. 
This would mean that the majority of the health conditions the ATSDR 
considers to be associated with exposure to trichloroethylene, 
tetrachloroethylene and vinyl chloride in drinking water would fail to 
meet this threshold.
    Research regarding toxic exposures has traditionally used the 
Institute of Medicine's (IOM) six categories of associations: 
sufficient evidence of a causal relationship; sufficient evidence of an 
association; limited/suggestive evidence of an association; 
insufficient evidence to determine whether an association exists; 
inadequate/insufficient evidence; and limited/suggestive evidence of no 
association. These six categories are aligned with the nature of 
epidemiological research and can be used to guide future research. The 
VFW strongly urges the Committee to reduce the threshold from causation 
to IOM's six categories of association.
                 s. 798, yellow ribbon improvement act
    The VFW supports this legislation that offers additional financial 
assistance for the children of our fallen heroes. The Fry Scholarship 
gives 100 percent GI Bill benefits to the children and spouses of 
fallen servicemembers who gave their lives serving our country. While 
this is a great benefit for the families of the fallen, there are some 
cases where financially it is not enough.
    This legislation would bridge the gap, so the children or spouses 
who are eligible for the Fry Scholarship would not have to pay any out 
of pocket costs to achieve their educational goals. Allowing recipients 
of the Fry Scholarship eligibility to the Yellow Ribbon Program is just 
a very small measure that does not even begin to repay the sacrifice 
their servicemember made for our country.
                      s. 844, gi bill fairness act
    The VFW supports this legislation which would allow for National 
Guardsmen and Reservists ordered to active duty for medical treatment 
to receive the same educational benefits as their active duty 
counterparts. There are servicemembers who were injured during their 
military service and who are convalescing at military treatment 
facilities throughout the country, but are not accruing the same 
educational benefits as other servicemembers currently on active duty. 
Their time on active duty should be considered no different than any 
others and this legislation will make that possible.
    This bill will rectify the mistake made by DOD in putting National 
Guardsmen and Reservists on 12301(h) orders which exempt them from 
benefits in order to save money. DOD should not have used this cost 
cutting measure because it is detrimental to our troops' morale and 
welfare. The VFW endorses any legislation like this that will ensure 
full benefits for our troops while away from their civilian lives on 
active duty.
                    s. 882, purple heart gi bill act
    The VFW supports this legislation increasing the rate of 
educational benefits for recipients of the Purple Heart. For the past 
decade and a half, our country has been sending National Guardsmen and 
Reservists into harm's way at an unprecedented level, and some of them 
have been wounded in the line of duty. Nearly 3,000 of these Citizen 
Soldiers have bled for this country, but have not accrued enough active 
duty time to attain full GI Bill benefits.
    The VFW thinks that service men and women who have bled for this 
country should be compensated for their injuries by granting them full 
education benefits. This is the least we as a country can do for those 
who put their bodies on the line for our freedoms.
 s. 1192, veterans to enhance studies through accessibility act of 2017
    The VFW supports this bill which would change the structure of 
charging for the costs of the tests and certifications veterans apply 
for, instead of a months' worth of eligibility from their GI Bill. The 
GI Bill pays for books, labs and fees for student veterans attending 
college. This bill would include test fees in the GI Bill payment 
structure, and would provide a savings to the government and also allow 
student veterans to retain GI Bill eligibility instead of having to use 
it for a test fee.
    s. 1209, a bill to increase special pension for medal of honor 
                               recipients
    This legislation would increase the amount of special pension 
granted to Medal of Honor recipients from $1,000 to $3,000 per month, 
adjusted annually for inflation. Medal of Honor recipients are held in 
the highest esteem by the veterans and military community. These men 
have turned the tide of battle against overwhelming enemy forces, and 
saved the lives of their comrades at great risk to themselves. With 
only 72 Medal of Honor recipients alive today, increasing their pension 
would not create a significant cost, but would represent a small but 
meaningful token of our appreciation for their heroic actions. 
Accordingly, the VFW supports this legislation.
    s. 1218, empowering federal employment for disabled veterans act
    The VFW supports this bill as it would expand opportunities for 
veterans who have honorably served our country. This bill would allow 
agencies to target high demand occupations within the Federal 
Government and make a concerted effort to hire veterans into those 
positions. We also support the establishment of an Inter-Agency Council 
to discuss and promote veteran employment issues within the Federal 
Government. Important matters like this deserve to be discussed at the 
highest levels in order for senior leadership to understand the state 
of veteran employment within their agencies.
s. 1277, veterans employment through technology education course act of 
                                  2017
    The VFW supports this legislation as it would provide new job 
opportunities in expanding fields for the future. Creating innovative 
ways that servicemembers and veterans can achieve training and 
proficiency in new technology-related fields is essential for the 
future of our country and those who served it. The VFW would like to 
see this program move forward, but we also think this program needs 
input from the State Approving Agencies (SAA), which are instrumental 
in ensuring the value and validity of programs like this. The SAA is 
tasked with overseeing programs such as VET TEC and we would like their 
agencies' approval before moving completely forward with this.
  discussion draft to improve post-9/11 gi bill educational assistance
Increased Post-9/11 GI Bill Eligibility for Reservists
    The VFW agrees with the intent of this draft bill which would 
increase the rates of educational benefits provided to National 
Guardsmen and Reservists. Educating our veteran population is one of 
the VFW's highest priorities and we are happy this Committee values 
education as a priority as well.
Additional Eligibility for Veterans Pursuing STEM Degrees
    The VFW strongly supports this provision to grant additional months 
of GI Bill eligibility for student veterans pursuing degrees in 
Science, Technology, Engineering and Math (STEM). Our nation is making 
a push to encourage more students to pursue STEM degrees in order to be 
competitive and outpace other nations around the world. Student 
veterans should be at the forefront of this initiative. In order to 
make this a possibility, there needs to be some additional eligibility 
granted for those pursuing these degrees, because STEM programs often 
take longer than the traditional four years to complete a bachelor's 
degree. The VFW wants to see student veterans succeed at the highest 
levels and extending school eligibility in this case may be necessary 
to complete these highly important degrees.
Increase Educational Assistance Payments for Survivors and Dependents
    The VFW supports increasing the payments made to survivors and 
dependents for educational benefits. As the years have gone on, there 
has not been a significant increase in the amount of money survivors 
and dependents receive as their educational benefit. It is beyond time 
to make an increase in payments so as to keep pace with the rising cost 
of present day college tuitions.
Monthly Housing Stipend Based on Location of Campus
    The VFW would ask that more research be done on how many student 
veterans would be affected by this change and how much money would 
increase or decrease. Making a change to the housing stipend without 
doing the due diligence is a hasty decision, and we would like to see 
additional information before we make a decision to support this 
legislation.
Repeal of Sunset on Work Study
    This bill is a simple extension of VA's authority to offer work-
study allowances for student veterans. The VFW has long supported the 
VA work-study program, and we would proudly support this initiative to 
extend the program to 2027. Work-study is a valuable tool for student 
veterans to support valuable initiatives in and around their school 
community and earn extra income while taking classes.
    While the VFW supports this legislation, we would like to see the 
end date for this program extended indefinitely. There should not be 
any time in the foreseeable future where there are not veterans 
attending schools after their enlistments, so we do not see any time 
where work-study would not be an added value to student veterans.
Restoration of Entitlement after School Closing
    The VFW strongly supports this legislation to protect student 
veterans who were negatively affected by school closures. Recently ITT 
and Westech College suddenly shuttered their doors after losing 
accreditation. This left thousands of student veterans out of school 
mid-semester, with no plan for what to do the rest of the term. They 
had lost weeks or months of GI Bill benefits that were wasted at failed 
institutions. Even worse, they lost the monthly housing stipend many 
relied upon for their living situation. This legislation allows these 
affected student veterans to recoup their lost months of GI Bill 
eligibility.
    While we support this initiative, we do not feel it goes far 
enough. We think student veterans should be able to recoup the months 
of eligibility wasted at the closed institutions just like traditional 
students can with Pell Grants. Student veterans who attended schools 
like ITT have now lost those months of GI Bill eligibility and they 
have no credits to show for it. The VFW has heard from student veterans 
from the closed schools, and they are now struggling to complete their 
degrees without their previous credits. GI Bill eligibility should be 
allowed to be recouped like Chapter Four Pell Grants can be by 
traditional students. Student Veterans deserve the same equity as every 
other student affected by school closures.
    Additionally, these student veterans now have no monthly income 
from their GI Bill benefits. The VFW strongly supports extending the 
Basic Allowance for Housing payments for a maximum of 4 months or until 
the end of the term, whichever is earliest. Our team at the VFW 
immediately reached out to the student veterans affected by each of the 
school closures and offered them a stop gap measure through our Unmet 
Needs Program. We provided the student veterans with some financial 
stability to make it through the next month or so while they got 
settled after this major life upheaval. This was, however, only a band-
aid for the real problem. These student veterans need protection for 
the future so issues like this do not affect them as badly as these 
past closures have.
Improvement of VA IT Systems
    The VFW strongly supports the improvement of VA information 
technology (IT) systems. Time and time again, VA has failed to 
accurately account for millions of dollars of wrongful payments due to 
outdated IT systems. Any efforts to enhance the IT systems and bring 
them into the 21st century is strongly supported by the VFW. We would 
like to see this fixed as soon as possible in order to save taxpayer 
money and alleviate repayment burdens from veterans attending school.
Extension of Advisory Committee on Education
    The VFW supports extending the authority of the Advisory Committee 
on Education until 2022. This is a valuable asset the VA Secretary can 
use to gather information and advice on how student veterans are using 
their education benefits, and the Committee can advise on any changes 
or improvements that may need to be made. While the VFW supports this 
Committee, we would like to see its authority extended indefinitely. 
Student veterans will always be going to school, so we think this 
Committee should always be present.
Limitation on Use of Reporting Fees
    The VFW supports the limitation of reporting fees for general 
school uses. At the beginning of each term, a School Certifying 
Official (SCO) reports the enrollment of a GI Bill user to VA. This 
enrollment signifies the usage of educational benefits for the 
individual. After this is complete, the school receives a $12 payment 
from VA for certifying the enrollment. Currently, there is no 
limitation on where that money is disbursed within the school's system. 
This legislation would ensure that schools are not using that reporting 
fee for its own general use. The VFW supports the plan to limit the 
usage of those fees for veteran services only. This will add to the 
amount of money available for veteran programs within those 
institutions.
Training for School Certifying Officials
    The VFW supports mandatory training for School Certifying 
Officials. In 2014 alone, there were $262 million dollars in erroneous 
Post-9/11 GI Bill payments to students and most times the students, not 
the schools, are the ones burdened with repaying the money. Making sure 
the SCO's are properly trained is one step in avoiding overpayments, 
and the VFW supports this action. While this legislation does not 
specifically address the source of funding for this training, the VFW 
thinks the schools themselves should be responsible for the cost of the 
training.
Modification of Funding for State Approving Agencies
    The VFW supports increasing the funding allocated to the State 
Approving Agencies. These agencies are the first line in ensuring 
schools are properly accredited and providing a high standard of 
education for student veterans. There have been thousands of student 
veterans left out on their own after their schools closed, sometimes 
with little or no notice. The SAA's role is to make sure that 
institutions are accredited and providing the services they claim to. 
For that reason, the VFW endorses additional funding in the hopes that 
school closures like ITT do not affect veterans in the future.

    Mr. Chairman, this concludes my testimony. I am prepared to answer 
any questions you or the Committee members may have.

    Senator Rounds. Thank you, Mr. Murray, for your testimony.
    We will now hear from Brigadier General, Retired, Roy 
Robinson, President, National Guard Association of the United 
States.
    Mr. Robinson, before you begin, let me just explain once 
again to everyone here that the reason why there is not a lot 
of folks that are here with us right now is because we are also 
voting on three significant issues on the floor of the Senate, 
and so we are moving back and forth. This is actually where we 
talk about the Iran sanctions bill, and the final passage will 
be shortly. So, it is an important part, and we want to get it 
done and send a powerful message to some folks in the world 
that sometimes do not really pay attention. Hopefully, this 
will help.
    So, General, if you would like to begin.

    STATEMENT OF BRIG. GEN. ROY ROBINSON (RET.), PRESIDENT, 
        NATIONAL GUARD ASSOCIATION OF THE UNITED STATES

    General Robinson. Thank you, Mr. Chairman and other Members 
of the Committee. On behalf of the almost 45,000 members of the 
National Guard Association of the United States and nearly 
500,000 soldiers and airmen of the National Guard, we deeply 
appreciate this opportunity to share with you our thoughts on 
today's hearing topics for the record.
    We also thank you for the tireless oversight you have 
provided to ensure accountability and improve our Nation's 
services to veterans and their families.
    In my testimony, I would like to urge this Committee to 
correct the benefit disparity for members of the National Guard 
when deployed under 12304 Bravo status under Title 10 of the 
U.S. Code. I am also happy to answer your questions on the 
numerous legislative proposals under consideration by this 
Committee today.
    Since our inception in 1878, ensuring benefit eligibility 
and equity for the men and women of the National Guard has been 
one of NGAUS's primary functions. I would be remiss if I did 
not point out that, historically, benefits for servicemembers, 
most notably through the 1944 GI Bill, were not constructed nor 
viewed as entitlements. Rather, the GI Bill and related 
legislative efforts were solely focused on reintegrating the 
men and women of the Armed Forces following the horrors of 
World War II and helping them to become successful, 
contributing members of American society.
    It is in this same light that we remain discouraged that 
there has been no resolution with the numerous benefits 
currently not attributed to Guard and Reserve servicemembers 
deploying under 12304 Bravo status.
    Since establishing the 12304 Bravo authority in 2012 to 
give combatant commanders greater authority to utilize the 
Reserve component, thousands of our members have been deployed 
on operations to support the Multinational Force Observers 
mission in the Sinai, Egypt; NATO's Operation Joint Guardian in 
Kosovo; and most recently the European Reassurance Initiative 
countering Russian aggression in Eastern Europe.
    The Guard and Reserve forces have provided a cost-effective 
means of meeting the needs of combatant commanders and have 
provided important experience and expertise. We are also aware 
of the Department of Defense's continued utilization of this 
authority as evidenced by proposed increases in Guard and 
Reserve deployments under 12304 Bravo. However, when the 12304 
Bravo authority was established, it failed to make important 
changes to Titles 5, 37, 38, and 10 of the U.S. Code. While our 
constituency wants to serve in any capacity, we believe that 
they should be afforded benefits equal to active component 
members, such as tuition assistance, early retirement credit, 
transitional health care access, and Post-9/11 GI Bill 
benefits.
    While we appreciate the Department's ongoing efforts to 
consolidate the authorities by which members of the Reserve 
component may be ordered to perform duty, NGAUS remains deeply 
concerned that the implementation of duty status reform will 
take numerous years and prevent thousands of additional 
Guardsmen and Reservists from receiving the same benefits as 
their active duty counterparts.
    We ask that you support the immediate passage of Ranking 
Member Tester's bill, S. 473, the Educational Development for 
Troops and Veterans Act, introduced in February 2017 with 
Senators Franken, Van Hollen, Hassan, and Klobuchar. This 
commonsense bill would ensure that all deployed Reserve 
component members would receive Post-9/11 GI Bill benefits 
equal to those enjoyed by the active component members. It 
would also protect them from lost wages while deployed and 
allow Guardsmen to defer their Federal student loan payments 
prior to deployments.
    Finally, over the last few months, NGAUS has worked closely 
with our friends at the Reserve Officers Association and the 
Enlisted Association of the National Guard of the United States 
to support the Reserve Component Benefits Parity Act to amend 
Titles 5, 10, 37, and 38 of the U.S. Code to provide full 
benefits to members of the Guard and Reserve deployed under 
12304(b) status as well as 12304(a).
    I would like to acknowledge and thank Congressman Palazzo 
and Congressman Walz for introducing this bill in the House, 
which currently has over 60 cosponsors.
    I would like to also thank Senators Cornyn, Franken, 
Klobuchar, Capito, and Baldwin for championing the Senate 
companion legislation. While I realize that some of the 
provisions of this bill do not fall under this Committee's 
jurisdiction, I would like to ask all of you here today to 
cosponsor S. 667. These are not just benefit parity issues; 
they are questions of fairness.
    I appreciate your invitation to appear before this 
Committee today, and I look forward to answering your 
questions.
    Thank you, Mr. Chair.
    [The prepared statement of General Robinson follows:]
        Prepared Statement of BG (Ret) Roy Robinson, President, 
            National Guard Association of the United States
    Dear Chairman Isakson, Ranking Member Tester, and other 
distinguished Members of the Senate Veterans' Affairs Committee:
                              introduction
    On behalf of the almost 45,000 members of the National Guard 
Association of the United States and the nearly 500,000 soldiers and 
airmen of the National Guard, we deeply appreciate this opportunity to 
share with you our thoughts on today's hearing topics for the record. 
We also thank you for the tireless oversight you have provided to 
ensure accountability and improve our Nation's services to veterans and 
their families.
    In my testimony, I would like to focus on an issue that continues 
to plague the soldiers and airmen of the National Guard, which falls 
under the jurisdiction of this Committee. We urge this Committee to 
correct the benefit disparity for members of the National Guard when 
deployed under 10 U.S.C. Sec. 12304b status. My goal today is to 
highlight this particular issue, as well as provide endorsements for 
numerous legislative proposals also under consideration by this 
Committee.
                 duty status reform and benefit parity
    Since our inception in 1878, ensuring benefit eligibility and 
equity for the men and women of the National Guard has been one of 
NGAUS' primary functions. I would be remiss if I did not point out that 
historically, benefits for servicemembers, most notably through the 
1944 G.I. Bill, were not constructed nor viewed as entitlements. 
Rather, the G.I. Bill and related legislative efforts were solely 
focused on reintegrating the men and women of the Armed Forces 
following the horrors of World War II and helping them to become 
successful, contributing members of American society.
    It is in this same light that we remain discouraged that there has 
been no resolution with the numerous benefits currently not attributed 
to Guard and Reserve Servicemembers deploying under 10 U.S.C. 
Sec. 12304b status. Since establishing the 12304b authority in 2012 to 
give Combatant Commanders greater authority to utilize the Reserve 
Component, thousands of our members have been deployed on operations to 
support the Multinational Force Observers mission in the Sinai, Egypt, 
NATO's Operation Joint Guardian in Kosovo, and most recently the 
European Reassurance Initiative countering Russian aggression in 
Eastern Europe. The Guard and Reserve forces have provided a cost-
effective means of meeting the needs of Combatant Commanders and have 
provided important experience and expertise. We are also aware of the 
Department of Defense's continued utilization of this authority as 
evidenced by proposed increases in Guard and Reserve deployments under 
12304b.
    However, when the 12304b authority was established, it failed to 
make important changes to 5 U.S.C., 37 U.S.C., 38 U.S.C. and 10 U.S.C. 
As such, health, education, leave, pay, and retirement benefits equal 
with active component troops serving the same functions have been 
denied to Guard and Reserve Component soldiers serving under the 12304b 
authority. While our constituency wants to serve in any capacity, we 
believe that they should be afforded benefits such as: tuition 
assistance, early retirement credit, transitional healthcare access, 
and Post-9/11 G.I. Bill benefits currently not funded under 12304b 
status.
    As you know, the National Defense Authorization Act of 2016 
requires the Department of Defense to consolidate the thirty-two 
statutory authorities by which members of the reserve component may be 
ordered to perform duty. While we appreciate the Department's ongoing 
efforts, NGAUS remains deeply concerned that the implementation of duty 
status reform will take numerous years and prevent thousands of 
additional Guardsmen and Reservists from receiving the same benefits as 
their active duty counterparts.
    To that end, we ask that you support the immediate passage of 
Ranking Member Tester's bill, S. 473, the Educational Development for 
Troops and Veterans Act, introduced in February 2017 with Senators 
Franken, Van Hollen, Hassan, and Klobuchar. This commonsense bill would 
ensure that all deployed reserve-component members would receive Post-
9/11 G.I. Bill benefits equal to those enjoyed by active component 
members. It would also protect them from lost wages while deployed and 
allow Guardsmen to defer their Federal student loan payments prior to 
deployments. Furthermore, S. 473 would establish a grant program to 
build, maintain, and improve college veteran education centers to help 
student veterans maximize their benefits, receive academic aid, and 
connect with their peers on campus. This is not just a benefit-parity 
issue. It is a question of fairness. Passing this bill will not only 
help ensure the men and women of the National Guard accrue Post-9/11 
G.I. Bill benefits in the same manner as their active duty counterparts 
but will further support the soldiers who protect our Nation.
                    additional supported legislation
    NGAUS strongly supports S. 410, the Shawna Hill Post-9/11 Education 
Transferability Act introduced by Senator Crapo and Senator Risch. 
Named after Shawna Hill, a teenager from Idaho who was tragically 
killed in an automobile accident in 2012, S. 410 would amend 38 U.S.C. 
to allow reassignment of veterans' education benefits in cases where 
the designated beneficiary passes away.
    S. 798, the Yellow Ribbon Improvement Act of 2017, introduced by 
Senator Cassidy, Senator Tillis and Senator Brown, would expand 
eligibility for the Department of Veterans Affairs' (VA) Yellow Ribbon 
Program to recipients of the Marine Gunnery Sergeant John David Fry 
scholarship. The Yellow Ribbon Program is an extremely vital program 
for members of the National Guard by helping students avoid out-of-
pocket tuition and fees for education programs that cost most than the 
G.I. Bill's allowance. S. 798 would allow eligibility for the Yellow 
Ribbon Program for surviving spouses and the children of servicemembers 
who have died in the line of duty.
    NGAUS also supports S. 882, which would add Purple Heart recipients 
to the list of eligible veterans who can access full Post-9/11 G.I. 
Bill benefits. The legislation, introduced by Senators Rounds, Manchin, 
Warren, and Kaine, would also make Purple Heart recipients eligible for 
participation in the Yellow Ribbon Program. Currently, only veterans 
who served on active duty for 36 months are eligible for Post-9/11 G.I. 
Bill benefits, which disqualifies hundreds of Guardsmen who have been 
awarded the Purple Heart.
    Similarly, we appreciate the recent introduction of S. 1209, 
introduced by Senators Graham, Cotton, Blumenthal and Markey, that 
would increase the monthly pension given to Medal of Honor recipients. 
S. 1209 would increase those pensions from $1,303.51 a month to $3,000 
for the 72 living Medal of Honor recipients.
    S. 1218 would benefit members of the National Guard by requiring 
Federal agencies to have full-time advocates for veterans' employment. 
The Empowering Federal Employment for Veterans Act, introduced by 
Senators Sullivan, Heitkamp, and Harris, would connect veterans with 
Federal jobs that match their skills, as well as promote career 
development. With an unacceptably high rate of unemployed veterans, 
NGAUS appreciates the introduction of this legislation to ensure 
servicemembers are able to build and maintain a sustainable future when 
transitioning out of military service.
    S. 1277, introduced by Senators Boozman, Heller, Risch and Capito, 
would expand the VA's Accelerated Learning pilot program that covers 
the costs for non-traditional technology education programs. The 
Veterans Employment Through Technology Education Courses would allow 
the soldiers and airmen of the National Guard to learn valuable 21st 
century workforce skills including computer coding and programming as a 
VA educational benefit. We applaud the introduction of this legislation 
to help provide IT training that is typically not covered under the 
Post-9/11 G.I. Bill.
                               conclusion
    I thank you all again for allowing NGAUS to testify before this 
Committee today. I truly appreciate your consideration of the 
aforementioned legislation under this Committee's jurisdiction. I look 
forward to continuing our work together and cannot thank you enough for 
your steadfast leadership in advocating for the men and women of the 
National Guard.

    Senator Rounds. Thank you, General.
    I do have a couple of questions that I would like to begin 
asking. First of all, for Mr. Hubbard, could you address 
briefly S. 1330? That is the transferability of GI Bill 
benefits to surviving dependents and the need for it to be 
enacted. Would you care to comment, sir?
    Mr. Hubbard. Yes. Thank you for the question, Mr. Chairman.
    Well, just to clarify, if you look at issues that are 
related to survivors, in our point of view as an organization, 
survivor of a servicemember who died in the line of duty for us 
is seen, for policy purposes, as exactly the same as a 
servicemember veteran themselves. We believe that very 
strongly, and we see this as a minor technical correction that, 
frankly, I think was mainly an accident and really just an 
oversight in the legislative process when this was put 
together.
    Ultimately, to have the ability to access the full suite of 
benefits that these individuals have earned is of the utmost 
importance to us.
    Senator Rounds. Thank you, sir.
    Mr. Kamin, you noted your support for a provision that 
would restore used GI Bill benefits when a school closed 
permanently. There have been a number of student veterans 
impacted by such closures in the last several years. Do you 
have concerns that we could see a significant number of 
additional school veterans impacted by future school closures?
    Mr. Kamin. Thank you for that question, Senator. I would be 
remiss to not commend your staff as well as the Committee and 
HVAC for their work during the American Council on Independent 
Colleges and Schools crisis of the summer of 2016. We worked 
closely with Student Veterans of America and VFW under the 
presumption that there would be no possible solution that could 
pass both houses of Congress, and so we did our best to rally 
our service officers and get our emergency funds in order 
because we knew that veterans' benefits would go off a cliff as 
soon as this ruling from the Department of Education happened.
    Your staff worked around the clock to craft a solution, and 
I believe the legislation passed to afford Title 38 benefits 
just maybe a week or two before the ruling was issued, so it 
was really remarkable work.
    That being said, the ruling meant that ACICS-certified 
schools have 18 additional months to find additional 
accreditation. We know that there are many schools that will 
not be able to. So, the crisis was averted, but the problem 
still remains, and that is why we view this as very important 
to get done, as well as increasing and boning up our oversight 
components.
    Senator Rounds. Thank you, sir.
    Mr. Murray, in S. 1277--that is the VET TEC Act of 2017--
the VA would have to consult with State Approving Agencies, or 
SAAs, before contracting with education providers. Since this 
technology training would only be a part of a pilot program and 
not necessarily approved for GI Bill benefits, would that 
address the VFW's desire for SAA involvement?
    Mr. Murray. Yes. Essentially, whenever the Secretary is 
approving, the SAAs are on the front line of making sure that 
these schools are providing value; they are providing validity 
that schools are meeting the proper standards. If there was a 
way that we could incorporate the SAAs' approval and 
recommendations into these new programs, so we are not just 
facing pop-up schools that offer certifications at the expense 
of veterans, that is something we greatly appreciate their 
input before we gave our full support in.
    We would also like a little bit of clarification about the 
employment in the related fields of study and meaningful 
employment. Meaningful employment can mean a lot of different 
things to a lot of different people. A little bit of 
clarification on that would be something we would greatly like 
to see, so that maybe the SAAs can help achieve some kind of a 
standard to set forth. That would reassure us more.
    Senator Rounds. Thank you, sir.
    General Robinson, I have to share with you, after serving 
as Governor of South Dakota for 8 years during a time in which 
our Guardsmen were deployed, we used Title 32 and Title 10. 
When they were deployed, it seems as though I had always 
assumed that the benefits that would accrue to them would be 
just like someone who was a member of the armed services, who 
was not necessarily a member of the Guard and Reserve, but 
full-time, as they call it. But, when they become Title 10, 
they are full-time as well, and it surprised me on several 
different occasions to find that perhaps some of the benefits 
did not accrue in a similar fashion.
    As you know, sir, this Committee acted last Congress to 
correct the benefit disparity for Guard and Reserve troops that 
were deployed under 12304(b) and 12301(h) orders when we passed 
the Veterans First Act out of Committee without opposition. 
Unfortunately, we have not yet been able to pass it through the 
full Senate.
    Can you tell the Committee what the National Guard members 
are being told about these orders by their chain of command?
    General Robinson. Thank you, Mr. Chairman.
    I think due to the intricacies of the different statuses 
that a soldier or airman can be deployed under, some of the 
leadership is just now coming around to understanding what the 
soldiers do not get when they are in a 12304 Bravo status.
    I think more and more right now, as you read in the press, 
we have got more Reserve members, both National Guard and other 
components, that are finding out the hard way, not through 
their leadership telling them, but when they go through the 
demobilization process they realize that all of those benefits 
are not there at the end of the mobilization like they thought 
it would be. There are various concerns about some of the 
transition benefits that are associated with some of the 
eligibility under TRICARE that those soldiers and airmen should 
be able to access as they reintegrate into their family and 
their job. And that is going to be a much harder task without 
the coverage or the benefits they would normally get with any 
other deployment.
    Senator Rounds. Thank you.
    Mr. Hubbard, based upon your bio, I suspect that you may 
have experienced some of that. Would you care to share your 
personal experiences on this or what your association has 
wanted you to share with us today?
    Mr. Hubbard. Yes. Thank you, Mr. Chairman. I appreciate 
that point.
    Just for some context, I deployed last year with the Marine 
Corps Reserve, a unit based out of Quantico, VA, with a unit 
that was pulled together from Reserve units across the United 
States, approximately 300 marines or so, of which many, many 
were Reservists. This was kind of a test run of the ability to 
achieve a mission with a COCOM, a preplanned mission with 
Reservists.
    It was a highly successful mission. Unfortunately, many of 
these young men and women were told at the beginning of the 
deployment that they, in fact, would be receiving GI Bill 
benefits upon conclusion of the deployment. They were told this 
falsely, and I believe it was a misunderstanding. Nonetheless, 
these young men and women spent the entirety of their 
deployment in harm's way in Central America doing activities 
and work side by side with active duty counterparts, doing the 
same job. One group was getting GI Bill; one was not. All the 
while, however, these young men and women thought they were 
getting GI Bill. They were planning to come home and go to 
school. These individuals had registered for classes. When they 
got back and toward the end of deployment, they were told, 
``Sorry, guys. You are actually not getting GI Bill.''
    I cannot tell you the significant harm that that caused to 
these individuals, and consider this. For many of them, they 
were looking to do a 4-year degree. It is not going to be until 
the time this is fixed, in some cases maybe until 2020, 2021, 
even later, that these individuals are able to achieve their 
educational goals. So, it is not just a 3-to-6-month impact; we 
are talking about significant time over even half a decade 
affecting these individuals.
    Senator Rounds. Thank you, sir.
    Gentlemen, I want to thank you all for your service to our 
country. It is time for me now to go to the floor and vote. 
Senator Boozman will handle the gavel, and I believe he has got 
a few questions for you as well. Thank you, gentlemen.
    Senator Boozman [presiding]. Thank you, Senator Rounds, 
very much.
    I do just have a few questions. Mr. Murray, in regard to 
S. 1277, the VET TEC Act, VET TEC Act of 2017, the VA would 
have to consult with State Approving Agencies before 
contracting with education providers. Since this technology 
training would only be a part of a pilot program and not 
necessarily approved for GI Bill benefits, would that address 
the VFW's desire for SAA involvement?
    Mr. Murray. Yes, sir. We would very much like to see the 
SAA involved in this approving.
    Senator Boozman. Very good.
    General Robinson, you support S. 1218 to improve Federal 
hiring of veterans. Can you tell us what some of the biggest 
challenges and concerns are for the National Guard members when 
it comes to employment and navigating the Federal hiring 
bureaucracy, which is truly a chore.
    General Robinson. Thank you, Mr. Chairman.
    Obviously, we do support S. 1218. It ties to several 
different things, one of which is the causes that we see for 
suicides in our ranks. A lot of those causes are linked back to 
problems with employment and money as they transition back to 
their civilian lives. So, we do see a direct connection, and 
that is why we think it is so important to try to help 
Guardsmen go back and be employed and continue on with their 
life as contributing Americans.
    We would like to see a change to the Federal hiring 
preference standards regarding Guardsmen and Reservists from 
180 consecutive days to 180 cumulative days. This would cause 
an increase in eligibility for those Guard members and 
Reservists who may be on--they may be on separate orders over 
the course of several months. Allowing for cumulative days to 
help as far as their eligibility would open that gate even 
wider for some of those people to participate.
    Senator Boozman. Very good.
    That is really all the questions I have. You know, you all 
have done a tremendous job. Anytime we hear about real-life 
stories and how it affects individuals, it is so, so very 
important as opposed to spreadsheets, a lot of technological 
stuff, and a lot of abbreviations that the public does not 
understand and half of us do not understand. So, like I said, 
that is very, very valuable.
    Have you all got any other comments that you would like to 
add before we adjourn? Yes, sir.
    Mr. Hubbard. Thank you for the opportunity, Mr. Chairman.
    One point that we just want to really focus on again is 
making sure that the GI Bill is something that persists for 
future generations. We believe it can be improved and expanded 
with the impressive package that this body has put together and 
the various proposals that this Committee is looking at. We 
think, ultimately, however, we want to move toward this idea of 
education as a component of service.
    For those that have served to defend the Nation, it is 
extremely important that they have the opportunity to then 
transition through school. We have seen this to be an extremely 
effective manner, and right out of the gate, about 50 percent 
are going right to school on the Post-9/11 GI Bill, currently. 
We believe that bringing this forward to future generations, 
not just the Post-9/11 GI Bill, but the GI Bill, bringing it 
across different generations is extremely important.
    Imagine today if, for example, we had the Korean War GI 
Bill. Given the tight budget times, that would be gone in a 
second. So, we think broadening the name is very important, and 
ultimately providing that opportunity to those that have served 
the country is of the utmost critical importance to our 
organization.
    Senator Boozman. I appreciate that. I had the opportunity 
when I was in the House to chair and then become Ranking Member 
when the majority switched on the subcommittee that actually 
was in charge of implementing the GI Bill, which many of you 
remember. I do think that we forget how far we have come.
    Again, that has been the work of Congress, but it has also 
very, very importantly been you all pushing these things 
forward. It simply would not have gotten done without the 
efforts of the organizations that you all represent. So, we 
really do appreciate that and appreciate your efforts in that 
area.
    Now the same is true as we go forward. It is going to take 
all of us working together, trying to sort out the kinks, the 
unintended consequences, the areas that we have not done, but I 
do think we are moving in the right direction and can be proud, 
very proud of the work that you all have done and the work that 
Congress has done to get us where we are.
    Does anyone else have any more comments? General Robinson?
    General Robinson. Mr. Chairman, if I could--and I want to 
reiterate the 12304 Bravo issue and the linkage that it will 
have. If the next 15 years in utilization of the Guard and 
Reserve looks anything like the past 15 years, the likelihood 
is that these soldiers and airmen and the members of the other 
services are going to be very, very busy. Unless people dig 
into the intricacies of all the benefits that they are not 
being awarded through 12304 Bravo, they may not understand----
    Senator Boozman. Sure.
    General Robinson [continuing]. That it actually turns into 
a readiness issue. As these soldiers and airmen come out of one 
mobilization, as they are going through the reintegration, they 
are actually preparing and becoming ready for the next 
mobilization. So, it turns it from not just a National Guard 
and Reserve issue; it is actually an issue that the country 
needs to pick up on because the readiness of those forces are 
tied to the benefits that they are not currently going to 
receive under 12304 Bravo orders. I just wanted to highlight 
that to the Chairman and the Committee. Thank you.
    Senator Boozman. We appreciate that very much. I think you 
make a very, very good point.
    Yes, sir, Mr. Kamin.
    Mr. Kamin. Yes. Thank you, Mr. Chairman.
    I would like to echo your remarks on the personal stories. 
Personally, I am not smart enough to look at statute and 
understand the human implications, and seeing the full effect 
of that really empowers us to do the right thing and learn what 
we need to sink into.
    With that being said, I would like to point you to Section 
8, authorization of transfer of entitlement to Post-9/11 
educational assistance for the dependents, which TAPS brought 
up, and introduce you to Coleen Bowman, who is sitting back 
there, who is the surviving spouse of Sergeant Major Robert 
Bowman, who has a daughter who very much wants to go to 
college, and the family has earned it. But, right now, they are 
not being afforded that benefit.
    So, we stand with them to say this is an easy thing we can 
fix, and we are ready to work with you on that.
    Senator Boozman. Thank you very much, and thank you for 
bringing that up. We appreciate you. We appreciate you being 
here and putting a face with a story. That is so, so very 
important. So, thank you very much.
    Well, with that, we are going to adjourn. The hearing 
record will be open for 5 business days for Members to revise 
remarks and submit additional questions. I do not want to bang 
on the table or they will get on to me. We are adjourned. Thank 
you.
    [Whereupon, at 12:19 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Prepared Statement of Hon. Richard Burr, 
                    U.S. Senator from North Carolina
    Chairman Isakson, Ranking Member Tester and Members of the 
Committee, Thank you for the opportunity to present my views on pending 
legislation under consideration by the Committee.
    Today, I would like to discuss the Janey Ensminger Act of 2017 , 
important legislation sponsored by myself and Senators Thom Tillis (R-
NC), Bill Nelson (D-FL), and Marco Rubio (R-FL).
    The legislation is named in honor of Master Sergeant Jerry 
Ensminger's daughter, Janey, who was only nine-years-old when she died 
in 1985 from a rare form of leukemia after being exposed to toxic water 
at Camp Lejeune her entire life. Master Sergeant Ensminger has been a 
tireless advocate for the members of the military and families who were 
harmed by toxic exposure at Camp Lejeune.
    Our bill requires the Department of Veterans Affairs to provide 
medical care for all diseases that can be scientifically linked to 
exposure to toxic chemicals at Camp Lejeune.
    The legislation also requires that the Agency for Toxic Substances 
and Disease Registry (ATSDR), a Federal agency within the Centers for 
Disease Control and Prevention, review all relevant scientific 
literature every three years to determine if sufficient or modest 
causal links have been found between toxic exposure at Camp Lejeune and 
additional diseases and conditions. This will ensure that veterans and 
their families will not have to wait to get medical care as researchers 
learn more about the long-term health consequences of the toxins found 
in the water at Camp Lejeune.
    By way of background, the Centers for Disease Control and 
Prevention's Agency for Toxic Substances and Disease Registry (ATSDR) 
at the Department of Health and Human Services (HHS) conducts public 
health assessments addressing environmental contamination and analyzing 
the health risks from this exposure for individuals who lived and 
worked at Camp Lejeune, NC. Current law extends health care to veterans 
and their family members who have certain diseases and conditions as a 
result of exposure to contaminated well-water in North Carolina from 
1953 to 1987. ATSDR's scientific analysis has been critical to 
informing the benefits for veterans and their family members who are 
sick as a result of this tragic contamination in North Carolina. 
Despite ATSDR determining that a number of cancers and other health 
conditions were caused by the Camp Lejeune water contamination, the 
Veterans Administration (VA) continues to challenge these findings, 
ultimately delaying and denying care to veterans and their family 
members. For decades, servicemembers and their family members who lived 
and worked at Camp Lejeune, NC were harmed by exposures to toxic 
substances. In the decades since, these men and women who served our 
Nation, have had to fight to receive the care to which they are 
entitled as a result of their service to our country. Veterans and 
their family members should not be further harmed by the VA's failure 
to accept ATSDR's findings.
    The Janey Ensminger Act of 2017 codifies ATSDR's critical work on 
behalf of veterans and their family members who have been sickened by 
the toxic exposures that occurred at Camp Lejeune, in a way that 
ensures and strengthens accountability to these individuals. This bill 
provides critical transparency regarding the HHS and VA's Camp Lejeune-
related work in a manner that respects and reflects the most current 
scientific understanding of the health risks associated with these 
toxic exposures.
    This bill would require the ATSDR Administrator to review the 
scientific literature relevant to the relationship between the 
employment or residence of individuals at Camp Lejeune, NC for not 
fewer than 30 days between August 1, 1953, and December 21, 1987, and 
the specific illnesses or conditions incurred by those individuals. The 
ATSDR Administrator would also be required to determine each illness or 
condition for which there is evidence that exposure to a toxic 
substance at Camp Lejeune, NC, during this time period may be a cause 
of the illness or condition, categorize the level of evidence for these 
conditions, and publish this information on HHS' Internet website. 
Under this bill, the list of illnesses and conditions, and their 
corresponding evidentiary categorization from exposure to a toxic 
substance at Camp Lejeune, NC, would be regularly updated to ensure 
that this list reflects the most current scientific analysis. This 
transparency is key for ensuring that there is no denying, delaying, or 
disputing the health care benefits owed veterans and their family 
members who are sick because of exposure to a toxic substance at Camp 
Lejeune, North Carolina.
    If future research by ATSDR determines that the casual connection 
between the contaminated water at Camp Lejeune and a medical condition 
is not as strong as once believed, those veterans and their families 
who are being treated for that disease or condition shall continue to 
receive care in order to ensure continuity of care. However, for 
veterans and their families who are not already receiving care for such 
a condition, medical care would no longer be available because the 
causal connection is no longer scientifically supportable.
    I will not stop fighting for justice for the victims of Camp 
Lejeune. There remain many obstacles for us to overcome. I thank Jerry 
for his tireless efforts at holding the VA accountable and improving 
the lives of all who suffer from illnesses incurred at Camp Lejeune. No 
one has been a better advocate for these individuals, and I cannot 
commend him highly enough for his steadfast determination.

    I thank the Committee for its attention to this critical matter.
                                 ______
                                 
     Prepared Statement of Hon. Mike Crapo, U.S. Senator from Idaho

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
              Prepared Statement of Hon. Heidi Heitkamp, 
                     U.S. Senator from North Dakota
    Thank you, Mr. Chairman, for holding this hearing today. I want to 
thank you and Senator Tester for your leadership in advocating for our 
Nation's veterans. Hearings like this one demonstrate this Committee's 
commitment to improving the lives of those who served our country and 
making sure we honor our obligation to care for them.
    That care extends from the treatment veterans receive in hospitals 
and clinics to the benefits they earned, from the education they pursue 
after their service to the employment they seek in the civilian 
workforce. S. 1218, the bipartisan Empowering Federal Employment for 
Veterans Act of 2017 that I introduced with Senator Sullivan, would 
take important steps in caring for our veterans as they try to find 
work that is the right fit for them. I appreciate you including this 
bill on the agenda for today's hearing.
    Although Federal efforts to promote the recruitment of 
transitioning servicemembers and veterans have resulted in significant 
increases in veteran employment throughout the Federal Government, the 
programs in place to enhance veteran recruitment, hiring, retention, 
skills development, and job satisfaction are not always effective in 
finding the most suitable jobs for a veteran's particular skillset. 
Ensuring that there are dedicated advocates for veterans' employment at 
key Federal agencies who are focused on finding jobs that are the right 
fit for veterans would open up more job opportunities for veterans 
across the Federal Government beyond the agencies that typically employ 
veterans in large numbers. Focusing on matching the skills and career 
aspirations of veterans to specific agency needs while also expanding 
career development training opportunities would create an environment 
that improves the long-term wellbeing of veterans as well as the 
overall efficiency of the Federal Government.
    I very much appreciate the Committee's consideration of S. 1218 and 
look forward to working with the Members of the Committee to pass this 
commonsense bill and make it easier for veterans to find the rewarding 
employment they deserve.
                                 ______
                                 
               Prepared Statement of Hon. James Inhofe, 
                       U.S. Senator from Oklahoma
    Today I would like to state my support for Senate bill 1356, the 
Veterans Education Improvement Act of 2017, which I introduced along 
with Senator Cornyn on June 14, 2017.
    In 2010, Congress passed the Post-9/11 Veterans Educational 
Assistance Improvements Act. This act authorized veterans to use their 
hard earned educational benefits to pursue a technical or career 
certificate program as an option instead of the traditional liberal 
arts opportunities at a college or university.
    Career technology centers, or CTEs, are public, non-profit, non-
degree granting institutions that provide skills and certificates 
important to every community and are found in over ten states. CTEs are 
renowned for providing job training for technical careers like welding, 
mechanics, and cosmetology. Here our veterans will be able to obtain 
necessary skills that our U.S. workforce desperately needs.
    The goal of this bill is to give veterans enrolled at postsecondary 
CTE institutions expanded access to innovative education programs that 
utilize technology and online learning opportunities.
    The city of Enid, Oklahoma, has been home to the Autry Technology 
Center since 1967 and serves over 10,000 people annually through 
programs and services that enhance skills and employment opportunities.
    Autry currently offers 26 full-time career programs from air 
conditioning to culinary arts, to radiography, to welding, and several 
other critical, applied skills used nationwide.
    Public, non-profit centers in the Oklahoma Career-Tech system, like 
Autry Technology Center in Enid, are proven to significantly contribute 
to the economic development and quality of life in Oklahoma, especially 
our returning veterans.
    Career and technical education centers are vital as a post-
secondary education option and workforce training system for our 
veterans, but, under the Obama administration, the VA took action to 
block certain tech center benefits from our vets. Since March 2016, the 
VA has not allowed the Post-9/11 GI Bill to pay for any form of 
independent study from a non-degree producing institution, including 
CTEs. In many cases, this hindrance precludes veterans from utilizing 
these courses or pursing these certificate programs.
    CTEs, much like their college and university counterparts, are 
utilizing internet based courses as a component of their programs to 
provide flexibility for working adults and veterans to better 
accommodate their lifestyles and encourage learning.
    Marcie Mack, the State Director of the Oklahoma Career-Tech system, 
told me last week that, ``Oklahoma's Career-Tech system is committed to 
serving U.S. military veterans; however, with current Federal policy 
there are obstacles for our veterans to be able to participate in 
Oklahoma's Career-Tech system and receive their benefits.''
    To address the current policy issues, I have introduced S. 1356 
along with Senator Cornyn, clarifying the law to ensure accredited CTE 
programs can continue to receive GI Bill benefits even if a portion of 
the program is done by independent study. This language, from section 5 
of the discussion draft, is supported by Student Veterans of America, 
the American Legion, and the United States Department of Veterans 
Affairs.
    In the time since I have been working on this legislation, I have 
heard concerns from this Committee about whether this would open the 
door for bad actors in the education space to take advantage of these 
benefits.
    My staff, along with the staff of this Committee, have explored 
these concerns and have made modifications to the language to ensure 
the bill does not have negative, unintended consequences. While many 
non-degree programs at area CTE centers are already accredited and 
eligible for other Federal financial aid programs outside of the Post-
9/11 GI Bill, this bill has an additional quality control measure of 
limiting access to only programs that are accredited by a recognized 
accrediting body--which is the standard across higher education. I am 
committed to ensuring positive outcomes for veterans who enroll in 
these programs. It is my hope that the Committee will quickly consider 
this legislation so that veterans in Oklahoma and across the Nation can 
achieve career success after leaving the service.

    I deeply appreciate the attention the Committee has given to my 
bill, and I look forward to continuing my work with you to ensure this 
issue is addressed.
                                 ______
                                 
    Letter from Eric Lachica, Executive Director for ACFV Leaders, 
                American Coalition for Filipino Veterans
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
          Prepared Statement of the U.S. Department of Defense
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, The Department of Defense (DOD or the Department) 
appreciates the opportunity to provide this statement for the record 
addressing legislation pending before the Committee. Given that the 
funding and administration of the Post-9/11 GI Bill fall under the 
purview of the Department of Veterans Affairs, this statement will 
focus on only legislation that will affect the Department of Defense; 
we defer to the Department of Veterans Affairs to provide responses on 
those bills with no significant DOD impacts.
                 s. 111. filipino veterans promise act
    This bill would require the Secretary of Defense, in consultation 
with the Secretary of Veterans Affairs and military historians, to 
establish a process to determine whether individuals claiming certain 
service in the Philippines during World War II are eligible for certain 
VA benefits despite not being on the Missouri List. The Department does 
not support any further legislation concerning determining service 
eligibility for the WWII Filipino Guerilla Veterans. The Army has a 
program in place that makes verifications. This program, due to its 
thorough processes, is the foundation for the Army's policy for making 
final service determinations for eligibility. The Department maintains 
complete confidence that the records and files completed in 1948 
provide the best and most accurate determination of service.
  s. 410. shawna hill post-9/11 education benefits transferability act
    This bill would amend title 38, United States Code (U.S.C.), to 
authorize the transfer of unused Post-9/11 educational assistance 
benefits to additional dependents upon the death of an originally 
designated dependent.
    The Department fully supports identifying ways to safeguard 
education benefits for Servicemembers and veterans by ensuring 
additional dependents can use the benefit in the event of the death of 
the dependent originally designated. By closing this potential coverage 
gap, the benefit, which has already been earned, will not go unused.
    However, given that both the funding and administration of this 
benefit fall under the purview of the Department of Veterans Affairs, 
DOD would defer to that agency to determine the costs and effects of 
the bill on their Department.
  s. 473. educational development for troops and veterans act of 2017
    This bill amends title 38, U.S.C., to make qualification 
requirements for entitlement to Post-9/11 Education Assistance more 
equitable, to improve support of veterans receiving such educational 
assistance, and for other purposes. We will only comment on those 
provisions that directly affect DOD.
    Section 2 amends the definition of qualifying active duty for the 
Post-9/11 GI Bill in section 3301(1)(B), title 38, U.S.C. to ensure 
that an order to serve on active duty under sections 12304a and 12304b 
of title 10 is treated identical to other orders to serve on active 
duty for determining the eligibility of members of the uniformed 
services and veterans for certain benefits, and for calculating the 
deadlines for certain benefits.
    This bill would allow National Guard and Reserve Component (RC) 
members who are involuntarily activated under sections 12304a or 12304b 
of title 10 U.S.C., to receive the same benefits as those RC members 
who support comparable operations, but are activated under other 
authorities, such as section 12302.
    Although the Department can support this provision, the Department 
is currently developing a more comprehensive solution as part of our 
Reserve Component Duty Status Reform effort. By enacting this 
legislation this cycle, Congress would resolve some of the most common 
RC duty status pay and benefit inequities in a more expeditious manner. 
However, the Department recommends making the change prospective only, 
due to the expected cost and complexity associated with implementation.
    Given both the funding and administration of this benefit fall 
under the purview of the Department of Veterans Affairs, DOD would 
defer to that agency to determine the costs and effects of the bill on 
their Department.
    Section 7 of the bill would amend the process for adjusting the 
monthly benefit for members of the Selected Reserve training under the 
provision of the Montgomery GI Bill--Selected Reserve (Section 
16131(b)(2) 10 U.S.C.). Currently the Montgomery GI Bill--Selected 
Reserve (MGIB-SR) monthly benefit rate is annually increased by the 
Consumer Price Index (CPI) for the 12-month period ending on the 
June 30, preceding the beginning of the fiscal year for which the 
increase is made, while the Montgomery GI Bill (Chapter 30, 38 U.S.C.), 
monthly benefit is annually increased by the average cost of 
undergraduate tuition in the United States, as determined by the 
National Center for Education Statistics, for the last academic year 
preceding the beginning of the fiscal year for which the increase is 
made. This amendment partially aligns the process to determine the 
annual increase in the monthly benefit for the Montgomery GI Bill--
Selected Reserve (MGIB-SR) with the process in place for annual 
increases in the Montgomery GI Bill, but rather than establishing the 
annual increase as a fixed rate, it allows a rate adjustment of ``not 
less than the percentage by which.'' This change will require a 
positive determination by the Secretary of Defense each year on the 
rate adjustment--whether to leave it at the rate of education increase, 
or whether a higher increase may be warranted. While the Department 
generally supports provisions that provide us such flexibility, since 
the increase in the cost of education generally outpaces the increase 
in the CPI, we would ask that the effective date be delayed to allow 
the Services to budget for such an increase.
                 s. 844. gi bill fairness act 5 of 2017
    This draft bill would consider active duty performed under the 
authority of title 10, United States Code, section 12301(h), as 
qualifying active duty for the purposes of Post-9/11 GI Bill education 
benefits. Reserve component members wounded in combat often are given 
orders to active duty under this provision to receive authorized 
medical care, to be medically evaluated for disability, or to complete 
a required health care study. However, as currently written, section 
3301(1)(B), of title 38, United States Code, does not include active 
duty performed under 12301(h) as qualifying active duty for purposes of 
Post-9/11 GI Bill educational assistance.
    Currently, when a member of the Reserve Component on active duty 
sustains an injury due to military operations, the Servicemember is not 
discharged, but remains in the Selected Reserve on active duty under 
12301(h), title 10, U.S.C.. None of the time spent in recovery under 
this status is qualifying time for purposes of the Post-9/11 GI Bill. 
In this case, the Servicemember would return to Selected Reserve status 
with less qualifying time than those who served an entire period of 
active duty without an intervening injury. This legislation would 
correct this inequity by simply extending eligibility for the Post-9/11 
GI Bill to service under 12301(h).
    DOD recognizes the inequity of not including this active duty time 
for purposes of Post-9/11 GI Bill benefits, and included a provision 
similar to this bill in our FY 2016 legislative proposal submission. 
However, the DOD proposal would have included only active duty 
performed after enactment. In contrast, this legislation would be 
retroactive, categorizing all duty performed under 12301(h) since 
September 11, 2001, as qualifying active duty for purposes of the Post-
9/11 GI Bill. We estimate that approximately 5,000 RC members performed 
active duty under 12301(h) each year since September 11, 2001. 
Accordingly, we believe this draft bill would generate an additional 
cost to the Department of Veterans Affairs. Given that both the funding 
and administration of the Post-9/11 GI Bill fall under the purview of 
the Department of Veterans Affairs, DOD would defer to that agency to 
determine the costs and effects of the bill on their agency.
    S. 882. A Bill to provide for the entitlement to educational 
assistance under the Post-9/11 Educational Assistance Program of the 
Department of Veterans Affairs for members of the Armed Forces awarded 
the Purple Heart, and for other purposes
    This Bill would amend title 38, U.S.C., to authorize any member of 
the Armed Forces who is awarded the Purple Heart eligibility for the 
Post-9/11 GI Bill at the 100 percent rate, regardless of months of 
qualifying active duty, and make them eligible to participate in the 
Yellow Ribbon GI Bill Education Enhancement Program (Section 3317(a), 
38 U.S.C.). The Department fully supports recognizing the service and 
sacrifice of our Servicemembers who are wounded and awarded the Purple 
Heart. However, given that both the funding and administration of this 
additional benefit fall under the purview of the Department of Veterans 
Affairs, we would defer to that agency to determine the costs and 
effects of the bill on their Department.
   s. 1218. empowering federal 5 employment for veterans act of 2017
    The Department strongly supports S. 1218, which is in line with 
current strategic recruitment and employment outreach initiatives 
performed by the Department for wounded, ill, injured, and 
transitioning servicemembers and veterans. This bill upholds and will 
strengthen the Department's continuing support to provide specialized 
transition assistance to the civilian workforce and promote the Federal 
Government as an ``Employer of Choice.''
    Consistent with the bill's provisions, the Department has 
designated an employee with full time responsibility for carrying out a 
Veterans Employment Program. DOD's Veterans Employment Program Office 
(VEPO), within the Office of the Under Secretary of Defense for 
Personnel and Readiness, established in 2009, is responsible for the 
development and management of DOD's Veterans Employment and Hiring 
Heroes Programs, as well as DOD's Veterans Recruitment and Employment 
Operational Plan, to enhance and promote employment opportunities for 
veterans, and veteran's recruitment programs. As an example, the Hiring 
Heroes program provides job search assistance to wounded, ill, and 
injured servicemembers, transitioning servicemembers, veterans, 
military spouses, and primary caregivers, providing these warriors and 
families specialized transition assistance into the civilian workforce. 
Since April 2005, the Department has conducted 87 highly successful 
``Hiring Heroes Career Fairs,'' providing opportunities for job seekers 
to network, collect information and speak face-to-face with recruiters 
and employers about civilian career opportunities.
    The provisions of S. 1218 will better enable the Department to 
execute recruitment and outreach activities such as the Hiring Heroes 
Program, along with career readiness programs, which have been 
developed to assist transitioning servicemembers and veterans in their 
search of employment.
    The Department also supports Section 4 of this bill, ``Expansion of 
SkillBridge Initiative to Include Participation by Federal Agencies.'' 
This expansion of the successful DOD SkillBridge initiative, to also 
include Federal agencies as participants, would greatly strengthen the 
initiative and its positive impact on transitioning Servicemembers. 
After Congress authorized SkillBridge in the FY 2013 NDAA, the program 
allowed transitioning Servicemembers to participate in employer-driven 
job skills training, apprenticeships, and internship programs, 
beginning up to six months prior to transitioning out of the military. 
Through such participation in private-sector SkillBridge training, 
transitioning Servicemembers have received jobs in dozens of 
industries, from corporate finance to advanced manufacturing, 
information technology, and cyber security. Just as businesses have 
greatly benefited from the program and the talents our highly trained 
Servicemembers bring, so too will Federal agencies. The expansion to 
Federal agencies as eligible employers and trainers under the program 
will provide a true win-win for both the Federal Government and 
transitioning Servicemembers.
                        s. 75. arla harrell act
    This proposed legislation would require DOD and the Department of 
Veterans Affairs to jointly establish a policy on the process future 
claims for mustard gas exposure. In addition, DOD would need to issue a 
policy on sites where such testing occurred, and investigate and report 
to Congress on any new sites where veterans claimed testing occurred. 
The Department opposes this legislation. The legislation is 
inconsistent as to whether it only applies to full-body exposure 
claims. While DOD would agree to a presumption of exposure if limited 
to World War II veterans who participated in testing of full-body 
exposure, for the individuals to whom section 3(a)(1) of this 
legislation would apply, the Department has no evidence of such testing 
that would prove or disprove the exposure. However, use of mustard gas 
during training in World War II was ubiquitous, so the legislation 
needs to be clear to delimit possible claims to those who participated 
in full-body exposure testing and whose claims were previously denied 
by VA.
    Furthermore, the Department would be required to investigate and 
report on possible addition to the list of sites known to have 
conducted full-body exposure testing. However, if full-body exposure is 
presumed based solely upon a veteran's statement, then the number of 
sites at which testing occurred is immaterial. The Department of 
Defense has already investigated, and provided to Congress everything 
we know about testing sites.
    The data this legislation would require DOD to report is 
duplicative of information the Department has already provided to 
Congress. In November 2015, DOD, specifically the Under Secretary of 
Defense for Acquisition, Technology and Logistics, provided the known 
list of sites where testing occurred in response to a request of the 
Senate Committee on Aging. In addition, the Institute of Medicine 
published a report on these tests, ``Veterans at Risk: The Health 
Effects of Mustard Gas and Lewisite,'' National Academy Press (1993). 
Similarly, the Government Accountability Office published two reports 
that included information about these tests, ``VETERANS DISABILITY: 
Information from Military May Help VA Assess Claims Related to Secret 
Tests,'' February 1993, and ``DOD and VA Need to Improve Efforts to 
Identify and Notify Individuals Potentially Exposed during Chemical and 
Biological Tests,'' February 2008.
                               conclusion
    In conclusion, the Department of Defense fully supports appropriate 
and effective legislative changes that will help our efforts to 
attract, recruit, and retain talented individuals. Post-service 
education benefits have been a cornerstone of our military recruiting 
and retention efforts since 1985, and a major contributor to the 
continued success of the All-Volunteer Force. Higher education benefits 
have been and remain at the forefront of reasons cited by young 
Americans for joining the military. From its inception, we fully 
expected the Post-9/11 GI Bill to continue to have this impact and we 
are seeing that happen in the form of sustained recruiting and 
retention success. The Department thanks the Committee for their 
continuing support of our Servicemembers and Veterans.
                                 ______
                                 
 Prepared Statement of Sam Shellenberger, Deputy Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of Labor
                              introduction
    Chairman Isakson, Ranking Member Tester, and distinguished Members 
of the Committee: thank you for the opportunity to provide a statement 
for the record of today's hearing. I commend the Committee for its 
tireless efforts to ensure that America fulfills its obligations to our 
Veterans, their families, and their caregivers. The Department of Labor 
(DOL or the Department) also works each day to help ensure all Veterans 
have the opportunity for meaningful long-term employment.
    The Department is the Federal Government's leader on training and 
employment services. DOL has the expertise and the nationwide network 
to facilitate employment opportunities and skills training for anyone 
who needs them, including Veterans. The Administration relies on the 
Department's integrated network and programs to provide positive 
employment outcomes for the men and women who serve our country.
    While this hearing is focused on several bills under consideration 
by the Committee, I will limit my statement specifically to S. 1218, 
the ``Empowering Federal Employment for Veterans Act.''
s. 1218, the ``empowering federal employment for veterans act of 2017''
    S. 1218 seeks the establishment of Veteran employment programs 
within Federal agencies. This bill would require each ``covered'' 
Federal agency (including DOL) to either establish a Veterans 
Employment Program Office, to be managed by a Veterans employment 
official, or to designate an employee of the covered agency to carry 
out a Veterans Employment Program for the covered agency; the agency 
also must ensure the public availability of contact information for 
Veterans' employment officials to ensure engagement with prospective 
applicants. The bill also would establish an Interagency Council on 
Veterans Employment to handle matters relating to the employment of 
Veterans. The Council would be co-chaired by the Secretaries of Labor 
and Veterans Affairs, with the Director of the Office of Personnel 
Management (OPM) serving as the Vice Chair. The Council's duties would 
include advising and assisting the President and the Director of the 
OPM on matters involving a coordinated Government-wide effort to 
increase the number of Veterans employed by the Federal Government in 
positions that match the skills and career aspirations of Veterans; 
this would involve enhancing recruiting, hiring, retention, training 
and skills development, and job satisfaction. The Council would 
establish performance measures to assess the Federal Government's 
effectiveness in these areas. Additionally, the Council would serve as 
a national forum for promoting employment opportunities for Veterans in 
the executive branch. Finally, the Council would report on the 
effectiveness of these efforts to the President and to Congress within 
one year of the bill's enactment, and annually thereafter.
    DOL, along with other Departments, established a Veterans 
Employment Program Office pursuant to Executive Order 13518 in 
November 2009. Since that time, the Department has increased 
representation of Veterans in its workforce from 17 percent in FY 2009 
to 21.3 percent in FY 2015, and disabled Veterans' representation has 
increased by approximately 5.3 percentage points during the same period 
for the overall workforce.\1\
---------------------------------------------------------------------------
    \1\ See OPM FY 2009 and FY 2015 Reports on Employment of Veterans 
in the Federal executive branch
---------------------------------------------------------------------------
    In comparing DOL's workforce representation of Veterans and 
disabled Veterans against Comparable Federal Agencies (CFA), DOL's 
percentages of representation exceed those of the CFA. Since the 
inception of the Veterans Hiring Model, approved in FY 2015 by the 
Council on Veterans Employment (also established pursuant to Executive 
Order 13518), DOL has maintained an Exemplary Performance Rating for 
increasing Veteran hiring. These hiring practices are similar to those 
for private sector employers to receive recognition under the HIRE Vets 
Medallion Program, as established in the HIRE Vets Act of 2017. The 
HIRE Vets Act requires the Department to establish a HIRE Vets 
Medallion Program to recognize employer efforts to: (1) recruit, 
employ, and retain Veterans; and (2) provide community and charitable 
services supporting the Veteran community. The Department continues its 
work to establish this program, and looks forward to updating the 
Committee on its progress.
    We note also that, through the efforts of the existing Interagency 
Council on Veterans Employment, comprising some 24 Federal agencies, 
Veterans' share of new hires in the Executive branch has increased from 
24 percent to 32.5 percent--an unprecedented increase in Veteran 
hiring.\2\ This has been achieved through the Council's establishment 
of a strategic plan and Veterans' hiring model in the Executive branch, 
as well as through establishment of performance measures to gauge the 
success of those efforts. The Council has afforded each of those 
agencies a role in oversight of programs affecting Veteran hiring and 
employment and a forum to discuss topical issues, address and resolve 
problems, and make better informed policy recommendations.
---------------------------------------------------------------------------
    \2\ Id.
---------------------------------------------------------------------------
    Additionally, the Department provides training and employment 
services for Veterans and transitioning servicemembers who may be 
interested in a career with the Federal Government through its 
Veterans' Employment and Training Service (VETS). VETS' mission is 
focused on four key program areas: (1) preparing Transitioning 
Servicemembers for meaningful careers through the Transition Assistance 
Program (TAP) Employment Workshop and Career Technical Training Track; 
(2) providing Veterans with employment resources and expertise at the 
nearly 2,400 American Job Centers across the country; (3) protecting 
Veterans' employment rights with administration of the Uniformed 
Services Employment and Reemployment Rights Act (USERRA) and Veterans 
Preference in Federal Hiring; and (4) promoting the employment of 
Veterans and related training opportunities to employers across the 
country through our national employer outreach effort. VETS is able to 
accomplish its mission by working closely with other parts of the 
Department, including, for example, the Employment and Training 
Administration (ETA), which administers programs under the Workforce 
Innovation and Opportunity Act that provide employment and training 
services, and give Veterans (and qualified military spouses) priority 
of service status. DOL's Office of Federal Contract Compliance Programs 
also supports the hiring of Veterans through the Vietnam Era Veterans' 
Readjustment Assistance Act (or ``VEVRAA''). VEVRAA prohibits companies 
that are doing business with the Federal Government from discriminating 
in employment against protected Veterans, and requires that these 
employers take affirmative action to recruit, hire, promote, and retain 
these Veterans. The progress of covered contractors is measured against 
an annual hiring benchmark. Together, these DOL programs provide a 
unified approach to serving the employment needs of Veterans, 
transitioning servicemembers, and their families.
    The bill also would require the Secretary of Defense, in 
consultation with the Director of OPM, to make needed modifications to 
the SkillBridge initiative to enable Federal agencies to participate in 
the initiative as employers and trainers--including the provision of 
training by Federal agencies under the initiative to transitioning 
members of the Armed Forces. The Department of Defense's (DOD) 
SkillBridge initiative promotes the civilian job training authority 
available for transitioning servicemembers; servicemembers who qualify 
can participate in civilian job and employment training, including 
apprenticeships and internships. Under the bill, the Director of OPM, 
in consultation with the Secretary of Defense, would be required to 
take necessary actions to ensure that each Federal agency participates 
in the SkillBridge initiative.
    DOL fully supports expanding the SkillBridge initiative to include 
Federal agency participation, as this would further broaden employment 
and training opportunities for transitioning servicemembers, and serve 
as a pipeline to enhance the Federal civilian workforce. Since the 
inception of SkillBridge, the Department has been working with DOD to 
help communicate the program to both transitioning servicemembers and 
employers. The Department supports using the SkillBridge authority to 
provide transitioning servicemembers access to and experience in 
Federal employment opportunities before they transition out of the 
military, which would enhance their ability to successfully reintegrate 
into civilian life.
                               conclusion
    DOL's focus on employment is part of our core mission and 
competency. Creating opportunities for our Veterans to thrive in the 
civilian economy through meaningful employment is a priority for DOL, 
and we work closely with our partners at the Departments of Veterans 
Affairs and Defense to do so. The Department looks forward to working 
with the Committee to help ensure that our transitioning servicemembers 
and Veterans, and their families, have the resources and training they 
need to successfully transition to the civilian workforce. Chairman 
Isakson, Ranking Member Tester, distinguished Members of the Committee, 
this concludes my statement for the record. Thank you for the 
opportunity to be a part of this hearing.
                                 ______
                                 
Prepared Statement of The Enlisted Association of the National Guard of 
                           the United States
  s. 473, educational development for troops and veterans act of 2017 
        (sen. tester, sen. blumenthal, sen. brown, sen. murray)
    The Enlisted Association of the National Guard of the United States 
(EANGUS) supports S. 473, ``Educational Development for Troops and 
Veterans Act of 2017.'' S. 473 addresses numerous initiatives effecting 
Reserve Component (RC) Servicemembers in a positive manner. First and 
foremost, if passed S. 473 would extend Post-9/11 GI Bill benefits to 
Servicemembers ordered to active duty status under 10 U.S.C. 
Sec. 12304b status. In Fiscal Year (FY) 2016, DOD requested 10,107 Man-
years. In FY 2017, DOD requested 11,124 Man-Years, and in its FY 2017 
request for additional appropriations, DOD requested 18,738 Man-Years 
for 10 U.S.C. Sec. 12304b duty status. Many EANGUS members deployed 
under this duty status, did not receive education benefits, and did not 
know they were not getting the benefit until after they returned home. 
The National Guard and Reserves recruit and retain Servicemembers by 
offering Post-9/11 GI Bill benefits, and it is unfair break in faith 
not to provide those very benefits based on a type of duty status.
    EANGUS is supportive of other provisions in S. 473. We applaud 
Section 5 to defer student loans in connection with receiving orders 
for mobilization for war or national emergency. We support section 6 
regarding veteran student centers and grants for veteran student 
centers. Sections 7 and 8 address adjustments and stipends for RC 
Servicemembers aiming to combat recent increases to undergraduate 
tuition costs. EANGUS fully supports these sections. We ask the 
Committee vote in favor of S. 473 and move the legislation forward for 
consideration before the Senate.
    s. 844, gi bill fairness act of 2017 (sen. wyden, sen. boozman)
    EANGUS fully supports S. 844 to extend the time spent receiving 
authorized medical care or medical evaluation for disability as active 
duty for purposes of eligibility for Post-9/11 GI Bill Educational 
Assistance. Reserve Component Servicemembers receiving medical care or 
evaluation are placed on 10 U.S.C. Sec. 12301(h), which is an active 
duty status, and should continue to accrue the same benefits as the 
other active duty statuses. The Servicemember, recovering from service-
connected wounds, should earn Post-9/11 GI Bill education benefits just 
as they would if they were forward deployed, and had not been wounded 
in the first place. We only support this effort if the member is placed 
on 10 U.S.C. Sec. 12301(h) status for thirty days or longer. We ask the 
Committee vote in favor of S. 844 and move the legislation forward for 
consideration before the Senate.
      s. 882, purple heart gi bill act (sen. rounds, sen. boozman)
    Our organization fully supports S. 822 to extend one-hundred 
percent Post-9/11 GI Bill eligibility to all Purple Heart recipients. 
Currently, only those Servicemembers that serve 36 months or more on 
active duty, or are medically retired, receive one-hundred percent of 
the Post-9/11 GI Bill benefit. EANGUS is particularly concerned that 
current law omits many Purple Heart recipients that deployed with a 
Reserve unit because they were activated for less than three years. Any 
Servicemember that is not medically retired and served fewer than 36 
months receives only a prorated portion of the education benefit, and 
we feel that this is unfair. We ask the Committee vote in favor of 
S. 822 and move the legislation forward for consideration before the 
Senate.
                 discussion draft on changes to gi bill

SEC. 10. RESTORATION OF ENTITLEMENT TO POST-9/11 EDUCATIONAL ASSISTANCE 
                    AND OTHER RELIEF FOR VETERANS AFFECTED BY SCHOOL 
                    CLOSURE.

    EANGUS supports the Senate Veteran's Affairs Committee's 
consideration to restore Post-9/11 education benefits to Servicemembers 
suffering a discontinuation of education due to a school closure. 
Furthermore, in the event of a school closure, we are supportive of any 
effort to provide housing stipends to Servicemembers until the end of 
the semester or term. Our association's membership has been negatively 
impacted by a school closure and we would be supportive of any effort 
by the Committee to protect Servicemembers from school closures. We ask 
the Committee to support Section 10 of the GI Bill discussion draft 
before you and move the legislative language forward for consideration 
before the Senate.
     discussion on the guard recruiting assistance program (g-rap)
    We would be remiss if we didn't mention the thousands of veterans 
in the National Guard who have been targeted by Army CID agents who, 
without proper authority, have rounded up and interrogated Guard 
members as if they were on the Ten Most Wanted List, all because of 
their involvement in the Guard Recruiting Assistance Program (from 2005 
to 2012).
    Regrettably there was misconduct within G-RAP; that misconduct was 
widespread across a number of military recruiting programs (not just 
the National Guard) and those individuals were caught and righteously 
punished years ago. Yet, here we are, five years after G-RAP ended, and 
Guard Soldiers are still being interrogated by CID in cases where they 
helped recruit only one person into the Guard under a program with 
confusing and often conflicting rules! Many say this massive 
investigation is simply an effort to justify the wildly inaccurate 
sworn testimony to Congress by Army General Officers. Others have said 
the entire debacle is a massive violation of the Posse Comitatus Act.
    State leaders have been missing in action while Soldiers, who never 
intended to violate any rule, much less a law, keep getting crushed. 
Among other examples of how this defective investigation went wildly 
off the rails:

    <bullet>  Pre-dawn tactical team raids on the homes of 20+ 
Guardsmen and former Guardsmen in Puerto Rico.
    <bullet>  CID 24-hour surveillance of Guardsmen suspected of G-RAP 
misconduct (years before) in New Mexico.
    <bullet>  Investigations remaining open and lingering for over 5 
years in Tennessee.
    <bullet>  Highly trained, Special Forces Soldiers being barred from 
re-enlistment in Colorado after findings of innocence in civilian 
court.
    <bullet>  At least one confirmed G-RAP investigation related 
suicide in California.
    <bullet>  Federal lawsuits in Texas demanding three times the G-RAP 
payments.
    <bullet>  Federal Criminal Histories created on thousands of 
Guardsmen nationwide, without criminal charges ever being filed.

    It's true that some Adjutants General and their staffs have quietly 
rejected CID's faulty investigations and sent agents packing. But 
that's done little to stop CID's never ending ADOS funded campaign. 
Long after the Army Reserve CID agents are finally sent home, the 
ramifications and collateral legal consequences to Soldiers will 
continue for years to come; those who were titled have a permanent FBI 
file enumerating the ``crimes'' that they were investigated for--
regardless of whether or not charges were even filed.
    In the military, we talk about duty. A lot. We like to say that 
above everything else--above politics, above political leaders and 
parties, our sworn duty is to the Constitution. We purportedly stand 
for the bedrock principles found in the Bill of Rights. But the harsh 
truth is that the G-RAP investigations are an misapplication of Due 
Process, and a wholesale trampling of the Presumption of Innocence. And 
yet, the Army CID machine continues to chew up Guardsmen most often 
without leadership even asking a single question. Worse, some Guard 
leaders reflexively accept flawed CID conclusions and partial reports 
as gospel. Collectively, we've become a silent participant by standing 
by, watching and doing nothing.
    G-RAP investigations have shown an abdication of leadership, a 
willingness to leave a fallen soldier behind, an inclination to accept 
false testimony from CID, and a failure to honor the Bill of Rights for 
those who swore on their lives to defend it. Think about this: If 
you're one of the thousands of Guardsmen subjected to a G-RAP 
investigation and the lingering scars, would you encourage young people 
to join the Guard? Betrayal is the wound that cuts the deepest. Our 
association demands that the Army CID investigations immediately cease 
and that restitution be made to those who did no wrong, to include 
expungement of any criminal record.
                                 ______
                                 
  Prepared Statement of Scott Crawford, High Ground Veterans Fellow, 
                     High Ground Veterans Advocacy
                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Tom Porter, Legislative Director, Iraq and 
                    Afghanistan Veterans of America

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
     Prepared Statement of Military Officers Association of America

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Prepared Statement of Aleks Morosky, National Legislative Director, 
                   Military Order of the Purple Heart
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, On behalf of the Military Order of the Purple Heart (MOPH), 
whose membership is comprised entirely of combat wounded veterans, I 
thank you for allowing us to testify today on legislation related to 
veterans' education. While MOPH supports many of the bills being 
considered today, and would particularly like to voice our strong 
support for S. 798, the Yellow Ribbon Improvement Act, and section 10 
of the discussion draft, which would provide for the restoration of 
entitlement to education assistance for veterans affected by school 
closures, we would like to take this opportunity to primarily discuss 
the bill that most specifically affects MOPH members, S. 882. This 
important legislation, introduced by Senator Rounds, would provide full 
entitlement to the Post-9/11 GI Bill to Purple Heart recipients.
    There is no doubt that the Post-9/11 GI Bill is among the most 
significant benefits available to current era veterans. Its popularity 
is also without question. According to research recently published by 
Student Veterans of America, 347,564 student veterans have completed a 
total of 453,508 post-secondary certificates or degrees using the Post-
9/11 GI Bill since its inception. While it is impossible to know at 
this point what the long-term return on investment will be for the 
program, MOPH is confident that it will eventually prove to have 
contributed significantly to the American economy, similar to previous 
iterations of the GI Bill. Simply put, when a veteran's military 
experience is combined with quality higher education opportunities, 
they are bound for success.
    Still, there is room for improvement in the Post-9/11 GI Bill. 
Since it first went into effect in 2009, there have been multiple 
changes made to the program to address oversights in the original 
legislation. MOPH strongly believes that Congress should act to improve 
the Post-9/11 GI Bill once again to extend 100 percent eligibility to 
all Post-9/11 Purple Heart recipients.
    Currently, only veterans who either serve at least 36 months on 
active duty or are discharged due to a disability receive Post-9/11 GI 
Bill benefits at the 100 percent rate. Those who were not medically 
discharged and serve less than 36 months receive only a portion of the 
benefit on a prorated basis.
    MOPH strongly believes that any veteran who sheds their blood for 
our country on a Post-9/11 battlefield should be automatically granted 
the full benefit of the GI Bill that bears the name of the era in which 
they served. While we fully understand that there must be left and 
right limits on eligibility for any benefit as generous as the Post-9/
11 GI Bill, we firmly believe that every single current era Purple 
Heart recipient is equally as deserving as any other servicemember, 
regardless of total time served on active duty. Put another way, MOPH 
strongly believes that any veteran who was wounded on the battlefield 
has indeed already met the service requirement for full GI Bill 
eligibility by virtue of their personal sacrifice in our Nation's 
efforts in fighting the Global War on Terror.
    According to the report issued by the Congressional Budget Office 
(CBO) on H.R. 1379, the House companion bill to S. 882, it is estimated 
that 660 Purple Heart recipients would see increased GI Bill benefits 
each year under this bill. While this is a relatively low number as 
compared to overall GI Bill usage, we believe it is certainly 
significant enough to warrant action by Congress. CBO also estimates 
that the cost of the bill would be $65 million over 10 years, or 
approximately $6.5 million per year. While we understand that any 
spending increase in the current fiscal environment presents 
challenges, we strongly urge Congress to do whatever it can to find an 
offset for this relatively modest amount of money.
    MOPH suspects that the majority of Purple Heart recipients who are 
eligible for less than the full benefit are veterans of the Guard and 
Reserve. Often activated only to deploy and then deactivated once they 
return home, it is not unusual for combat veterans of the reserve 
component to amass less than 36 months of active service before they 
are discharged.
    It is also not uncommon for Purple Heart recipients not to receive 
medical discharges, even if their wounds are relatively severe. All too 
often, veterans who are wounded close to the end of their enlistments, 
or while on stop-loss, are simply discharged on schedule rather than 
initiating the lengthy medical board process necessary for a medical 
discharge. Anecdotally, we hear that this is also more common in the 
reserve component.
    To better illustrate our point, please consider the following 
examples:

          Servicemember A enlists in the Air Force for three years. She 
        is stationed at Dover Air Force Base where she works as a pay 
        distribution specialist. She serves honorably and is discharged 
        at the end of her three year term having never left the United 
        States. Servicemember A is eligible for the Post-9/11 GI Bill 
        at the 100 percent benefit level.
          Servicemember B enlists in the Navy, also for three years. He 
        is stationed at Naval Station Norfolk. One year into his 
        assignment, he steps in a pothole during a unit run, fracturing 
        his ankle. His unit initiates a medical board and it is 
        determined that he can no longer perform his duties as an 
        electronics technician. Having never left the United States, 
        Servicemember B is granted a medical discharge and becomes 
        eligible for the Post-9/11 GI Bill at the 100 percent benefit 
        level.
          Servicemember C is an infantryman in the National Guard. 
        After spending five years drilling with his unit, he is 
        activated for the first time to deploy to Iraq at the height of 
        the conflict. Ten months into his one year deployment, his 
        night patrol is stuck by a command-detonated improvised 
        explosive device, signaling the beginning of an ambush by 
        insurgents. Shrapnel from the blast rips into his lips, exiting 
        through his cheek and causing him to lose three teeth. After he 
        and his squad suppress the enemy, he is evacuated to Baghdad 
        where he receives two dozen stitches in his face, a partial 
        denture, and a Purple Heart. After being allowed to convalesce 
        for two weeks, a medical officer determines that he can still 
        perform his duties as an infantryman. He rejoins his unit, and 
        returns home two months later. Having completed his six year 
        enlistment, he is discharged honorably. Since only 12 months of 
        his service was spent on active duty, Servicemember C becomes 
        eligible for the Post-9/11 GI Bill at only the 60 percent 
        benefit level.

    In using these examples, we are in no way implying that 
Servicemembers A and B are somehow undeserving of the benefits for 
which they qualify. All honorable service to our country is commendable 
and should be rewarded. We are only trying to illustrate how a Purple 
Heart recipient who serves less than 36 months on active duty and is 
not medically discharged is at least equally as deserving.
    However, examples of how this legislation would help Purple Heart 
recipients are not only hypothetical. Cosider the case of Sergeant 
Jonanthan Glodman of Boston, Massachusetts, a veteran of the U.S. 
Marine Corps Reserve and Operation Iraqi Freedom. On September 4, 2006 
while serving in Iraq with the 1st Battalion, 25 Marine Regiment, 
Jonathan's vehicle was struck by an improvised explosive device, 
injuring him and two other Marines. For his wounds, included a 
concussion, burns to his face and arm, an ankle injury, and shrapnel to 
his left knee, he was awarded the Purple Heart. Fortunately, he was 
able to remain with his unit, which redployed with in November 2006, at 
which time he was separated from active duty. Although he spent a total 
of six years in the Marine Corps Reserve, less than one year of that 
time was active. As a result, Jonathan qualified for only 60 percent of 
the Post-
9/11 GI Bill.
    Another example is that of Sergeant Adrian Aranda of El Paso, 
Texas. Adrian served a total of four years on active duty in the United 
States Marine Corps, separating in June 2002, and was among the first 
U.S. servicemembers to deploy to Afghsanistan following 9/11. On 
December 16, 2001, while serving with the 15th Marine Expeditionary 
Unit, his foot patrol was struck by a land mine, wounding him and two 
other Marines. For his injuries, which included shrapnel wounds to his 
left arm, back, and both legs, a fractured left hand, minor burns, 
hearing impairment, and a Traumatic Brain Injury, he was awarded the 
Purple Heart. Following his recovery, Adrain was separated honorably 
from the Marine Corps the following year. Howver, since most of his 
time on active duty was served prior to Sepatember 11, 2001, he was 
awarded only 50 percent of the Post-9/11 GI Bill.
    In our view, our Nation must do better by wounded warriors like 
Jonathan and Adrian. Although they were both eventually able to 
complete degrees using the diminished GI Bill eligibility, they both 
suffered unnecessary financial hardships in doing so. It is also worthy 
to note that being wounded on the battlefield tends to present 
additional physical and emotional readjustment challenges for 
transitioning veterans, and we believe that Congress and the American 
people must do all they can to ensure Purple Heart recipients have 
access to the best educational opportunities possible when they return 
home. In light of this, MOPH strongly supports S. 882, and we deeply 
thank Senator Rounds for its introduction. We urge the Committee to 
advance this important legislation without delay.

    Chairman Isakson, Ranking Member Tester, this concludes my 
statement. On behalf of the Order, I thank you for the opportunity to 
testify today, and I look forward to any questions you or other Members 
of the Committee may have.
                                 ______
                                 
     Prepared Statement of the National Association of College and 
                      University Business Officers

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Prepared Statement of Dr. Joseph Wescott, Legislative Director, 
            National Association of State Approving Agencies
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, The National Association of State Approving Agencies (NASAA) 
thanks you for your invitation to provide written testimony and we are 
pleased to provide our views on certain education benefits legislation 
under consideration by the Committee today, June 15, 2017.
    NASAA does not receive any grants or contracts directly from the 
Federal Government, though its member organizations are state agencies 
operating in whole or in part under Federal contracts funded by 
Congress and administered by the Department of Veterans Affairs (VA).
    On behalf of fifty-two State approving agencies (SAAs), including 
the territory of Puerto Rico and the District of Columbia, NASAA thanks 
the Senate Committee on Veterans Affairs for its strong commitment to a 
better future for all servicemembers, veterans and their families 
through its continued support of the GI Bill educational programs.
    State Approving Agencies (SAAs) were created shortly after the 
inception of the Servicemen's Readjustment Act of 1944, more commonly 
known as the GI Bill of Rights, to insure the creditability of the 
learning experiences in which veterans engage; to assist the Federal 
Government in preventing waste, fraud and abuse; and to assist Veterans 
in making a successful transition from the military to the civilian 
world. The assignment of this responsibility is constitutionally based 
upon the legal principle that the states, and not the Federal 
Government, have the primary responsibility for the education of their 
citizenry. Thus, State Approving Agencies work in concert with the 
Department of Veterans Affairs on behalf of the Congress and the 
President to achieve these objectives.
    SAAs are the guardians and representatives of the GI Bill at the 
state level and they make major contributions to the success of the 
various GI Bills in many ways. Every day across our Nation, the SAAs 
function as the ``gatekeepers of quality' by determining what programs 
will be approved for Veterans to enroll and use their GI Bill 
educational benefits. As such, SAAs make determinations regarding the 
quality and integrity of just about any kind of learning experience 
imaginable (institutional, job training, flight, correspondence, etc.); 
SAAs work with employers to develop and enroll veterans in job training 
programs; SAAs assess and approve tests for professional and 
occupational licensing and certification; SAAs train VA Certifying 
Officials at educational institutions and job training establishments; 
SAAs perform outreach activities to increase the utilization of the GI 
Bills, including briefings during industry conferences and retirement 
seminars, presentations at job fairs and mailings to recently 
discharged Veterans and Selected Reserve personnel; and SAAs provide 
advice and guidance directly to Veterans and other GI Bill eligible 
persons and indirectly through educators, trainers and others who 
counsel Veterans. In addition, SAAs are tireless advocates for Veterans 
at the state and local levels.
    As such, SAAs, through their national organization, the National 
Association of State Approving Agencies, are uniquely situated to 
provide insights to Congress on changes necessary to make the GI Bills 
more relevant and responsive. As such, we appreciate the opportunity to 
provide our views on the following legislation before the committee.
  s. 410, shawna hill post-9/11 education transferability act (crapo, 
                                 risch)
    This bill provides for the reassignment of a Veteran's or Armed 
Forces member's Post-9/11 education benefits to another eligible 
dependent in cases where the original designated beneficiary dies 
without having used all of such benefits. State Approving Agencies 
believe that education promises one of the best paths to a better 
future for a Veteran and their dependents. Furthermore, we believe that 
money spent to provide that education is a sound investment in our 
Nation's future. Tragedy should not negate that promise or curtail that 
investment. NASAA supports this bill.
  s. 473, educational development for troops and veterans act of 2017 
                  (tester, blumenthal, brown, murray)
    Today, as never before, members of the National Guard and Reserve 
Component play a critical role in our Nation's defense throughout the 
world. Sections 2, 3 and 4 of this bill recognizes the sacrifices and 
service of these members of our military by making sure that an order 
to serve on active duty under sections 12304a and 12304b of Title 10, 
United States Code, is treated equitably with other orders to serve on 
active duty for determining a Veteran's and Servicemember's benefits 
eligibility. This bill will do away with the glaring inequality of 
certain Guard and Reserve servicemembers performing the same services, 
often side by side with other Servicemembers, and yet they do not 
receive any benefits. NASAA strongly supports, along with nearly 40 
other military, veteran and higher education organizations which met at 
the American Legion Headquarters in Washington recently, fixing this 
discrepancy.
    NASAA is also pleased that this bill provides for a grant program 
to establish, maintain, and improve veteran student centers. Throughout 
the past several years, SAAs across the Nation have encouraged 
institutions of higher learning to adequately resource Veterans 
services on their campuses. Working with the Student Veterans of 
America and our other VSO partners, and with the encouragement of the 
VA, SAAs have shared during visits to institutions and during the 
approval or reapproval of programs, data showing that the establishment 
of veteran student centers with knowledgeable staff, most of whom are 
Veterans and/or VA work study students, results in increased 
recruitment, retention and graduation rates. In many of our states, the 
numbers of veteran student centers have grown in the past few years and 
we see this bill encouraging the growth of this important innovation in 
rural and urban areas with significant veteran populations. NASAA 
respectfully requests that only institutions or consortiums that 
possess SAA-approved programs be considered as recipients of these 
grants.
    NASAA strongly supports this bill.
     s. 798, yellow ribbon improvement act (cassidy, brown, tillis)
    The Marine Gunnery Sergeant John David Fry Scholarship is awarded 
to dependents whose families have made the ultimate sacrifice. They 
represent both our Nation's greatest treasure and our greatest 
obligation. These families face much in their daily lives and we cannot 
fill the void in their lives created by the loss of their loved one. We 
can honor that sacrifice by making sure that their dependents can 
attend the school of their choice without the angst and anxiety of 
unforeseen charges and tuition costs adding to the challenges they 
already face. We believe, along with the Tragedy Assistance Program for 
Survivors (TAPS), the SVA and many other veteran and education 
organizations, that it is important that we address this need.
    NASAA strongly supports this bill.
         s. 844, gi bill fairness act of 2017 (wyden, boozman)
    This bill would amend title 38 of the United States Code such that 
certain time spent by members of the reserve components of the Armed 
Forces, while receiving medical care from the Department of Defense on 
active duty, could get credit for this time for purposes of eligibility 
for GI Bill benefits. Certainly injury sustained while serving our 
Nation which results in hospitalization or rehabilitation in a medical 
facility should count toward the Servicemember's eligibility for GI 
Bill educational benefits. That is only fair.
    NASAA supports this bill.
    s. 882, a bill to provide entitlement to post-9/11 educational 
  assistance for members of the armed forces awarded the purple heart 
                           (rounds, boozman)
    This bill would amend title 38 so that the sacrifice of brave men 
and women who sustain battlefield injuries in the service of our 
country would be entitled to the same GI Bill benefits as those who 
have served at least 36 months on active duty or are medically retired.
    Congress passed the Post-9/11 GI Bill to expand education benefits 
so they would match the 21st century challenges that our Veterans face 
when they come home. Approximately 3,000 Purple Heart recipients will 
not qualify for this important benefit over the next ten years unless 
Congress passes this bill. NASAA considers that it is extremely 
important that any Purple Heart Veteran who suffered a life-changing 
injury in the line of duty should be entitled to full benefits. Our 
nation cannot completely restore life and limb, but we can provide this 
important lifeline to a better future.
    NASAA supports this bill.
       s. 1192, veterans test accessibility act (rounds, hirono)
    SAAs approve licensure and certification testing costs for 
reimbursement as a part of the benefits of the GI Bill. Certainly, the 
acquisition of certain certifications and licenses can lead to 
meaningful employment and advancement in certain fields for our 
Veterans. Under present law, veterans who seek reimbursement for 
approved testing are charged an entire month of their entitlement, 
regardless of the cost of this test. This bill would allow that 
reimbursement to be pro-rated such that the entitlement charges are 
based on the actual cost and the Veterans are able to conserve their 
benefits. This change would encourage Veterans to take needed tests 
without fear of loss of benefits due to today's reimbursement formula, 
increase the months of training left and provide better stewardship of 
taxpayer dollars.
    NASAA supports this bill.
 s. 1277, veteran employment through technology education courses act 
                       of 2017 (boozman, heller)
    This bill would direct the Secretary of Veterans Affairs to 
establish a high technology education pilot program, which would 
operate for five years and be funded for up to $15 million dollars 
annually. This program could be complementary to existing programs and 
could be an innovative way to address the needs of non-traditional 
students in this sector. The program would be administered by 
contracting with providers, so SAA involvement would be minimal or non-
existent. However, the split payment requirement built into the 
contract will hopefully serve as an incentive for companies to deliver 
high quality impactful programs which will result in rewarding and 
meaningful employment. NASAA respectfully requests that the language of 
this bill be changed so that safeguards are retained or written into 
the bill requiring contracted providers to show previous proficiency 
providing training in the high technology education field and 
successful employment by the graduates in that same field after their 
graduation from the program.
    NASAA supports this bill
      discussion draft to improve post-9/11 educational assistance
    State approving agencies take seriously our role as ``the 
gatekeepers of quality'' and the ``boots on the ground'' defending the 
integrity of the GI Bill and making sure that only quality programs are 
approved by applying Federal and state law and regulation. An 
additional and equally important role is the continued oversight of 
these programs after their initial approval. We do so in conjunction 
with other stakeholders in veteran organizations and higher education, 
including state licensing agencies, state higher education departments, 
the Department of Veterans Affairs, the Department of Education and 
national and regional accrediting agencies. This proposed bill makes 
important changes in existing law to provide for the modernization and 
enhancement of the GI Bill educational program, and NASAA supports 
these changes, but we do want to address certain concerns raised by 
certain provisions, and respectfully ask for needed amendments in 
others.
    We support the extension of the GI Bill to provide certain 
additional benefits for veterans and their dependents seeking STEM 
(science, technology, engineering, and math) degrees (Section3). Our 
nation needs more students to consider careers in these fields, and 
certainly Veterans, with their demonstrated preference for service and 
enhanced leadership skills, could provide the manpower to fuel American 
innovation and progress in the years to come. They should not be 
deterred from their decision to enroll in these programs by either 
curriculum length or greater cost. The return for this small additional 
investment could be large in terms of increased revenue and continued 
leadership in these critical fields.
    NASAA also supports the other sections of the draft which would 
consolidate certain eligibility tiers under the Post-9/11 Educational 
Assistance Program, increase the amounts payable under the survivors 
and dependents' education assistance programs (Chapter 35) by 
approximately $400 per month, and expand and codify the highly 
successful Vet Success on Campus program. We certainly support the 
permanent authorization of work study allowances for individuals who 
are performing outreach services to Servicemembers and Veterans 
furnished under the supervision of a State approving agency employee, 
as well as certain medical treatment and domiciliary care in State 
Homes and administrative activities at a state or national Veterans 
cemetery. Likewise, we support the increase of school certifying 
official fees, but with additional safeguards built in to ensure that 
schools are only using these funds in such a fashion as to directly 
benefit GI Bill recipients. And we strongly support education 
requirements for certifying officials, but equally believe that SAAs 
should be involved in the development of that requirement and the 
provision of that training.
    NASAA also supports the restoration of entitlement to Post-9/11 GI 
Bill Educational Assistance and other relief for veterans affected by 
school closures. We saw firsthand the impact of school closures on the 
veterans in our states and we believe that entitlement, which Veterans 
lost through no fault of their own, should be partially or completely 
restored. However, we also believe that SAAs should be given enhanced 
measures for approval and oversight, such as allowing SAAs to suspend 
programs for longer than 60 days, and to require evidence of financial 
stability even from accredited institutions when circumstances dictate.
    We appreciate and support the provision of additional financial 
resources to allow SAAs to take on an enhanced role in the protection 
of the GI Bill and the future of our veterans. Over the past several 
years, NASAA has supported and even applauded the expansion of benefits 
for Veterans along with increased safeguards which Congress has 
provided. And we have taken on a greater role in assuring compliance 
with Congressional mandates as well as VA and state regulations. 
However, SAAs have been flat-funded for the past decade, and in order 
to continue effectively to provide the important services to approved 
institutions and Veterans, we would respectfully request an increase of 
$7 million dollars to our allocation. It should be noted that this 
increase would only cover the cost of increase in personnel salary and 
benefits, inflation and our increased workload over the past ten years. 
The result would be a total allocation of $26 million dollars provided 
to support the important work of state agencies throughout the Nation. 
We estimate that at least $7 million dollars of the total amount is 
required to do the compliance surveys for the VA, of which we have 
historically performed 50 percent.
    Finally, section 5 of the draft seeks to expand the Post-9/11 GI 
Bill to provide for the approval of independent study programs at 
certain educational institutions that are not institutions of higher 
learning, namely stand-alone non-degree granting institutions. Though 
this bill does include language to restrict the extent of this 
expansion somewhat, some of that language could be problematical. As 
this is a radical departure from the inherent safeguard provided in the 
code of disallowing the approval of ``any independent study program 
except an accredited independent study program (including open circuit 
television) leading (A) to a standard college degree, or (B) to a 
certificate that reflects educational attainment offered by an 
institution of higher learning,'' NASAA cannot support this 
legislation. However, we would not oppose it as long as the following 
concerns are addressed.
    First, as regards proposed subsection (C)(ii): The definition of a 
``postsecondary vocational institution'' as defined in the Higher 
Education Act, does seem to contain adequate parameters to protect the 
integrity of the GI Bill. The institution must be limited to high 
school graduates or equivalent, and to students in an eligible career 
pathway program who have been determined to have an ability to benefit; 
it must be authorized by the State to offer the program; is public or 
nonprofit; and is accredited by a nationally recognized accrediting 
agency or granted preaccreditation status by an agency authorized to 
grant such status. This definition would seem to bar predatory 
institutions providing training of questionable quality which might or 
might not lead to a job or career from seeking approval.
    However, NASAA is concerned that proposed subsection (C)(i) is 
problematical. If you solely look at the definition that is cited, the 
Perkins Act does not require that the institutions be accredited, and 
only requires that the institution be authorized by the State if it is 
an institution of higher learning. So, upon reviewing the definition 
that the proposed language cites, the non-IHL schools might not be 
required to have a license to operate. Also, although the lead-in 
provision in 3680A(4) requires the independent study program to be 
accredited, there is nothing that requires the accrediting agency for 
career and technical education schools to be nationally or regionally 
recognized, as, unlike the definition of a ``postsecondary vocational 
institution,'' the definition of an ``area career and technical 
education school'' does not mention accreditation. Therefore, as the 
proposed language currently stands, an area career and technical 
education school could be accredited by an unrecognized accrediting 
entity, and still be able to qualify for the GI Bill. Finally, the 
Perkins Act definition of ``career and technical education'' includes 
entrepreneurship, which is currently restricted under the GI Bill when 
the program is a non-degree program. For the reasons cited here, NASAA 
respectfully requests that the language of this bill be changed to 
limit the eligibility of non-degree institutions to those that are 
either public or not-for-profit institutions AND are accredited by a 
national or regionally recognized accrediting agency.
    NASAA supports this bill, in particular with the proposed 
revisions.

    Today, SAAs throughout our Nation, composed of approximately 175 
professional and support personnel, are supervising over 10,000 active 
facilities and over 100,000 programs. We pledge to you that we will not 
fail in our critical mission and in our commitment to safeguard the 
public trust, to protect the GI Bill, and to defend the future of those 
who have so nobly defended us. Mr. Chairman, NASAA thanks the Committee 
for the opportunity to share our concerns and suggestions, and we 
commit to working together with you and your staff to enhance the 
pending legislation.
                                 ______
                                 
    Prepared Statement of Phil Gore, Legislative Director, National 
            Association of Veterans' Program Administrators
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
     Prepared Statement of the National Military Family Association
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to submit our views for the record on the important 
legislation pending before the Committee. The bills considered today 
can have a significant positive impact on veterans who rely on various 
benefits services provided by the Department of Veterans Affairs (VA). 
Our comments will be limited to those bills which PVA has a specific 
interest in or position.
                    s. 75, ``the arla harrell act''
    PVA supports S. 75, the ``Arla Harrell Act.'' Veterans who have for 
so long quietly suffered the effects of Mustard Gas or Lewisite 
exposure as a result of Department of Defense testing deserve to 
receive critically need care from the VA. Senator McCaskill's report 
indicates that the number of servicemembers exposed numbers around 
4,000, and yet only 610 have been identified. Currently, only 40 
veterans have successfully filed claims and are receiving related 
benefits. The fact that only 1 percent of the veterans exposed are 
receiving benefits is attributed to the 90 percent rejection rate of 
claims. Shifting the burden of proof relating to events that occurred 
so long ago from the veteran to VA is an appropriate and deserved step 
toward rectifying the failure to fully identify this population and 
ensure they are receiving their earned benefits. We would also note 
that with a new presumption comes increased stress on VA resources. It 
is imperative that Congress ensure resources are appropriately adjusted 
to prevent VA from having to rob Peter to pay Paul.
             s. 111, the ``filipino veterans promise act''
    Following World War II, the U.S. Army created what became known as 
the ``Missouri List'' to identify Filipino soldiers who fought 
alongside U.S. troops. These individuals are entitled to VA benefits, 
but their eligibility has been primarily determined by whether their 
name appears on this list. Many Filipino veterans who served did not 
end up on this list, for a variety of reasons, but one of them being 
fear of enemy retaliation. This legislation would require VA to develop 
a process for vetting individuals who claim eligibility but do not 
appear on the list. Just because the task of determining eligibility is 
difficult should no longer be an excuse to deny deserving veterans' 
benefits. PVA understands and supports the intent of this legislation.
  s. 410, the ``shawna hill post-9/11 education transferability act''
    PVA supports this legislation which would help veterans or 
servicemembers who assigned education benefits to a dependent who 
became deceased prior to utilizing the full amount of benefits. In such 
a circumstance, the servicemember or veteran would be able to reassign 
the remaining benefits to another dependent. Current law is inequitable 
and forces veterans who suffer such a loss to also forfeit a 
significant benefit. We are pleased to support this fix.
              s. 758, the ``janey ensminger act of 2017''
    PVA understands and supports the intent of S. 758, the ``Janey 
Ensminger Act of 2016.'' This legislation would amend the Public Health 
Service Act with respect to the Agency for Toxic Substances and Disease 
Registry's (ATSDR) review and publication of illness and conditions 
relating to veterans stationed at Camp Lejeune, North Carolina, and 
their families. The bill would require the ATSDR Administrator to 
review the scientific data pertaining to the relationship between 
individuals at Camp Lejeune and the suspected resulting illness or 
condition. The ATSDR Administrator would be required to determine each 
condition that may be caused by toxic exposure, categorize the level of 
evidence or these conditions into three categories; sufficient with 
reasonable confidence that the exposure is a cause of the illness or 
condition, modest supporting causation, or no more than limited 
supporting causation. This information would then be published and 
continually updated on HHS' website. If these evidentiary 
categorizations are different from previous categorizations those 
veterans and their families currently receiving care under them would 
continue to receive that care. Newly registered veterans and family 
members would receive care based on the list provided by the ATSDR 
Administrator. Research regarding toxic exposures and the subsequent 
credibility of presumptive conditions has traditionally been the charge 
of the Institute of Medicine (IOM). The bill does not discuss the 
processes should the ATSDR conflict with the findings of the IOM.
             s. 798, the ``yellow ribbon improvement act''
    PVA fully supports this legislation. Recipients of the Marine 
Gunnery Sergeant John David Fry Scholarship were inadvertently left out 
of eligibility for the Yellow Ribbon Program. This bill would fix this 
disparity and allow scholarship recipients the full benefits of the 
program. Children and surviving spouses of servicemembers who died in 
the line of duty should not have to wait any longer to be included in 
this program.
  s. 882, post-9/11 educational assistance for purple heart recipients
    PVA supports this legislation. Members of the Armed Forces must 
currently serve for a requisite period of time on active duty before 
becoming eligible for Post-9/11 G.I. Bill benefits. It is a great 
travesty that servicemembers who are wounded in action and receive the 
Purple Heart lose the chance to earn this benefit if their injury 
forces them to leave the service before meeting eligibility 
requirements. Surely those who have suffered harm on behalf of their 
country are at least as deserving as a servicemember who merely stayed 
on active duty for six months or more. We support this measure which 
would make all Purple Heart recipients eligible for education benefits 
regardless of time served.
  s. 1209, a bill to increase the special pension for medal of honor 
                               recipients
    It has been close to fifteen years since the pension amount for 
Medal of Honor recipients was increased. With the great honor of this 
award comes a responsibility to share their stories and inspire their 
fellow citizens. Often times this requires traveling and participating 
in events around the country. This responsibility should never become a 
financial burden on those who have already sacrificed so much. We 
support this bill which more than doubles the current pension amount to 
$3,000.00 per month.

    Again, PVA thanks you for the opportunity to present our views on 
these bills. We would be happy to take any questions you have for the 
record.
                                 ______
                                 
       Prepared Statement of the Reserve Officers Association of 
                           the United States
    ROA has a membership of 50,000 and is the only national military 
association that exclusively supports all 1,085,155 Ready Reserve 
members of the Army National Guard, Army Reserve, Navy Reserve, Marine 
Corps Reserve, Air National Guard, Air Force Reserve and Coast Guard 
Reserve. We appreciate the opportunity to provide written testimony on 
the proposed bills related to the Post-9/11 G.I. Bill. The bills or 
sections that affect the Reserve Components are addressed by ROA. The 
additional bills, not included in this statement, have merit and will 
be or have been addressed by other Veteran or Military Service 
Organizations.
                          proposed legislation
    S. 410, Shauna Hill Post-9/11 Education Benefits Transferability 
Act, to authorize the transfer of unused Post-9/11 Educational 
Assistance benefits to additional dependents upon the death of the 
originally designated dependent. ROA views this as a technical change 
that is required.

    S. 473, Educational Development for Troops and Veterans Act of 
2017, to make qualification requirements for entitlement to Post-9/11 
Education Assistance more equitable, to improve support of veterans 
receiving such educational assistance.
    ROA appreciates the proposed sections that bring 12304a and 12304b 
in line with other deployment authorities. Additionally, we believe 
support of Veteran Student Centers is necessary since veteran students 
are non-traditional students. Veterans have different needs then those 
who went straight from high school to college and are 18-23 years old. 
According to VA:

    <bullet> Only 15% of Student Veterans are traditionally aged 
college students (18-23). Most are between the ages of 24 and 40
    <bullet> 47% of Student Veterans have children
    <bullet> 47.3% of Student Veterans are married

    S. 758, Janey Ensminger Act of 2017, to amend the Public Health 
Service Act with respect to the Agency for Toxic Substances and Disease 
Registry's review and publication of illness and conditions relating to 
veterans stationed at Camp Lejeune, North Carolina, and their family 
members.
    ROA supports this effort to more closely monitor the toxic 
exposure. Additionally, we believe a national toxic register must be 
established for individuals to self-identify toxic exposure. This way 
data can be compiled earlier in the cycle of service-connected medical 
conditions to determine health problems resulting from exposure. This 
will ultimately be more cost effective than relying on ``presumptive 
conditions'' decades after exposure.

    S. 844, GI Bill Fairness Act of 2017, to consider certain time 
spent by members of reserve components of the Armed Forces while 
receiving medical care from the Secretary of Defense as active duty for 
purposes of eligibility for Post-9/11 Educational Assistance, and for 
other purposes.
    This bill would include service provided under 10 United States 
Code, Section 12301(h), for individuals receiving medical care. It 
would enable them to receive education benefits just as their Active 
Component counterparts do today. ROA agrees with the Reserve Forces 
Policy Board which stated, ``If the member is not discharged because of 
the injury and instead returns to service--either deployed or as a 
Selected Reservist--none of the time spent in recovery is considered 
qualifying time. The servicemember would earn less qualifying time than 
those who served the entire time without an injury, and would not 
receive an equal benefit. In effect, this servicemember is penalized 
for being wounded or injured in theater. Ironically, if that same 
member was discharged from service because of the injury, the member 
would earn 100% of the benefit (assuming 30 days of continuous active 
duty service) . . .''

    S. 882, provides for the entitlement to educational assistance 
under the Post-9/11 Educational Assistance Program of the Department of 
Veterans Affairs for members of the Armed Forces awarded the Purple 
Heart.
    ROA supports this change and believe these individuals have 
provided a service to our country that deserves this benefit.

    S. 1192, Veterans TEST Accessibility Act, to provide for pro-rated 
charges to entitlement to educational assistance under Department of 
Veterans Affairs Post-9/11 Educational Assistance Program for certain 
licensure and certification tests and national tests, and for other 
purposes.
    We support legislation that would be based on actual costs, 
especially when it would save the servicemember a portion of their 
education entitlement.

    S. 1209, to increase the amount of special pension for Medal of 
Honor recipients.
    ROA supports this change and believes these individuals have 
provided a service to our country that deserves this benefit and is 
more reflective of past cost of living increases.

    S. 1218, Empowering FED Vets Act, to promote Federal employment for 
veterans.
    ROA urges Congress to change the Federal Hiring Preference 
standards for National Guard and Reserve members from ``180 consecutive 
days'' to ``180 cumulative days.'' This would fulfil the intent of the 
bill to ``enhance employment opportunities'' by extending it to the 
Reserve Component. It has been found that unemployment contributes to 
the high suicide rate in the RC. By the end of 2016 123 National Guard 
and 80 Reserve servicemembers were lost to suicide--one person every 
two days.

    S. 1277, Veteran Employment Through Technology Education Courses 
Act of 2017 (VET TEC Act of 2017), to require the Secretary of Veterans 
Affairs to carry out a high technology education pilot program.
    This bill would apply to certificate programs that provide 
instruction in computer programming, computer software, media 
application, data processing, or information sciences. It would help 
National Guard and Reserve members, as veterans, who are not always 
eligible for tuition assistance programs because they are not on active 
duty in a full-time status. Additionally, the services would get the 
benefit of Reserve Component members maintaining certificates while 
still performing military duty.
Additional Proposals by Section Number

SEC. 2. CONSOLIDATION OF CERTAIN ELIGIBILITY TIERS UNDER THE POST-9/11 
                    EDUCATIONAL ASSISTANCE PROGRAM OF DEPARTMENT OF 
                    VETERANS AFFAIRS. THIS WOULD INCREASE THE LOWER 
                    TIERS FROM 40 PERCENT TO 50 PERCENT AND 50 PERCENT 
                    TO 60 PERCENT.

    We support this change because it reduces out-of-pocket tuition for 
the National Guard and Reserve. This takes into consideration that they 
provide operational support on an ``as needed'' basis to the services 
and often never earn the entire 36 months of entitlement.

SEC. 3. ADDITIONAL POST-9/11 EDUCATIONAL ASSISTANCE FOR CERTAIN 
                    INDIVIDUALS PURSUING PROGRAMS OF EDUCATION IN 
                    SCIENCE, TECHNOLOGY, ENGINEERING, MATH, OR HEALTH 
                    CARE.

    This proposal could be setting a precedent for other degree 
programs to seek additional education benefits. With that as a 
possibility, Congress should amend the bill so that individuals who 
qualify for these benefits thereby incur a service commitment to the 
National Guard or Reserve. This approach is in keeping with the intent 
of the G.I. Bill being an earned entitlement. Additionally, there is a 
direct benefit to the Federal Government to help fill critical 
vacancies.
                               conclusion
    The Reserve Components bring essential capabilities to the total 
force. Adequately resourced, as they have since the Guard's advent in 
the 17th century, Citizen-Soldiers provide our Nation a unique and 
affordable augmentation of its military capability. We appreciate the 
Committee considering legislation that positively affects the National 
Guard and Reserve, as well as, family members who support their 
efforts.
                                 ______
                                 
 Prepared Statement of Tragedy Assistance Program for Survivors (TAPS)
    Chairman Isakson, Ranking Member Tester and distinguished members 
of the Senate Committee on Veterans Affairs, The Tragedy Assistance 
Program for Survivors (TAPS) thanks you for the opportunity to make you 
aware of issues and concerns of importance to the families we serve, 
the families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal Government through the Department of Defense (DOD) and 
the Department of Veterans Affairs (VA), state governments and local 
communities for the families of the fallen--those who fall in combat, 
those who fall from invisible wounds and those who die from illness or 
disease.
    We thank you for the provisions included in the Jeff Miller and 
Richard Blumenthal Veterans Health Care and Benefits Improvement Act of 
2016 including the expansion of eligibility for the Marine Gunnery 
Sergeant John David Fry Scholarship for spouses and clarification of 
eligibility for in-state tuition benefits for those using the Fry 
Scholarship. We are grateful for the Committee's focus on improving 
survivor benefits.
    TAPS would like to recognize the outstanding support we receive 
from the Department of Veteran Affairs (VA) on behalf of the survivors 
we serve. We were honored to have a Memorandum of Agreement (MoA) with 
the education specialists in the office of Economic Opportunity in the 
Veterans Benefits Administration enabling TAPS and the VA to work most 
efficiently in solving problems that surviving spouses and children 
encountered while accessing their VA education benefits. This 
relationship also allowed the VA to discover areas where policy or 
procedural processes could be improved so they could serve survivors 
more effectively.
    TAPS was recently honored to enter into a new and expanded 
Memorandum of Agreement with the Department of Veterans Affairs. VA 
Secretary Shulkin and TAPS President Bonnie Carroll signed the MOA on 
April 12, 2017, at a ceremony attended by many of the same survivors 
who will benefit from it. This agreement formalizes what has been a 
long-standing, informal working relationship between TAPS and the VA. 
The services provided by TAPS and VA are complimentary, and in this 
public-private partnership each will continue to provide extraordinary 
services through closer collaboration.
    The VA Office of Survivor Assistance, including director Moira 
Flanders and her staff, works closely with TAPS to answer questions and 
concerns that are raised by surviving family members. We also 
appreciate the opportunities provided by the DOD/VA Survivors Forum, 
held quarterly, which works as a clearinghouse for information on 
government and private sector programs and policies affecting surviving 
families. This is ably facilitated by Craig Zaroff of the VA Benefits 
Assistance Service.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.
                           education benefits
    TAPS appreciates the attention that the Committee has paid to 
making sure that veterans and surviving family members have access to 
quality education. Surviving family members using their education 
benefits often fall prey to many of the same challenges facing veterans 
using their benefits, whether it be unscrupulous recruiting practices 
or questionable and confusing financial aid packages. TAPS is proud to 
work with other organizations, including the American Legion, Veterans 
of Foreign Wars, Veterans Education Success, Student Veterans of 
America and the Department of Education to ensure that safeguards are 
in place to protect all recipients of education benefits from the VA.
    Indicative of the specialized support that TAPS provides is the 
education portal and individualized support on the education benefits 
available for the children of America's fallen heroes. TAPS staff 
members work with each individual to maximize the financial support 
they can receive to complete their education from both government and 
private agencies.
Working to Improve the GI Bill and the Fry Scholarship
    Most beneficial in the early months of the 115th Congress have been 
a series of meetings between committee staff from both the House and 
Senate and interested parties from the Veterans Service Organizations 
(VSOs), Military Service Organizations (MSOs), and Military Family 
Organizations (MFOs). These meetings prompted in depth discussions on 
how the GI Bill and Fry scholarship could be improved, in a forum where 
all opinions were welcome. We appreciate that improvements discussed 
for education benefits for survivors included:

    <bullet> expansion of the Yellow Ribbon Program to surviving spouse 
and children,
    <bullet> increases to the amount of the tuition assistance provided 
by the VA's Dependents Educational Assistance program, and
    <bullet> technical corrections to allow a realignment of 
transferred GI Bill benefits after the veteran has passed away or the 
primary designee has passed away.

    Expanded discussions in informal forums bring all organizations in 
on solving the problems and raise alternatives and possible solutions 
that could not be discovered alone. We hope these dialogs continue.
Expansion of the Yellow Ribbon Program
    TAPS supports extending eligibility for the Yellow Ribbon program, 
which allows approved institutions of higher learning and the VA to 
partially or fully fund tuition and fee expenses that exceed the 
established thresholds under the Post-9/11 GI Bill to those survivors 
eligible for the Marine Gunnery Sergeant John Fry Scholarship. TAPS 
supports S. 798 and H.R. 2103.
    We hear from surviving family members about the importance of the 
Yellow Ribbon program:
            From Emily McClimans, surviving child
        As a child of a fallen soldier that attends a school that 
        accepts the Yellow Ribbon Program, I was ecstatic. I was so 
        excited that there was a program to cover the hefty expenses 
        that were not covered with the Fry Scholarship. Unfortunately, 
        I was denied the Yellow Ribbon program because my father was 
        killed in action and he's not currently serving. I, as a 
        student of TCU, attend college alongside children of active 
        duty children that have no worries as to how they're going to 
        pay for their college education. If the Yellow Ribbon Program 
        was extended to support children of fallen soldiers, I wouldn't 
        have to worry about my education or whether or not I'll have 
        enough funds for the next semester. Children of fallen soldiers 
        deserve to not be overlooked, as our fathers and mothers are 
        just as significant as those who are currently fighting. Having 
        the opportunity to be sponsored by this program would alleviate 
        stress and allow me to know that my family is just as important 
        as the families with parents still fighting in the war.
            From Stephanie Orasing, surviving spouse
        I have been a military widow since 2005. When my husband passed 
        away I had a 7-month-old, 3-year-old, and a 6-year-old son. I 
        have had to put many things on hold so that I could be there 
        for my kids and raise them. Now that they are 12, 15, & 18, I 
        feel it is time for me to go to school to get my degree so that 
        I can show my kids that education is important. I have spent 
        the past 1 year & 9 months attending a community college in the 
        area and I will graduate with my Associates of Applied Science 
        degree next month. But the closest University or College is 30 
        minutes away and it is private. I have applied to this 
        university but the tuition is $30,000. I have been accepted but 
        I am filling the paper work for financial aid because I don't 
        know if I can do it financially. I am grateful for the Fry 
        Scholarship that will pay $21,000 but there is a remaining 
        balance of $9,000 that I must take a loan out for and I have 
        spent my life raising my kids and don't even have a job to pay 
        back this loan. I would appreciate the Yellow Ribbon program if 
        they would consider helping military widows out so that we may 
        have the chance to attend school and not have to have a 
        financial burden held over our head.
            From LaNita Herlem, surviving spouse
        Concerning the Yellow Ribbon, one of the issues I ran into was 
        when I received the Fry Scholarship (which is VERY much 
        appreciated!), I immediately wanted to get my masters in 
        political science but none of the NC state schools near me 
        offered it. I even looked at several around the state, which 
        would have meant moving, but the closest I could get was Public 
        Administration which is not what I am interested in. Private 
        schools within driving distance did offer what I wanted but 
        being nearly 50, I am not interested in having a mortgage-sized 
        school loan, nor can I afford to pay it anyway. So I decided to 
        take business classes at the local community college. Instead 
        of a master's degree in political science, I will graduate next 
        month with an associate degree in business which in reality 
        means very little. . . .  If I had access to the Yellow Ribbon 
        program, I would have had the option of considering a private 
        school and getting the degree I wanted.
Improve Chapter 35 Survivors' and Dependents' Educational Assistance 
        (DEA) and other Educational Benefits
    Not all survivors are eligible for the Fry scholarship. Survivors 
of those veterans who die of a service-connected disability or 
dependents of those who are 100 percent disabled are eligible for 
support through the Dependents' Educational Assistance (DEA) program. 
Current payments for the DEA benefits have not been increased when 
there have been significant increases to the Montgomery GI Bill or 
Post-9/11 GI Bill benefits. While increases to the DEA payment are 
increased each year a percentage point or two when there is an increase 
in other Federal benefits (i.e. Social Security, VA Dependency and 
Indemnity Compensation, VA Disability payments), the current payment of 
$1,024 a month does not go far in covering ever spiraling tuition 
costs. We appreciate the proposed increase to the DEA payment as a 
great start toward parity. TAPS supports H.R. 1956.
            From Carla Stumpf Patton, surviving spouse
        As a surviving family of an active duty Marine who died prior 
        to 9/11, an increase in Chapter 35 benefits would make a 
        dramatic a difference in alleviating the financial strain 
        associated with the increasing rates of college expenses for 
        families of the fallen. Families like ours are often excluded 
        from other funding programs that offer tremendous assistance to 
        families post-9/11; on top of the loss we have experienced, 
        this financial burden can be overwhelming. Because I was 
        pregnant at the time of my husband's death and our child was 
        born posthumously, it would be eighteen years before our child 
        needed educational assistance and while there was some funding, 
        it was not nearly enough to cover tuition rates associated with 
        his school. We were excluded from other sources of funding 
        either due to the date of death or due to the manner of death, 
        leaving very few options for financial assistance other than 
        private scholarships and having to take out large personal 
        loans. Increasing the current benefit will address the cost of 
        living and sky-rocketing college expenses our families our 
        facing in the 21st century.
Waiver for Distribution of the Transferred Post-9/11 GI Bill Benefits
    TAPS requests a technical correction for transferred GI Bill 
Benefits. If a servicemember transfers their GI Bill while alive and 
subsequently passes, no change in the number of months of the benefit 
amount allotted each family member can be made. If the servicemember or 
veteran were still living, they could adjust the number of months 
allotted to each family member at will. TAPS supports S. 1330.
            From Coleen Bowman, surviving spouse
        I am the widow of SGM Robert Bowman. Realizing the importance 
        of education, when the opportunity for transferring the Post-9/
        11 GI Bill arose, my husband took advantage of the opportunity 
        and designated myself and our 4 daughters to be recipients of 
        the benefit, being told her could reapportion the benefit when 
        the time for their education came about. Unfortunately, after 
        exposure to environmental toxins, my husband succumbed to 
        cancer in January 2013. Before he died, our then 13 year old 
        daughter told him ``Dad, I promise you I am going to go to 
        college and do great things and make you proud.'' This daughter 
        is now almost 18 years old, in her junior year of high school 
        and doing very well. She is in the top 20 percent of her class 
        and talks almost daily about how excited she is to go to 
        college and the things she needs to do in order to get there.

        I called the VA about 8 to 10 months ago and spoke to someone 
        about changing the allotted months from one child to another, 
        or myself to my daughters. We had 19 months of benefits that 
        neither I nor her sister would use. I was told ``The only 
        person that can move the months of benefits around is the 
        servicemember/veteran.'' I said ``You do understand he passed 
        away in 2013?'' She said to me again ``Yes, ma'am, I understand 
        but again the only person who can move the months is Robert 
        Bowman.''

        I was able to deal with all of my late husband's estate, I am 
        entrusted with all financial benefits for our two youngest 
        daughters, I certainly should be able to manage their education 
        benefits as well. My hope is that this issue can be resolved 
        and survivors like me will be able to have some relief of 
        stress in this area.
            From Tammy McCracken, surviving spouse
        Colonel David McCracken served honorably in the Army and Army 
        Reserves for over 20 years. During his military career, he was 
        deployed multiple times; during his last tour he was activated 
        as a reservist to deploy to the Middle East. Upon return from 
        his deployment, he was diagnosed with brain cancer which was 
        found to be service-connected by the VA because of the link to 
        burn pit exposure in the Middle East. He was not on active-duty 
        orders nor training at the time of his death due to illness, 
        and his children are not eligible for the Fry Scholarship. As 
        he already had a Masters degree, Col. McCracken knew he was 
        never going to use his own GI Bill benefits so when 
        transferability became an option he immediately transferred it 
        to his 2 young children. He transferred 35 months to his son 
        and 1 month to his daughter thinking he could go back and split 
        it as they needed it later, but because he died of wounds from 
        his service it is stuck split that way. Col. McCracken's son, 
        Connor has received an ROTC scholarship to Embry-Riddle 
        Aeronautical University and would like to give all 35 of his 
        months to his sister to use but because only the servicemember 
        can make adjustments to the amount of months each dependent 
        receives, Connor will have to let the 35 months he has go to 
        waste.

    The technical fix would be to allow survivors of those who had 
transferred the GI Bill and passed to adjust the months amongst those 
designated. In discussion with committee staff, the quandary of who 
should decide on the division was raised. We suggest it could be up to 
the current possessor of the benefit to determine if and how many 
months would be transferred. This will also only impact those already 
listed as transferees; no new transferees could be added.
    TAPS also supports S. 410 and H.R. 1112, which would authorize the 
transfer of unused Post-9/11 Educational Assistance benefits to 
additional dependents upon the death of the originally designated 
dependent.

    It is the responsibility of the Nation to provide for the support 
of the loved ones of those who have paid the highest price for freedom. 
Thank you for allowing us to speak on their behalf.
                                 ______
                                 
           Prepared Statement of Veterans Educations Success
    Chairman Isakson, Ranking Member Tester and Members of the 
Committee on Veterans Affairs, Veterans Education Success (VES) 
appreciates the opportunity to share its views on legislation under 
consideration at today's hearing.
    A Summary of VES' positions on the bills and Discussion Draft 
legislation before the Committee follows. ``No Position'' means the 
measure is outside our expertise or legislative area of interest.

 
------------------------------------------------------------------------
                                                               Veterans
                                                   Subject/    Education
                         AGENDA ITEM               Key Word     Success
                                                               Position
------------------------------------------------------------------------
      S.7Arla Harrell Act                       Mustard     No
                                                 Gas         position
                                                Claims
                                                WWII
------------------------------------------------------------------------
     S.11Filipino Veterans Promise Act          WWII        No
                                                Claims       position
------------------------------------------------------------------------
     S.41Shauna Hill Post-9/11 Education        Transfer    Support
          Transferability Act                    GI Bill
                                                 at
                                                 Dependent
                                                 's Death
------------------------------------------------------------------------
     S.47Educational Development for Troops     Guard-      Strongly
          and Veterans Act of 2017               Reserve     support
                                                 Call-ups
                                                Entitlemen
                                                 t
------------------------------------------------------------------------
     S.75Janey Ensminger Act of 2017            Toxic       No
                                                 Substance   Position
                                                 s
                                                Exposure-
                                                 Related
                                                 Care
------------------------------------------------------------------------
     S.79Yellow Ribbon Improvement Act          Fry         Strongly
                                                 Scholarsh   support
                                                 ip Fix
------------------------------------------------------------------------
     S.88Purple Heart GI Bill Act               --          Strongly
                                                             support
------------------------------------------------------------------------
     S.84GI Bill Fairness Act                   Reserves'   Strongly
                                                 Medical     support
                                                 Hold--GI
                                                 Bill
------------------------------------------------------------------------
    S.119Veterans TEST Accessibility Act        Licensure   Support
                                                 & Test
                                                GI Bill
                                                Consumptio
                                                 n
------------------------------------------------------------------------
    S.120A bill to increase special pension     MOH         No
          for medal of honor recipients          Stipend     Position
------------------------------------------------------------------------
    S.121Empowering Federal Employment for      --          No
          Veterans Act of 2017                               Position
------------------------------------------------------------------------
    S.127Veterans Employment TEC Act of 2017    Coding      Provisiona
                                                 Boot        l support
                                                 Camps
------------------------------------------------------------------------
   SectioGI Bill Discussion Draft BAG17503
------------------------------------------------------------------------
         Consolidation of certain eligibility   Raise       Support
          tiers under Post-9/11 Educational      Certain     with
          Assistance Program of the Department   GI Bill     comment
          of Veterans Affairs                    Rates for
                                                 Guard-
                                                 Reserve
------------------------------------------------------------------------
         Additional Post-9/11 Educational       GI Bill     Oppose
          Assistance for certain individuals     Hike for
          pursuing programs of education in      STEM
          science, technology, engineering,      Degrees
          math, or health care.
------------------------------------------------------------------------
         Increase in amounts of educational     Raise DEA   Support
          assistance payable under Survivors'    Rates
          and Dependents' Educational            Comparabl
          Assistance Program of Department of    e to MGIB
          Veterans Affairs
------------------------------------------------------------------------
         Authorization for use of Post-9/11     Modify      Provisiona
          Educational Assistance to pursue       Independe   l support
          independent study programs at          nt Study
          certain educational institutions
          that are not institutions of higher
          learning
------------------------------------------------------------------------
         Calculation of monthly housing         BAH Rate    Support
          stipend under Post-9/11 Educational    on          with
          Assistance program based on location   Facilitie   Comment
          of campus where classes are attended   s'
                                                 zipcode
------------------------------------------------------------------------
         Repeal of sunset on work-study                     No
          allowance from Department of                       position
          Veterans Affairs for certain
          qualifying work-study activities
------------------------------------------------------------------------
         Authorization of transfer of                       Support
          entitlement to Post-9/11 Educational
          Assistance by dependents who receive
          transfers from individuals who
          subsequently die
------------------------------------------------------------------------
         Department of Veterans Affairs                     Support
          provision of on-campus educational
          and vocational counseling for
          veterans
------------------------------------------------------------------------
        1Restoration of entitlement to Post-9/              Support
          11 Educational Assistance and other
          relief for veterans affected by
          school closure
------------------------------------------------------------------------
        1Treatment, for purposes of                         Support
          educational assistance administered
          by the Secretary of Veterans
          Affairs, of educational courses that
          begin seven or fewer days before or
          after the first day of an academic
          term
------------------------------------------------------------------------
        1Improvement of information technology              Support
          of the Veterans Benefits
          Administration
------------------------------------------------------------------------
        1Provision of information regarding                 Support
          entitlement of veterans to
          educational assistance
------------------------------------------------------------------------
        1Extension of authority for Advisory                Support
          Committee on Education
------------------------------------------------------------------------
        1Limitation on use of reporting fees                Support
          payable to educational institutions
          and joint apprenticeship training
          committees
------------------------------------------------------------------------
        1Training for school certifying                     Support
          officials as condition of approval
          of courses for veterans educational
          assistance
------------------------------------------------------------------------
        1Modifications relating to                          Support
          reimbursement of expenses of State
          approving agencies for matters
          relating to administration of
          veterans educational assistance
------------------------------------------------------------------------
        1Modification of calculation of amount              Support
          of educational assistance for
          individuals partially eligible for
          Post-9/11 Educational Assistance
------------------------------------------------------------------------

   comment on selected bills and gi bill discussion draft provisions
    S. 473 The Educational Development Act for Troops and Veterans Act 
(Senators Tester, Blumenthal, Brown, Murray). The bill would provide 
education benefits to National Guard and Reserve members called to 
active Federal service under orders that don't qualify them for Post-9/
11 GI Bill benefits, and for other purposes.
    VES strongly supports the educational benefits provisions in the 
bill.
    Sections 2-4 of this legislation would ensure that any time spent 
activated on mobilization authorization orders 12304a, 12304b, and 
12301d of Title 10, U.S.C. counts toward eligibility for Post-9/11 GI 
Bill benefits for Guardsmen and reservists.
    In 2012 Congress authorized the Secretary of Defense and Service 
Secretaries to more easily access the Reserve forces. In addition to 
call-ups in law for ``national emergencies'' and ``contingency 
operations,'' the Pentagon may call Guard and Reserve formations to 
active duty for missions that are ``pre-planned and budgeted,'' i.e., 
such missions do not require formal action by Congress or the Commander 
in Chief.
    VES assumes the exclusion of veterans benefits for the G-R 
mobilized under Section 12304b and perhaps the other sections of law 
cited above were an oversight in the fog of enacting new deployment 
authorities and not an intentional slight against these servicemembers.
    Since enactment of the law-change, the Services have steadily 
increased their reliance on pre-planned and budgeted call-ups of the 
Guard and Reserve.
    As a matter of principle and fairness to our Nation's ``operational 
Guard and Reserve'' men and women, there is no reason to exclude them 
from GI Bill entitlement simply because they serve under ``wrong'' 
orders. VES strongly endorses Sections 2-4 of S. 473.
    Section 6 would create a grant program with the Department of 
Education to help institutions of higher education establish, maintain, 
and improve veteran education centers--a dedicated space on a college 
or university campus that provides students who are veterans, members 
of the Armed Forces, or eligible family members a centralized location 
for services.
    VES supports the provision. We note that the VA operates 94 
VetSuccess on Campus programs at designated colleges and universities 
across the Nation that provide VA counselors and support to veterans 
eligible for Vocational Rehabilitation and Employment benefits. VES 
recommends coordination between the VA and Dept. of Education on the 
new program envisioned in Sec. 6.
    Section 8 of S. 473 would prorate the monthly housing allowance for 
the portion of the month the servicemember is not on active duty by 
amending Title 38, U.S.C. to clarify the eligibility for monthly 
stipends paid under the Post-9/11 Educational Assistance Program for 
certain members of the reserve components of the Armed Forces. VES 
supports Section 8.
    S. 798 Yellow Ribbon Improvement Act of 2017 (Senators Cassidy, 
Brown, Tillis). S. 798 would correct an inequity that denies Survivors 
entitled to the Fry Scholarship the opportunity to participate in the 
Yellow Ribbon matching program. Under the Yellow Ribbon participating 
colleges and universities may match up to half any remaining cost after 
GI Bill benefits are paid. The VA matches the difference. VES strongly 
supports S. 798.
    S. 844 GI Bill Fairness Act of 2017 (Senators Wyden, Boozman). 
S. 844 would authorize Guard and Reserve members receiving medical care 
or treatment on active duty to earn GI Bill entitlement during that 
period of service. Under current law, reservists who are wounded, ill 
or injured in the line-of-duty and eligible to earn GI Bill benefits 
are transferred to ``medical hold'' status resulting in the loss of 
that service for the purpose of GI Bill entitlement. By contrast active 
duty servicemembers continue to earn GI Bill benefits during a medical 
hold period of service. VES strongly supports S. 844.
    S. 882. Purple Heart GI Bill Act (Senators Rounds, Boozman). S. 882 
would grant full Post-9/11 GI Bill benefits to all Post-9/11 Purple 
Heart recipients.
    Currently, only veterans who either serve at least 36 months on 
active duty or are medically retired receive Post-9/11 GI Bill benefits 
at the 100 percent rate. Those who were not medically retired and serve 
less than 36 months receive only a portion of those benefits on a 
prorated basis. Unfortunately, this leaves out many Purple Heart 
recipients, particularly from the Reserve Component, who were wounded 
on Post-9/11 battlefields, but were activated for less than three years 
in total. VES strongly supports S. 882.
    S. 1192, Veterans TEST Accessibility Act of 2017 (Senator Rounds, 
Hirono). S. 1192 would change the rate for reimbursing the cost of 
licensure and certification tests under the GI Bill to a pro-rated 
amount based on the actual cost of the fee charged for the test. VES 
supports S. 1192.
    S. 1277. Veterans Employment TEC Act of 2017 (Senator Boozman, 
Heller). S. 1277 would require the Secretary of Veterans Affairs to 
conduct a pilot program under which eligible veterans could enroll in 
high technology programs of education. (The pilot authority would not 
amend GI Bill statutes nor affect GI Bill benefits for veterans).
    VES will not oppose S. 1277 provided the following concerns are 
addressed:

          First, we urge the Committee to add language to ensure that a 
        legitimate, high quality boot camp receives the VA contract. 
        Currently, the only requirement is that the boot camp has been 
        in existence for two years, but many low-quality rip-offs have 
        existed for two years. There is no mention of outcomes, price, 
        scale, or population served in the definition of qualified 
        providers. We recommend the provision require VA to survey 
        America's best high tech companies and select a boot camp from 
        one of the top five ranked by high tech companies.
          Second, the provision includes no cap on tuition. Some 
        proprietary boot camps charge outrageous tuition for a very 
        short number of weeks. The tuition should be capped, such as by 
        limiting the VA reimbursement to no more than 10% higher than 
        the average nonprofit boot camp tuition price for the same time 
        period. Another method would be to limit the boot camp tuition 
        coverage to no more than a weekly prorated share of the annual 
        GI Bill.
          Third, we urge the Committee to consult executives from the 
        top tech companies in Silicon Valley. Executives tell us many 
        coding boot camps are a rip off, and that the public excitement 
        about such boot camps may be misplaced.
          Fourth, there is real concern that giving Federal funding to 
        boot camps, some of which are owned by proprietary colleges, 
        will lead to the next big scandal. Significant quality 
        assurance measures are needed to prevent that. At a minimum, 
        the Committee could require that coding boot camp programs meet 
        the current Education Department requirements for short-term 
        programs--70% completion and 70% job placement rates. Coding 
        boot camps are not currently eligible for Education Department 
        funding because they are not accredited and are too short to 
        qualify for Pell Grants. Reports show the same problems with 
        boot camp job placement rate claims that occurred among bad 
        actors in the proprietary college industry, so much so that the 
        private lenders that lend to students in these program just 
        announced a more vigorous job placement rate definition and 
        verification system for the coding camps.
          Finally, the provision includes some clear loopholes, 
        including failing to define the type, quality, or duration of 
        ``employment'' and ``meaningful employment.''
                   gi bill discussion draft bag17503

SECTION 2. CONSOLIDATION OF CERTAIN ELIGIBILITY TIERS UNDER POST-9/11 
                    EDUCATIONAL ASSISTANCE PROGRAM OF THE DEPARTMENT OF 
                    VETERANS AFFAIRS.

    This provision would raise the percentage of Post-9/11 GI Bill 
entitlement for the lowest two tiers for National Guard and Reserve 
servicemembers with qualifying active duty service. Tier 1--an 
aggregate of 90 days active duty--would increase from 40% to 50% GI 
Bill entitlement. Tier 2--aggregates of more than 180 days, but less 
than 360 days--would increase from 50% to 60% entitlement.
    Below is a recent VA report summarizing new GI Bill entitlement by 
tiers:

                          Number of Veterans, Servicemembers, and Dependents Using Pthe Post-9/11 Benefit by Eligibility Level
--------------------------------------------------------------------------------------------------------------------------------------------------------
                        Eligibility level                             40%       50%       60%        70%       80%       90%        100%        Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Number of Users..................................................   17,209    65,530    109,788    63,396    68,504    71,527    1,090,195    1,486,149
 
Percent of total.................................................     1.2%      4.4%       7.4%      4.3%      4.6%      4.8%        73.4%         100%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: VA (August 1, 2009 through Sept. 30, 2015).

    The data indicate that over time Tier 1 and Tier 2 participants 
appear to migrate to higher levels of entitlement due to additional 
qualifying active duty service. In other words, over a 6 year period 
from the start of the new GI Bill only 1.2% of all users were in Tier 
1. The 100% entitlement top tier no doubt includes a substantial number 
of National Guard and Reserve members who have served multiple 
qualifying tours of active duty. Unofficially, more than one million 
Guard and Reserve members have been called up since Sept. 11, 2001 and 
over 300,000 have had multiple activations.
    VES recognizes and greatly appreciates the service and sacrifice of 
our Nation's Guard and Reserve warriors. VES is supportive of Section 2 
of the Draft Bill but we wonder whether there is a demonstrated need to 
increase the first two tiers of eligibility at this time.
    We believe strongly that the first order of business must be to 
resolve the inequity of denied entitlement for service under certain 
activation orders such as 12304b, 10 U.S.C. discussed above.

SECTION 3. ADDITIONAL POST-9/11 EDUCATIONAL ASSISTANCE FOR CERTAIN 
                    INDIVIDUALS PURSUING PROGRAMS OF EDUCATION IN 
                    SCIENCE, TECHNOLOGY, ENGINEERING, MATH, OR HEALTH 
                    CARE.

    This provision would authorize an additional lump sum payment under 
the P911 GI Bill for veterans who pursue degrees in science, 
technology, engineering, math or health care.
    VES appreciates the intent of this provision. It would further the 
career goals of certain veterans who pursue STEM degrees and 
potentially benefit the economy over time. These are certainly laudable 
goals.
    We must caution, however, that the provision would overturn a 
fundamental principle of all GI Bill programs extending back more than 
70 years, namely, that all veterans are entitled to the same basic 
benefits under the GI Bill for the same service rendered to the Nation.
    With those benefits, veterans are free to pursue any course of 
study or training approved for the GI Bill that meets their personal 
and career needs. No veteran should get additional basic benefits on 
the basis of their field of study or training.
    Section 3 would establish a policy that would alter this 
longstanding principle of benefit equity. In effect, it would say that 
some fields of study are inherently more valuable, thereby relegating 
non-STEM pursuit to a lesser level of importance to the Nation. A 
second order consequence of the provision is that lawmakers may be 
tempted in the future to lower (or raise) entitlement to the GI Bill 
based on the attributed worth of a program of study. What happens, for 
example, if STEM degrees fall out of favor or are not seen as important 
to the economy as business degrees, for example?
    Similarly, we would encourage you to consider the unintended, 
second order consequence of this provision in incentivizing some STEM 
programs to change their tuition and/or number of credits needed, in 
order to charge more to take advantage of this provision.
    Finally, we would ask if the Committee has thoroughly consulted 
experts to determine if this provision is needed. We would note that 
the Nation's finest STEM programs such as at the Massachusetts 
Institute of Technology and Carnegie Mellon, do not require additional 
time to graduate, raising the question of the necessity of this 
provision.
    There is a current mechanism for the proposed objective--additional 
entitlement--at least in part. Veterans with eligibility for multiple 
GI Bill programs may use up to 48 months of benefits. For example, 
Montgomery GI Bill (Chap. 30, 38 U.S.C.) participants can use up to 12 
months of entitlement and make an irrevocable election for the P911 GI 
Bill benefit and have 36 months of remaining entitlement for a total of 
48 months of benefits.
    For these reasons, VES is unable to support Section 3.

SECTION 4. INCREASE IN AMOUNTS OF EDUCATIONAL ASSISTANCE PAYABLE UNDER 
                    SURVIVORS' AND DEPENDENTS' EDUCATIONAL ASSISTANCE 
                    PROGRAM

    This provision would restore the education and buying power of 
Survivors and Dependents Educational Assistance (DEA) benefits under 
Chap. 35, 38 U.S.C..
    When Congress enacted the P911 GI Bill in 2008, it also increased 
by 20% MGIB benefits. Unfortunately, Survivors and their dependents 
were left behind. Over time, the value of their benefits has fallen 
further behind since the annual COLA adjustments, if any, are applied 
to a smaller base amount.
    Congress needs to do more to help Survivors prepare for their 
futures by restoring the value of their benefits earned by their 
spouses who made the ultimate sacrifice. VES strongly supports Section 
4.

SECTION 5. AUTHORIZATION FOR USE OF POST-9/11 EDUCATIONAL ASSISTANCE TO 
                    PURSUE INDEPENDENT STUDY PROGRAMS AT CERTAIN 
                    EDUCATIONAL INSTITUTIONS THAT ARE NOT INSTITUTIONS 
                    OF HIGHER LEARNING.

    VES shares the views of the National Association of State Approving 
Agencies on this provision. Adequate controls should be put in place to 
limit the potential for abuse by ``non-accredited'' independent study 
programs. VES is very concerned that some veterans may be duped into 
so-called Independent Study programs that don't lead to a license, 
certification or other meaningful credential needed to pursue a career 
in a chosen field of study. State Approving Agencies and/or the 
Departments of Veterans Affairs, Education and Labor must be given 
authority to oversee programs envisioned under Section 5.

SECTION 6. CALCULATION OF MONTHLY HOUSING STIPEND UNDER POST-9/11 
                    EDUCATIONAL ASSISTANCE PROGRAM BASED ON LOCATION OF 
                    CAMPUS WHERE CLASSES ARE ATTENDED.

    The provision would change the method for determining the housing 
stipend for veterans to the location of the facility where the veteran 
is enrolled.
    VES is supportive of the provision, provided the VA assesses the 
impact of the proposal on veterans. The sponsor of the House version of 
the bill, Rep. Paul Cook, wrote to the VA earlier this year requesting 
data on the how his bill would affect the housing stipend calculation 
system-wide. It's our understanding the VA has not yet responded to the 
request. We believe the housing stipend data will be helpful in 
determining whether to proceed with some version of this provision. The 
VA must assure Congress that any second or third order impact on 
veterans is fair and balanced.

SECTION 8. AUTHORIZATION OF TRANSFER OF ENTITLEMENT TO POST-9/11 
                    EDUCATIONAL ASSISTANCE BY DEPENDENTS WHO RECEIVE 
                    TRANSFERS FROM INDIVIDUALS WHO SUBSEQUENTLY DIE.

    VES supports Section 8.

SECTION 9. DEPARTMENT OF VETERANS AFFAIRS PROVISION OF ON-CAMPUS 
                    EDUCATIONAL AND VOCATIONAL COUNSELING FOR VETERANS.

    VES notes the existence of the VetSuccess on Campus (VSOC) program 
at 94 campuses across the country according to the VA website. VES is 
supportive of Section 9 and recommends Congress and the VA assure 
coordination and/or integration of the new authority with VetSuccess on 
Campus.

SECTION 10. RESTORATION OF ENTITLEMENT TO POST-9/11 EDUCATIONAL 
                    ASSISTANCE AND OTHER RELIEF FOR VETERANS AFFECTED 
                    BY SCHOOL CLOSURE.

    Thousands of student veterans who were enrolled in ITT and 
Corinthian colleges, now closed, have lost vital GI Bill benefits 
through no fault of their own.
    VES has been in contact with nearly 1,000 of these veterans and is 
advising them on actions they may be able to take regarding their 
benefits.
    Veterans regularly describe to VES various false statements that 
their school made in order to persuade them to enroll. For example, 
many veterans describe how their school inflated its job placement 
rates or the efforts it puts into finding students jobs. Many also 
report that their school misled them about the accreditation status of 
its programs or whether its credits transfer to other schools. Many 
veterans describe how their school promised them that the GI Bill would 
cover their entire education, only to be told later that they would 
need to take out loans in order to complete their education. Some even 
describe learning that officials at their school falsified Federal aid 
applications by forging their names on loan applications.
    One veteran told us that his school said it had a 93% job placement 
rating, and promised that he would have access to a nationwide network 
of employers. That veteran told us, ``It wasn't until near the end of 
my schooling that I began to realize that a lot of the training I was 
getting was outdated, in some instances by a few years, and that I had 
a long way to go until I was up to par with the industry standards. I 
also found out that . . .  my program had a success rate of only 38%. I 
have student loans that I am going to be paying off for years and 
really I have nothing to show for it.''
    Another veteran, Travis, attended ITT Tech. Travis asks, ``Why was 
I getting outdated material? Why were instructors not even competent in 
what they teach? How could I know more about the subject than my own 
instructor? This was MADNESS!'' He goes on, ``What more can we do about 
this because at the end of the day the veterans are the ones taking the 
biggest hit! Lost GI Bill that we can't recoup, lost time away from 
family and friends and nothing to show for it! What about my time going 
to this school, sleepless nights studying for exams and finals, driving 
to school, driving home from school? As Veterans, the Education system 
has to do more for us! They should give us our time back toward our GI 
Bill that was used. Maybe in the future they will look more into these 
schools so this type of thing never happens again!''
    Those veterans are just a few examples of thousands who served 
their country, chose to use the educational benefits they earned in the 
military in order to transition into civilian life, yet later 
discovered that their school defrauded them, provided a subpar 
education, and in some cases could not even keep its doors open. Along 
with wasting their GI Bill benefits, many of these veterans are now 
saddled with overwhelming student loan debt. As Travis told us, ``It's 
affecting me as well as other veterans. Sometimes just dwelling on it 
brings me to tears because, in reality, at the end of the day, you 
honestly feel like a failure. You try so hard to get your education in 
order and then this happens.''
    Section 10 would restore up to four weeks GI Bill entitlement and a 
housing stipend under specific criteria in cases where a school closed 
permanently and the veteran did not receive credit or lost training 
time toward a program of study. The effective date would be the 
beginning of fiscal year 2015.
    VES supports Section 10. VES recommends the Committee provide a 
more generous reinstatement of benefits than four weeks of GI Bill, 
such as by providing the entire GI Bill reinstated as in the House bill 
by Congressman Messer. Additionally, we recommend the Committee amend 
the provision to include student veterans who were defrauded by the 
now-closed Corinthian Colleges.

SECTION 11. TREATMENT, FOR PURPOSES OF EDUCATIONAL ASSISTANCE 
                    ADMINISTERED BY THE SECRETARY OF VETERANS AFFAIRS, 
                    OF EDUCATIONAL COURSES THAT BEGIN SEVEN OR FEWER 
                    DAYS BEFORE OR AFTER THE FIRST DAY OF AN ACADEMIC 
                    TERM.

    VES supports Section 11.

SECTIONS 12-15.

    VES supports.

SECTION 16. TRAINING FOR SCHOOL CERTIFYING OFFICIALS AS CONDITION OF 
                    APPROVAL OF COURSES FOR VETERANS EDUCATIONAL 
                    ASSISTANCE.

    This provision has the potential for reducing errors in calculating 
benefit entitlement and overpayments under the GI Bill programs for 
veterans by requiring school certifying officials to be trained by the 
VA as a condition for the school to be approved for such benefits. VES 
supports Section 16.

SECTION 17. MODIFICATIONS RELATING TO REIMBURSEMENT OF EXPENSES OF 
                    STATE APPROVING AGENCIES FOR MATTERS RELATING TO 
                    ADMINISTRATION OF VETERANS EDUCATIONAL ASSISTANCE.

    This provision would increase funding for the State Approving 
Agencies (SAAs). SAAs are essential to the management and integrity of 
GI Bill programs, which is in our veterans' best interest. Funding for 
the SAAs has been flat-lined for over 10 years except for modest 
increases under annual COLAs. The provision would raise annual funding 
by discretionary appropriation of $3 million per year. VES supports 
Section 17.

SECTION 18. MODIFICATION OF CALCULATION OF AMOUNT OF EDUCATIONAL 
                    ASSISTANCE FOR INDIVIDUALS PARTIALLY ELIGIBLE FOR 
                    POST-9/11 EDUCATIONAL ASSISTANCE.

    This provision would change the method of calculating GI Bill 
benefits for veterans who have less than a 100% entitlement.
    The following example illustrates the inequity. A veteran has 50% 
eligibility for the P911 GI Bill. She can receive 50% of the net 
tuition and fee costs paid, up to a maximum of half the private school 
cap.
    The annual tuition and fee charges for this veteran are $20,000, 
which is less than the annual cap if it's a private school.
    The veteran applies for grants and scholarships from outside 
sources, the school, and from their employer. The veteran receives 
$10,000 in tuition scholarships for the school year.
    When certifying the veteran's enrollment to VA, the school reports 
net tuition and fee charges of $10,000 (actual charges minus 
scholarships). VA pays 50% of the reported charges, or $5,000.
     The veteran now has to come up with another $5,000 to pay the 
balance. But if any of those additional funds are tuition scholarships 
or employer assistance, it will further reduce the calculated net 
tuition and fees and further reduce the amount the VA pays.
    Section 18 would make the inclusion of any scholarship, or other 
Federal, State, institutional, or employer-based aid or assistance 
(other than loans and any funds provided under section 401(b) of the 
Higher Education Act of 1965 (20 U.S.C. 1070a(b))) that is provided 
directly to the institution and specifically designated for the sole 
purpose of defraying tuition and fees, no longer applicable to the net 
tuition and fee calculation for those with less than 100% eligibility.
    VES supports Section 18.

    Veterans Education Success appreciates the opportunity to express 
our views before the Committee. We thank the Members for their enduring 
interest in and support of our Nation's veterans, survivors and their 
family members.
                                 ______
                                 
   Prepared Statement of Kristofer Goldsmith, Assistant Director for 
       Policy and Government Affairs, Vietnam Veterans of America

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ______
                                 
                                                         Attachment
   Memorandum from Veterans Legal Services Clinic, Yale Law School, 
presented by Erin Baldwin, Corey Meyer, and Rachel Tuchman, Law Student 
                                Interns

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
